<html>
<title> - CLIMATE CHANGE ON WILDFIRE ACTIVITY</title>
<body><pre>[Senate Hearing 110-228]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-228

                  CLIMATE CHANGE ON WILDFIRE ACTIVITY

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   TO

CONSIDER SCIENTIFIC ASSESSMENTS OF THE IMPACTS OF GLOBAL CLIMATE CHANGE 
               ON WILDFIRE ACTIVITY IN THE UNITED STATES

                               __________


                           SEPTEMBER 24, 2007









                       Printed for the use of the
               Committee on Energy and Natural Resources

                                 -------

                        U.S. GOVERNMENT PRINTING OFFICE

39-889 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



























               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

DANIEL K. AKAKA, Hawaii              PETE V. DOMENICI, New Mexico
BYRON L. DORGAN, North Dakota        LARRY E. CRAIG, Idaho
RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            RICHARD BURR, North Carolina
MARY L. LANDRIEU, Louisiana          JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           BOB CORKER, Tennessee
KEN SALAZAR, Colorado                JOHN BARRASSO, Wyoming
ROBERT MENENDEZ, New Jersey          JEFF SESSIONS, Alabama
BLANCHE L. LINCOLN, Arkansas         GORDON H. SMITH, Oregon
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
JON TESTER, Montana                  MEL MARTINEZ, Florida

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
              Frank Macchiarola, Republican Staff Director
             Judith K. Pensabene, Republican Chief Counsel
                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Barrasso, Hon. John, U.S. Senator From Wyoming...................     2
Bartuska, Ann, Deputy Chief, Research and Development; 
  Accompanied by Susan Conard, National Program Leader, Fire 
  Ecology Research, Forest Service, Department of Agriculture....     6
Bingaman, Hon. Jeff, U.S. Senator From New Mexico................     1
Corker, Hon. Bob, U.S. Senator From Tennessee....................     5
Craig, Hon. Larry E., U.S. Senator From Idaho....................     5
Domenici, Hon. Pete V., U.S. Senator From New Mexico.............     3
Helms, John A., Professor Emeritus of Forestry, University of 
  California, Berkeley, CA.......................................    17
Salazar, Hon. Ken, U.S. Senator From Colorado....................     3
Swetnam, Thomas W., Director, Laboratory of Tree-Ring Research, 
  and Professor of Dendrochronology, University of Arizona, 
  Tucson, AZ.....................................................    22
Tester, Hon. Jon, U.S. Senator From Montana......................     5
Wyden, Hon. Ron, U.S. Senator From Oregon........................     4

                               APPENDIXES

                               Appendix I

Responses to additional questions................................    47

                              Appendix II

Additional material submitted for the record.....................    71



















 
                  CLIMATE CHANGE ON WILDFIRE ACTIVITY

                              ----------                              


                       MONDAY, SEPTEMBER 24, 2007

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 3:04 p.m. in room 
SD-366, Dirksen Senate Office Building, Hon. Jeff Bingaman, 
chairman, presiding.

OPENING STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR FROM NEW 
                             MEXICO

    The Chairman. The hearing will come to order.
    Thank you all for being here. The likelihood that global 
warming would result in increased wildfire activity and fire-
suppression costs was discussed at a hearing in this committee 
more than 27 years ago. Since then, we've had numerous hearings 
to consider the science of climate change and also the science 
related to wildfires. But this is the first hearing, I'm aware 
of, to consider the impact of global warming specifically on 
wildfire activity.
    A report, released earlier this month by the GAO, reported 
that a group of experts convened by it and by the National 
Academies of Sciences, quote, ``generally agreed that the 
scientific community has reached consensus that climate change 
will cause forest fires to grow in size and severity,'' end 
quote. That consensus is reflected in the fourth assessment of 
the Intergovernmental Panel on Climate Change. It concludes 
that, quote, ``An intensification and expansion of wildfires is 
likely, globally, and that--with that, an extended period of 
high risk--high fire risk and large increases in area burned in 
North America as a result of global warming.'' Despite the 
enormous efforts of firefighters, and while--wildfires have 
become larger, they've become more intense, they've become more 
difficult, and they've become more expensive to control in 
recent years.
    We've often discussed the role that past wildfire 
suppression and other land uses have had on fueling wildfire 
activity in some areas in recent years. It's clear, from the 
science, that climate change is driving the dramatic growth in 
wildfire activity, and that it is likely to get worse. A number 
of studies predict that global warming will increase the number 
of acres burned by wildfires in the United States by 25 to 75 
percent by the middle of the century. Alaska, the Southeast, 
the Southwest, and the northern Rockies appear to be at 
particularly high risk. This information is important to this 
committee because of our work on global warming and on wildfire 
policies. For example, the wildfire situation is a stark 
reminder of the enormous current and potential costs of not 
acting on global warming. That's a point that was made in the 
Stern report that we received earlier in the year. Along with 
rising temperatures, Federal wildland fire spending has more 
than tripled in less than 10 years. It's risen from 800 million 
in 1996 to 3 billion this year. It also is a reminder that, 
while the Forest Service's work to contain its wildland 
firefighting costs is critical, those efforts will not solve 
the growing budget crisis that it faces.
    We have four distinguished scientists testifying before the 
committee today, and let me just mention who they are and then 
defer to Senator Domenici for any opening statement that he 
has.
    Our three witnesses today are Dr. Ann Bartuska, who is the 
Forest Service's deputy chief of research and development. 
Thank you very much for being here. She's accompanied by Dr. 
Susan Conard, who is the Forest Service's national program 
leader for fire ecology research; Dr. Thomas Swetnam, who is 
the director of the Laboratory of Tree-Ring Research, and 
professor of dendrochronology at the University of Arizona; and 
also Dr. John A. Helms, who is professor emeritus at the 
University of California, testifying on behalf of the Society 
of American Foresters. So, we welcome all of you.
    Now let me turn to Senator Domenici for any opening 
statement he would like to make.
    [The prepared statements of Senators Barrasso and Salazar 
follow:]
  Prepared Statement of Hon. John Barrasso, U.S. Senator From Wyoming
    Wildfire and its implications for people and resources are of great 
interest in Wyoming. Fires are growing increasingly larger and more 
frequent in our state and across the Rocky Mountain West.
    This trend raises questions of how we as a Nation should provide 
for the safety of our people and the sustainability of our land.
    We know that our state has sustained a drought for almost a decade 
in some areas. We know wildfires are increasing in size and scope--as 
they do in hot and dry years.
    We know that forests continue to stockpile fuels without proper 
harvesting. They suffer infestation of bark beetles and other invasive 
species that increase fuel loads.
    We also know an active program of harvesting and thinning forest 
lands can combat these conditions.
    The people of Wyoming need to see action--action that will allow 
for responsible harvesting of public and private lands to reduce fire 
risk.
    Thinning stands and treating forests to reduce fuel loads is the 
only proven method of reducing the scope and intensity of wildfire 
before problems occur.
    Fires ravage overgrown, hot, dry fuel loads, but thinned stands in 
healthy forests withstand lightning strikes and drought years.
    The right path of action is clear. We need to manage our lands 
responsibly.
    So, where are the Forest Service regulations implementing an active 
program of forest management? Where is Congress' call to public 
agencies and private citizens to manage their forests appropriately?
    The citizens of Wyoming deserve an active management plan.
    I will be interested to hear the witnesses testimony not in regard 
to climate change, but in regard to addressing the threat of hot, dry 
years by mitigating the increased wildfire risk.
    We've experienced stretches of devastatingly dry years in the past. 
We will see similar events in the future.
    Making one issue the scapegoat for all of our woes is easy and 
grabs a headline in the paper. Finding the will to make sound policy 
decisions based on common sense is the challenge.
   Prepared Statement of Hon. Ken Salazar, U.S. Senator From Colorado
    I want to thank Chairman Bingaman and Ranking Member Domenici for 
holding today's hearing on global climate change and its effects on 
wildfire activity in the United States. I would also like to thank our 
witnesses for taking the time to share their expertise with us today.
    Climate change is a very serious problem. In June, the Senate 
passed an energy bill that has the potential to curb the progression of 
climate change by promoting the use of renewable energy and by reducing 
the amount of greenhouse gas emission released into the atmosphere. I 
look forward to working with my colleagues as this legislation is 
considered by the House-Senate conference committee.
    However, we are constantly learning more about the effects of 
climate change. What we are learning is that we are experiencing the 
impacts of climate change now, and that it is not something that will 
just impact us in the future. Climate change is increasingly being 
cited by scientists as the cause for our more frequent and severe 
wildfires.
    Today's hearing is of interest to me as studies have shown that 
Western states are particularly vulnerable to more frequent and severe 
wildfires due to climate change. Studies have shown that fire season 
itself is even longer in the West than it was twenty years ago.
    In my state of Colorado, the Hayman wildfire that began in June of 
2002 was the largest wildfire in Colorado's history and burned nearly 
138,000 acres over the course of three weeks. Over 40,000 people living 
outside of Denver were forced to evacuate their homes, and 133 homes 
were lost.
    Today's hearing is critical in helping us to understand the impacts 
of climate change and the increased fire danger that is now posed. It 
is also important to help us understand the necessary measures we must 
take to prevent further damage to our lands and communities and how we 
can best serve the people of our states in the face of wildfires.
    I want to thank Chairman Bingaman and Ranking Member Domenici once 
again for holding this important hearing so that we can understand the 
best way to address this important issue.

   STATEMENT OF HON. PETE V. DOMENICI, U.S. SENATOR FROM NEW 
                             MEXICO

    Senator Domenici. Thank you, Mr. Chairman, and good 
afternoon.
    I doubt that much of the information we will hear today is 
going to surprise most members who've participated in hearings 
in this committee over the last decade. I anticipate our 
witnesses today will refine our understanding of what may be 
occurring, and will help us to begin to focus on the areas of 
greatest risk. For that, I thank them for taking the time to 
come to testify.
    It seems to me that we have always had years of drought, 
warm summers, early runoffs of snowpack, and when we have the 
right weather conditions, we experience spectacular fires. I've 
no doubt that we will see the convergence of these events again 
in the future.
    At least three cataclysmic fires come to mind, and they all 
occurred during a period of changing climate conditions. They 
are: one, the afternoon of October 8, 1871, when the township 
of Peshtigo and parts of Green Bay, Wisconsin, were destroyed. 
A prolonged and widespread drought and high temperatures, 
capped off by a cyclonic storm, resulted in a fire covering 
about 2400 square miles in Wisconsin and upper Michigan. 
Between 1200 and 2400 lives were lost that afternoon, but it 
didn't get much press, because it was also the day that the 
city of Chicago burned.
    On Sunday, September 1, 1894, a great firestorm destroyed 
Hinckley, Minnesota, and five other nearby communities. The 
fire covered 400 square miles, consuming nearly everything in 
its path. It is estimated that between 420 and 800 people died. 
Thankfully, over 500 people were evacuated from Hinckley on two 
trains that happened to be in the area at the time.
    Finally, the third was on August 20 and 21, 1910. Fires 
raged across 3 million acres of northern Idaho and western 
Montana, an area the size of Connecticut. The fires went on 
runs of more than 50,000 acres, 78 square miles, and threw fire 
brands 10 miles in front of the main fire. The wind blew at up 
to 80 miles per hour. In this event, 86 people are known to 
have perished.
    I expect our witnesses today are all going to tell us that 
we are in for more warming, and, therefore, more fires. They 
are likely to tell us that when these fires occur, they will be 
very damaging, and, yes, that these fires will result in more 
carbon dioxide being released into the atmosphere, which will 
impact our environment. Some of the impact may be beneficial, 
and some may be damaging.
    I think that we all understand that. But what we are 
struggling with is this: whether anything can be done about 
changes to our forests; and, if so, how much the remedial 
actions may cost.
    In the short run, there are only two variables that we can 
influence, those being hazardous fuel removals from Federal 
lands, and private development in and around our Federal 
forests. I hope that Congress will address these two issues. 
I'm sure today's witnesses will have more suggestions.
    In closing, I very much appreciate this hearing and these 
witnesses coming to testify.
    Thank you very much, Mr. Chairman.
    The Chairman. Thank you very much.
    Let me just indicate, we have a good number of Senators 
here, as well as our witnesses. Let me ask if any Senator has a 
short statement they would like to put in the record, at this 
time, or briefly summarize for us. Let me call on Senator 
Wyden.

           STATEMENT OF HON. RON WYDEN, U.S. SENATOR 
                          FROM OREGON

    Senator Wyden. Thank you very much, Mr. Chairman. I'll be 
brief.
    I think you've made it very clear that there is an emerging 
scientific consensus that climate change and the growing number 
of wildfires are related. What we're going to particularly need 
to do in government is to see if we can get in front of the 
trends and reduce the number of forest fires. My sense is, with 
some of the practices at the land management agencies, we're 
going to have to make some changes to get ahead of the problem. 
For example--this'll be my last point--members of this 
committee worked very, very hard in a bipartisan way on the 
forest health legislation, and one of the key components there 
was to get critical thinning work done in our forests in order 
to prevent fires in those forests, but what has happened is, 
there has been, in the administration, a--I guess you could 
call it dragging their feet on completing this critical, you 
know, thinning work. Until attention is turned squarely to 
this, we're going to have hundreds of thousands of acres of 
choked second-growth plantation forests all across the West, 
and we're going to have global warming as a greater and greater 
risk to these critical public resources.
    So, I'd like to suggest that we get on with the bipartisan 
work that's been the tradition of this committee, particularly 
in the thinning area, as a way to get out in front of some of 
this very, very serious problem.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Senator Craig.

        STATEMENT OF HON. LARRY E. CRAIG, U.S. SENATOR 
                           FROM IDAHO

    Senator Craig. Mr. Chairman, I'll make my comments during 
the question period.
    Let's put this fact on the table. We spent about 650-700 
million this year in healthy forests. We've spent to date, 1.6 
billion fighting fire, and probably it'll go to 1.8 or 1.9 
before the snow falls. If we dedicated that much resource to 
healthy forests, by the end of the decade, my guess is, we'd be 
spending a lot less fighting fires.
    Thank you.
    The Chairman. Thank you very much.
    Senator Tester.

          STATEMENT OF HON. JON TESTER, U.S. SENATOR 
                          FROM MONTANA

    Senator Tester. Yes, thank you, Mr. Chairman.
    I'd like to thank the panelists for being here today. You 
know, about 800,000 acres--in fact, I think it's a little more 
than that--burned up in the State of Montana this fire season, 
and we're just about at the end of it, I hope. That, combined 
with, as I read in the paper, the Northwest Passage now exists, 
along with the changes in the land that my grandparents 
homesteaded and we've been farming for nearly 100 years--it's 
inarguable, the climate has changed.
    The issue for me is figuring out what we can do to help 
remedy the situation, because doing nothing is not an option, 
in this case. Doing nothing, whether it's on global warming or 
whether it's on the Forest Service ability to manage their 
forests in a way that makes sense, is simply not a solution at 
all.
    So, with that, I look forward to this hearing. I want to 
dovetail on something--what Senator Domenici said, you know, 
that over the last decade, I believe--you guys have probably 
had a lot of hearings on climate change, and maybe you hear the 
same thing over and over again--but I think it's really time 
that we take proactive steps to help solve the problem.
    Thank you.
    The Chairman. Thank you very much.
    Senator Corker.

          STATEMENT OF HON. BOB CORKER, U.S. SENATOR 
                         FROM TENNESSEE

    Senator Corker. Thank you. I've enjoyed my colleagues' 
comments. I'm actually more interested in the panel, no offense 
to anybody, and I think we'll move on with them.
    So, thank you.
    [Laughter.]
    The Chairman. That's a great example for us all.
    Senator Domenici. You mean everybody?
    [Laughter.]
    The Chairman. He----
    Senator Domenici. ``All of us.''
    The Chairman [continuing]. He meant your comments, as well 
as mine.
    Senator Domenici. Yours, too?
    The Chairman. I think he did.
    Senator Domenici. Oh, well, then we'll all shut up.
    [Laughter.]
    The Chairman. Dr. Bartuska, please go right ahead.

     STATEMENT OF ANN BARTUSKA, DEPUTY CHIEF, RESEARCH AND 
  DEVELOPMENT; ACCOMPANIED BY SUSAN CONARD, NATIONAL PROGRAM 
 LEADER, FIRE ECOLOGY RESEARCH, FOREST SERVICE, DEPARTMENT OF 
                          AGRICULTURE

    Ms. Bartuska. Mr. Chairman and members of the committee, 
thank you very much for the opportunity to talk with you today 
about climate change and wildfires.
    As you've mentioned, I'm accompanied by Dr. Conard, who is 
our national fire ecologist, who will be providing the details 
on the science of the interactions of climate change and 
wildfire. But I wanted to provide some context, in the sense of 
describing what the overall R&D program is for Forest Service 
research, and to provide that background.
    In 1908, we established our very first experimental 
watershed in Colorado. That became the basis for, now, nearly 
100 years of forestry research within our organization, and we 
are all about the science of trees, forests, and forest 
ecosystem, and all the interactions associated with that. So, 
our ability to look at climate change and wildfire and the 
interactions in forest ecosystems has a very long history, and 
it's something that we are very proud of.
    Our climate change research priorities currently involve 
three areas. One is adaptation; that's providing options to 
increase forest resilience, to reduce threats, and to provide 
managers tools associated with that. The second is in 
mitigation: increasing options through carbon sequestration and 
soils--and forest soils, and forest biomass itself. Then, the 
third is in decision support for practitioners and 
policymakers. We think all three of those are essential for a 
healthy research program.
    To do this, we're relying on our extensive network, the 
infrastructure of our research laboratories that are 
nationwide, our long-term research studies, building upon the 
80 experimental forests and ranges that we have--and, again, 
the first one in--from 1908, soon to have our centennial of 
that effort. But we also have our rich and nationwide forest 
surveys. Some of you are aware of our Forest Inventory and 
Analysis Program. We also call it the Nation's Forest Census. 
We're coming up on 75 years of continuous survey of forests. 
So, we have a very large data set to work from.
    In addition to that, we have over two decades of focused 
climate change research, three decades of air pollution 
research, and long experience with scientific assessments which 
provide a basis for making decisions about climate change and 
forest management. We are integrating that piece of climate 
change upon a solid foundation of our traditional disciplines--
entomology, pathology, silviculture--but we're also integrating 
our climate change research with fire ecology, with wildland 
fire research, as well as the complex interactions of dealing 
with fuels research, which are some of our strongest programs. 
So, all of those, together, provide, again, a very solid 
foundation from which to operate.
    We have been active--our scientists have been active with 
the U.S. Climate Change Science Program, as well as have 
participated in the assessments of the recent IPCC, the 
Intergovernmental Panel on Climate Change.
    Finally, I just have to point out, Forest Service R&D can't 
do the work alone. We rely on our associations and partnerships 
with many universities, represented here, as well as elsewhere; 
other Federal agencies that deal with science and management; 
as well as nongovernmental organizations. We believe, all 
together we really have--to get a very important science 
together.
    But we also know that we have more work to do. Just last 
week, about 75 of our scientists came together with several 
scientists from other communities to revise and look at what 
gaps we have in our climate change portfolio, and to develop a 
new research and development strategy. So, we believe, again, 
we're turning the corner on that.
    But I think the other aspect that is critically important 
for us is, How do we get our science into the hands of the 
practitioners? If we just do--if we're just about science and 
doing research, then we're really not meeting our obligation in 
providing the tools that are needed to take the science and 
translate it into practice, working with our managers to come 
up with more options that they can use, build into their 
planning activities, build into their management strategies, so 
that they can really integrate the linkage between climate 
change and wildland fire into their overall programs. This is 
something that we are increasingly going to be spending our 
time on. It is a critical strength of the Forest Service that 
we have our research entity--or research enterprise embedded 
within a management agency, and it really creates for a very 
good integration of those two.
    There are science-based adaptative management approaches 
that we are taking now that we believe will help reduce the 
impact of wildfires on climate change and mitigate the impacts 
of climate change on our Nation's forests and grasslands. For 
example, specifically, as has been referenced here, increasing 
our fuel reduction work over the past several years can lead to 
reducing the threat of large wildfires and may increase the 
resilience of forests to the effects of climate change. We 
intend to build upon that and continue to study those 
interactions.
    Mr. Chairman, thank you for being able to make a few 
remarks. I'd like to now turn it over to Dr. Conard to provide 
some of the technical details about our program.
    Mr. Conard. Thank you.
    The Chairman. Go right ahead, Dr. Conard.
    Mr. Conard. Mr. Chairman and members of the committee, 
thank you for the opportunity to discuss with you what 
scientific research tells us about the potential interplay of 
climate change and wildfire.
    According to data from the National Interagency Fire 
Center, annual burned areas have exceeded 7 million acres only 
seven times since 1960; six of those have been in the past 20 
years. In recent years, we have seen particularly severe 
droughts in the western United States, Alaska, and Florida. Not 
coincidentally, these regions have accounted for a majority of 
increased wildfire activity in the United States.
    The IPCC has reported clear patterns of temperature 
increase and long-term trends in precipitation changes since 
1900. For North America, the greatest future increases in 
winter temperatures are projected for boreal and Arctic zones, 
with summer temperature increases the greatest across the lower 
48 States.
    Precipitation is projected to decrease in the southwestern 
United States. We can expect these changes to lead to longer 
and more severe fire seasons in many areas.
    The frequency and severity of fires vary greatly due to 
differences in weather, topography, and fuels. For example, in 
Ponderosa Pine and Loblolly Pine Forests, which historically 
had high-frequency, low-severity fires, reduced fire frequency 
beginning in the late 19th century has led to substantial fuel 
accumulation. These fuels increase fire hazard, a condition 
that can be exacerbated by warming climate and longer fire 
seasons. Fuel treatments and active forest management can help 
to mitigate such increases in fire hazard.
    A number of studies indicate that variations in cyclic 
weather patterns and in climate over time are factors in how 
fire patterns change from year to year. The extent and severity 
of wildland fires correlate with drought patterns, timing of 
spring snowmelt, and changes in ocean circulation patterns, as 
I'm sure you will hear more about from Dr. Swetnam.
    Research indicates that a warming climate will increase 
fire hazard, likely leading to increases in the annual area 
burned, as well as in the severity of fires. We expect such 
changes in fire regimes to affect geographic distributions of 
trees, other plant species, and animals.
    Global general circulation models provide coarse scale 
projections of changes in temperature, precipitation, and other 
factors as greenhouse gas increases. These models project 
varying trends in climate patterns across the country. 
Scientists are developing tools that adjust these model outputs 
for local variations in terrain, temperatures, precipitation, 
and vegetation.
    A number of these models developed by Forest Service 
researchers and their collaborators predict large changes in 
fire regimes and vegetation patterns across North America and 
in many regions of the country. Other models project potential 
future distribution of suitable habitat for tree species and 
for animal species. Improved models will help us to better 
project and anticipate the potential effects of changing 
climate on vegetation and species distributions, and on 
interactions with fire and other disturbances. The higher 
resolution provided by these types of models provides essential 
information for site-specific planning and decisionmaking.
    I would now like to talk briefly about effects of fire on 
climate and carbon. As long as the incidence and severity of 
wildfires remains constant, the removal of carbon through the 
atmosphere through--from the atmosphere through a regrowth of 
vegetation in burned areas equals the carbon emitted through 
fires. There is growing scientific concurrence, however, that 
climate change will increase burned areas and fire severity, 
resulting in increased wildfire emissions.
    Fire produces many emissions besides carbon dioxide. Some 
of these compounds trap more radiation than CO<INF>2</INF>, 
while others reflect heat and light. Impacts of fire-induced 
vegetation changes on how the surface of the Earth reflects or 
absorbs the sun's rays will also influence the effects of fire 
on climate.
    Research has shown that hazardous fuel-reduction treatments 
in the appropriate type of fire regime are often effective at 
decreasing the severity of subsequent fires. If the fuels that 
are removed are used for bioenergy or in wood products, they 
also provide benefits by offsetting the use of fossil fuels or 
entering carbon into semi-permanent storage. Subsequent lower-
severity wildfires will emit less carbon to the atmosphere than 
would occur in untreated stands. Forest Service scientists are 
working with partners to develop better estimates of various 
components of the forest carbon cycle that include these 
alternate uses of materials and account for the various 
processes involved as forests are harvested or burned and as 
they regrow.
    In summary, the net effect of changing fire regimes on 
climate and carbon storage will be influenced by many factors. 
Changing emissions, carbon dioxide uptake by regrowing 
vegetation, the use of potential fuels for bioenergy or in wood 
products, and changes in vegetation will all play a role.
    In the United States, the magnitude and effects of climate 
change and its impact on fire regimes will vary in different 
regions of the country. We need to understand more about fuels, 
about the effects of changing burn severity on carbon release, 
and about how these effects will vary regionally.
    I'd now like to turn to Dr. Bartuska for concluding 
remarks.
    Ms. Bartuska. So, just a few key points--sorry--a few key 
points, to reiterate.
    One is that we have made an investment, in the Forest 
Service, for over--nearly 100 years, rather--in understanding 
forest and rangeland science, and we believe this is foundation 
upon which we can look at our climate change processes.
    We also believe that we should be taking that into account 
looking at adaptation strategies, mitigation options, but also 
the decision-support tools that are needed to address the issue 
of climate change and wildland fire.
    But, finally, it doesn't make sense, if we're just going to 
do the science, if we don't put it in a form and in a way that 
is available to practitioners and helping managers make better 
decisions. That really is the foundation of the work that we're 
moving into.
    Mr. Chairman and members of the committee, thank you for 
the opportunity to discuss the science of the interactions of 
climate change and wildfire. Dr. Conard and I will be available 
for questions at the end of the panel.
    Thank you.
    [The prepared statement of Ms. Bartuska follows:]

    Prepared Statement of Ann Bartuska, Deputy Chief, Research and 
Development; Accompanied by Susan Conard, National Program Leader, Fire 
      Ecology Research, Forest Service, Department of Agriculture

    Mr. Chairman and members of the Committee, thank you for the 
opportunity to talk with you today about the interactions of climate 
change and wildfire. I will give you a brief description of the Forest 
Service research programs in climate change and wildfire. I am 
accompanied today by Dr. Susan Conard, our scientist who leads the 
national fire ecology research program, and she will discuss the 
science of the interactions between climate change and wildfire.
    The Earth's climate is changing and will continue to change for 
many decades. Decisions being made today by policymakers and public and 
private sector resource managers will have implications through the 
next century. Forest Service Research and Development provides long-
term research, scientific information, and tools that can be used by 
managers and policymakers to address climate change impacts to forests 
and rangelands.
    Forest Service climate change research priorities involve three 
areas: adaptation (increase forest stress resilience); mitigation 
(increasing carbon sequestration through storage in soils, living 
plants and wood products); and decision support for practioners and 
policymakers. To do this, we maintain an extensive infrastructure of 
research laboratories, long-term research studies, and continuous data 
from nationwide forest surveys and experimental forests. Several long-
term data sets--the Nation's Forest Census (Forest Inventory and 
Analysis) and the Experimental Forests--provide several decades worth 
of information on forest and rangeland trends. Over two decades of 
focused climate change research, three decades of air pollution 
research, and long experience with scientific assessments provide a 
firm foundation for addressing climate change and forest management. 
The Forest Service climate change research program is supported by 
strengths of its more traditional research in areas such as 
ecophysiology, landscape ecology, watershed hydrology, vegetation 
modeling, nutrient cycling, and forest management. Further support 
comes from partnerships with universities, federal and state agencies, 
non-governental organizations, and the forest industry here and abroad.
    Scientists from the Forest Service are active in the United States 
Climate Change Science Program (CCSP) and participate in CCSP and 
Intergovernmental Panel on Climate Change (IPCC) assessment activities. 
In addition, the Forest Service climate change research, fire ecology, 
wildland fire, and fuels research programs combine to provide a rich 
source of information, data, and scientific discoveries. The science is 
essential to underpin predictive models and adaptation and mitigation 
techniques. Important aspects of the research are the effects of fire 
on carbon storage, atmospheric chemistry and warming potential, water 
supply, and ecosystem health and resilency. Forest Service scientists 
and colleagues funded by the National Fire Plan and the Joint Fire 
Science program--managed jointly by the Forest Service, US Geological 
Survey, Bureau of Land Management, National Park Service, US Fish and 
Wildlife Service, and the Bureau of Indian Affairs--are studying 
wildfire and climate interactions, predicting and monitoring wildfire 
emissions, and looking at factors that affect fire behavior and fuel 
consumption. This research allows us to better understand fire and 
water supply issues, perhaps two of the most critical issues for 
western states.
    I would like to say a few words about the scientific process. 
Science can describe the connections between human and ecological 
systems, develop methods to forecast the occurrence of damaging fire 
events and other disturbances, and characterize the possible outcomes 
of alternative management options. Scientists can help managers 
interpret what they are seeing on the ground and can help evaluate the 
environmental effects, social and economic costs and benefits, and 
effectiveness of potential management programs towards reaching 
management objectives. This scientific information can help managers 
and policymakers to decide the most appropriate management strategies 
for specific situations.
    As scientists, we know that the scientific basis for understanding 
fire and climate change interactions is more complete for some 
interactions than for others. We have important knowledge gaps that we 
must address. For example, current estimates of fire emissions vary 
widely. While we have information for a few systems, we do not have 
good information broadly on burn severity or on how burn severity will 
cause emissions to fluctuate. We also do not know how much we can 
increase carbon storage without causing unacceptable increases in fire 
hazard in fire-dominated ecosystems.
    The interaction of climate change with ecosystems is also the 
subject of the Synthesis and Assessment Report (SAP) 4.3, The Effects 
of Climate Change on Agriculture, Land Resources, Water Resources, and 
Biodiversity, is one of 21 synthesis and assessment products being 
produced by the CCSP. These reports summarize scientific understanding 
of various aspects of climate change for government and private sector 
decision-makers. USDA participates in CCSP and is the lead agency for 
SAP 4.3. The direct and indirect climate effects on wildfires is one 
topic addressed by SAP 4.3, and when the report is finalized, will help 
to provide the necessary scientific basis for assisting decision and 
policy makers.
    As we continue to integrate results from various scientific 
studies, we increase our understanding of where and why results differ, 
as well as where results can be generalized. Scientists' ability to 
provide this kind of information will aid decision-makers.
    Although policy questions may often be framed as science questions, 
many non-scientific considerations must be part of the answer to these 
policy questions. While science can provide a foundation for management 
and policy decisions, science alone is not sufficient to determine 
policy. Adaptive management by land managers is a useful tool that 
combines emerging research with evaluation of management practices. 
This approach enables managers to modify practices as our understanding 
of management impacts improves. This is an important concept in dealing 
with active application of science by practitioners and policymakers.
    While we still have much to learn about the interactions among 
climate change, carbon emissions, and wildfire, there are science-based 
adaptive management approaches we are taking today that can help reduce 
the impact of wildfires on climate change and mitigate the impacts of 
climate change on our nation's forest and grasslands. For example, the 
Forest Service has increased our fuel reduction work over the past 
several years, which reduces the threat of large wildfires and may 
increase resilience of forests to the effects of climate change.
    Mr. Chairman, Dr. Susan Conard will now address in greater detail 
the science of the interactions between climate change and wildfire 
activity. Following her testimony and my concluding remarks, we would 
be happy to answer any questions you might have.
   scientific research on the impacts of climate change on wildfire 
                                activity
    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to discuss with you today what scientific research tells us 
about the potential interplay of climate change and wildfire. Today I 
will talk about the current scientific understanding of historical 
interactions of climate and wildfire, how climate is changing fire 
regimes, how wildfire affects climate change, some of the research-
based knowledge and tools being developed that help us understand how 
climate change is likely to affect wildfires, and ways in which this 
knowledge can help support managers and policymakers.
                               background
    A number of recent scientific studies indicate that variations in 
cyclic weather patterns and climate over time are factors in the 
increase in large, severe fires and how fire patterns change from year 
to year. According to data from the National Interagency Fire Center 
(NIFC), annual burned areas have exceeded 7 million acres only 7 times 
since 1960; 6 of those have been in the past twenty years. One possible 
outcome of climate change is an increase in the incidence and severity 
of wildland fire in some parts of the continent and in Alaska. Fuel 
treatments and active forest management have reduced fire hazard and 
can help to mitigate these increases in fire hazard.
    Recent data and projections from the Intergovernmental Panel on 
Climate Change (IPCC) provide some context for this discussion. IPCC 
reports (IPCC 2007) show that there have been clear patterns of 
temperature increase and long-term trends in precipitation change 
around the world since 1900. Results from over 20 different global 
models project strongly increasing temperatures for much of the globe, 
with the greatest increases generally projected for northern latitudes. 
For North America the greatest increases in winter temperatures are in 
the boreal and arctic zones, with summer temperature increases the 
greatest across the lower 48 states in the United States. Precipitation 
is projected to decrease in the southwestern United States, and 
increase in some areas of the northeast. We can expect these 
temperature and precipitation patterns to lead to longer and more 
severe fire seasons in many areas of the United States and Canada, 
which underscores the need to continue to engage in active forest 
management as a mitigation measure.
                          historical wildfire
    Natural disturbance--whether by fire, insects, disease, hurricanes, 
ice storms, floods, or tornadoes--is a fact of life for all ecosystems. 
For most forests and rangelands, fire is a relatively regular 
occurrence, although the typical frequency, behavior, and severity of 
the fires (the fire regime) vary greatly from one forest type to 
another. This difference in fire regimes is a function of the 
combination of weather, topography, stand structure (fuels), and 
occurrence of ignitions that characterize specific ecosystems (e.g. 
Pyne et al. 1996). For example, many prairies and grasslands 
historically burned every few years, or even annually. Dry pine forests 
burned primarily in frequent, low intensity surface fires. Cool, moist 
conifer forests, such as coastal Douglas-fir in the Pacific Northwest 
of the United States have burned in high intensity stand replacement 
fires only every few hundred years (Heinselman 1978, Heyerdahl et al. 
2001, Leenhouts 1998, Schmidt et al. 2002). While each ecosystem has a 
typical fire regime, the characteristics of individual fires may vary 
widely as a function of specific fuel structure, weather conditions 
during the fire, and weather and climate patterns in the weeks (and 
even years) before a fire occurs (Leenhouts 1998, White et al. 1996).
    In forest systems, the highest severity fires (where severity 
refers to the level of ecological impact) are in fire regimes with 
stand replacing fires, which typically kill all or most of the living 
vegetation, and burn deeply into surface litter and duff layers. 
Ecosystem recovery is generally slow (100 to 300 years) as is the 
return to pre-fire levels of fuel loadings and fire frequency. In some 
forest and shrub systems, as well as in perennial grasslands and 
savannas, fires may top-kill most of the above-ground biomass, but 
native species are adapted to recover through re-growth from live 
roots, basal sprouting or regeneration from seed. Such systems recover 
rapidly--and typically undergo shorter interval between fires.
    The lowest severity fires in forest systems burn only surface fuels 
and low-growing vegetation, and have little impact on overstory trees. 
These surface fire regimes are most typical of forest types on dry 
sites or with fairly open canopies, and with grassy or shrubby 
understories, such as ponderosa pine and loblolly pine. Such surface 
fires typically occur much more frequently (every 3 to 30 years) than 
stand replacement fires.
    In mixed severity fire regimes, there may be a pattern of 
relatively frequent surface fires, with less frequent stand replacement 
fires, or patches of high fire severity, that are a function of either 
unusually severe weather or reduced fire frequency that leads to 
greater than normal fuel accumulation. This appears to be the pattern 
in many conifer forests in the west and can also occur in some of the 
Southeast.
    In some systems in North America (such as ponderosa pine and 
loblolly pine forests which historically had high frequency, low 
severity fires) reduced fire frequency beginning in the late 19th 
century has led to substantial fuel accumulation. These fuels increase 
fire hazard and burn severity, a condition that can be exacerbated by a 
warming climate and longer fire seasons (e.g Westerling et al, 2006).
                   effects of climate on fire regimes
    While climate has always been variable, the suite of climate models 
evaluated by IPCC project an increased frequency and intensity of 
drought and high-intensity rainfall events, particularly in the boreal 
and temperate zones of the northern hemisphere. These predictions take 
into consideration the larger land mass in the northern hemisphere as 
compared to the southern hemisphere. The largest changes in temperature 
are projected for high latitudes in both the northern and southern 
hemispheres; however, water has a moderating effect on changes in 
temperature and precipitation; hence the northern hemisphere, with its 
relatively larger land mass, will likely see more frequent and intense 
weather patterns (IPCC 2007).
    Historically, the extent and severity of drought, timing of spring 
snowmelt, and changes in ocean circulation patterns have all correlated 
with the extent and severity of wildfire on forests and rangelands. The 
impacts of climate change may be most noticeable in the short-term on 
fire regimes typified by low or mixed severity fires because fuel 
structure in these systems reacts more rapidly to fire exclusion and 
drought is more frequent.
    Warmer winters also exacerbate summer drought because of reductions 
in winter snow pack depth and duration that alter both the timing and 
volume of runoff, leading to longer summer droughts, larger water 
deficits, and more severe fire seasons (e.g. Westerling et al. 2006). 
Wet years of climatic cycles lead to high rates of vegetative growth 
(fuel production), often in the forest understory. Drought stresses 
trees and other vegetation, causing increased flammability of live and 
dead fuels and increased susceptibility to a number of insects (most 
notably bark beetles) and some pathogens. Warmer winter temperatures 
can increase the reproductive rates of insects, resulting in a second 
generation in one year. In addition, warmer temperatures can extend the 
ranges of some insect populations, as has happened with the mountain 
pine beetle in the western United States (Logan et al, 2003). Recent 
research shows clear relationships between warmer temperatures and 
drought on extensive insect outbreaks in southwestern forests and 
Alaska.
    A number of studies published over the past two decades suggest 
that a warming climate will cause increases in fire hazard, likely 
leading to increases in the annual area burned as well as in the 
severity of fires (Brown and Smith 2000, Flannigan et al. 1998, Fosberg 
et al 1996, Lenihan et al. 1998, Stocks et al. 1998, Wotton and 
Flannigan 1993). These studies in general do not take into account 
mitigating measures such as fuel reduction. These projections are 
supported by numerous studies that relate inter-annual or multi-year 
changes in fire patterns to regional patterns of climate variability 
(e.g. Swetnam and Betancourt 1990, 1998; Fauria and Johnson 2006; 
Kitzberger et al. 2007; Murdiyarso and Adiningsih, 2007; Swetnam and 
Baisan 1996; Westerling et al 2006).
    As climate warms and becomes more variable, some of the greatest 
effects on fire regimes are expected to occur in the boreal zones of 
North America (primarily Alaska and Canada) and in Eurasia (Fosberg et 
al. 1998, Flannigan et al. 1998, Fauria and Johnson 2006). The effects 
of climate on fire regimes in systems with deep organic layers such as 
peat bogs, are predicted to be large but are poorly understood 
(Morrisey et al 2000, Turetsky et al. 2006). This is tremendously 
important because of the large carbon stores that can be released from 
these ecosystems if fire frequency and the depth of burn increase.
    In recent years, we have seen particularly severe periodic seasonal 
droughts in the western United States, Alaska, and Florida. Not 
coincidentally, these regions have accounted for a majority of 
increased wildfire activity in the United States. Climate models, which 
I will speak more of later, project increased drought in the southwest 
United States. The same models project increased rainfall in the upper 
Midwest, Great Lakes and New England.
    Changes in fire regimes and in wildfire occurrence and severity 
have implications for atmospheric chemistry, the influence of smoke on 
air quality, the quality of our drinking water, and the ability of 
forests and grasslands to store carbon. These changes could both 
facilitate and force changes in the structure and composition of 
ecosystems, with feedback loops that are largely unknown. Ultimately, 
changes in fire regime can be expected to result in substantial 
alterations to the geographic distribution of trees, other plant 
species, and animals (e.g. Heinselman 1978).
                   circulation patterns and wildfires
    The severity of fire seasons in different parts of North America 
has been shown to be highly correlated with annual and multi-year 
weather patterns (such as those resulting from changes in El Nino, La 
Nina or other ocean circulation patterns). (e.g. Swetnam and Betancourt 
1998, Kitzberger et al. 2007). In mountainous areas of the western 
United States, one of the key factors associated with severe fire 
seasons is the timing of snow melt in the spring, with earlier snow 
melt often being a precursor to longer summer drought periods (e.g. 
Westerling et al. 2006). High temperatures and low rainfall (or longer 
dry seasons) together produce increases in area burned and numbers of 
large, intense fires.
    The El Nino-Southern Oscillation provides the south and 
southwestern United States with abundant winter rains every 3-7 years, 
supporting luxuriant growth of grasses and forbs the following growing 
season. If this season in turn is followed by drought, the abundant 
surface fuels increase the probability of stand-replacing fires to 
develop in open woodlands, parklands and dry pine (ponderosa) forests 
(Swetnam and Baisan, 1990). Recent research indicates that the warm 
phase of the Atlantic Multidecadal Oscillation has coincided with 40-60 
year periods of increased fire frequencies throughout the western 
United States, and that the West appears to be entering such a period 
now (Kitzberger et al., 2007).
    The effects of these multi-year weather patterns may well amplify 
climate change-induced effects to forests and grasslands. Seager et al 
(2007) recently projected severe drought conditions for much of the 
21st century in the southwestern United States. This supports 
projections of multiple models for decreased summer rain and increased 
temperatures in this region (IPCC 2007).
  tools for assessing interactions between climate change and wildfire
    Scientists are developing and using a number of tools to assess the 
interaction of climate change and fire. Under a changing climate, fire 
occurrence and patterns of ecosystem recovery after a fire may also 
change, leading to changes in vegetation structure and composition and 
in the ability of those ecosystems to store carbon. Global General 
Circulation Models (GCMs) are used to project climate effects on 
temperature, precipitation and other factors and generally do not 
incorporate disturbances such as wildfire except in a very coarse way. 
Their predictions are primarily useful for long-range and large-scale 
(e.g. national or broad regional) thinking and planning. Even at a 
coarse scale, however, it is clear that the mechanisms and expected 
magnitude of impacts of changing climate will vary greatly across the 
country.
    To develop landscape-scale projections of impacts of climate change 
on ecosystems or on fire that are useful for management and planning, 
scientists adjust General Circulation Model outputs for local 
variations in terrain, temperatures, precipitation, and vegetation. 
While Forest Service scientists are not generally involved in 
developing General Circulation Models (this being largely the realm of 
physicists and atmospheric chemists), they use General Circulation 
Model outputs to project changes in vegetation, fire hazard, wildlife 
habitat and water supply both at coarse scale and at scales more 
appropriate to local and regional resource management planning. 
Information from field studies and landscape-level models can also be 
used by General Circulation Model developers to help make their models 
more realistic, especially in terms of incorporating major landscape 
processes such as fire.
    There are several types of vegetation models that are useful for 
assessing the potential interactions among climate change, vegetation, 
and wildfire. These range from global to regional or landscape-scale, 
and they take a range of approaches (See Keane et al. 2004 for an 
extended discussion). Some models are based on biogeochemical processes 
and focus on overall plant productivity in a given climate, but often 
without regard to the likely presence or absence of vegetation, or of 
individual species (e.g., Neilson et al, 2005). Other models use 
detailed knowledge about how individual species grow currently to 
project viability, and growth, and changes in species composition 
(Bugmann and Solomon, 2000; Busing et al, in press). Still other types 
of models evaluate current climatic limits of species or ecosystems and 
use that information to project areas where habitat may be suitable in 
the future (Iverson et al, 2004; Rehfeldt et al, 2006). Further, some 
of these models are landscape-level models (Mlandnoff and Liu, 2003) 
and others model individual stands and use statistical information on 
distribution of forest types to develop projections.
    Models give us projections of species environmental potential but 
not actual capability to move on the landscape. Scientists are working 
hard to realistically represent vegetation change and species migration 
given that the capability of many long-lived plant species to migrate 
may be slower than the projected rate of change in distribution of 
suitable habitat (Neilson et al. 2005).
    One example of a biogeochemical model that looks at fire, which is 
under development by Forest Service researchers, is the Mapped 
Atmosphere-Plant-Soil System. The MAPSS simulates potential impacts of 
changes in the physical environment on vegetation dynamics for major 
ecosystems (Bachelet et al. 2003). The fire module predicts substantial 
increases in burned area and emissions from wildfires, particularly in 
the boreal zones and in the western United States (e.g. Lenihan et al. 
2003).
    Keane et al. (2004) discuss and compare over 40 landscape fire 
models from around the world that are able to incorporate climate into 
their simulations. A number of landscape-scale models developed by 
Forest Service researchers and their collaborators predict large 
changes in fire regimes and vegetation patterns in areas as diverse as 
Glacier National Park, California, the Ozark Plateau, and the North-
Central United States. Landscape vegetation fire models have been 
developed for nearly every region of the United States, including 
Alaska. However, these models vary greatly in design and in sensitivity 
to climate, terrain, and other parameters (Cary et al. 2006), and in 
general they are still being evaluated for use in predicting effects of 
changing climate on vegetation and fire. Many of these models are 
currently in use to support forest management decisions and the 
development of planning alternatives.
    Other kinds of models combine current distribution of individual 
tree species based on data from the Forest Service Forest Inventory and 
Analysis program (FIA) with climate model outputs to project potential 
future distribution of suitable habitat for tree species (Iverson et 
al, in press, for the eastern US; Rehfeldt et al. 2006, for the western 
United States) or for bird species (Matthews et al. 2004 for the east). 
The outputs from such models have potential to help managers as they 
make decisions about appropriate approaches to reforestation under a 
changing climate.
    Depending on the landscape model, the potential effects of fire, 
insects, other disturbance regimes, fuel treatments, or other 
management practices over time or at multiple scales can be evaluated. 
The interactions of disturbance (primarily fire in the western United 
States) with vegetation and climate can be incorporated into landscape 
models such as LANDIS, SIMMPLE, and MC-FIRE to compare effects under 
different management scenarios. Most of these models are currently 
operating at regional levels, and are not yet in nationwide 
application. Forest Service researchers are currently examining how 
best to incorporate climate change effects on tree growth into the 
Forest Vegetation Simulator (FVS), which is currently used by 
silviculturists and planners to simulate forest growth and dynamics, as 
well as responses to fire and fuel treatments and to insect and 
disease, at a stand level (http://www.fs.fed.us/fmsc/fvs/).
    The large assortment of models mentioned above give scientists a 
wide range of important information to compare and evaluate. Models 
need to be tested at the local level and strengths and weaknesses 
sorted out. Cushman et al. (2006) discuss the future needs for 
improving the capabilities and utility of landscape models. Improved 
landscape models will enable us to better project and anticipate the 
potential effects of changing climate on vegetation and its 
interactions with fire and other disturbances such as insects and 
diseases. The resolution provided by these types of models provides 
essential information for site-specific planning and decisions.
       the interaction of fire, fire behavior, and climate change
    While current fire behavior modeling tools do not explicitly 
incorporate climate change, they all use data on weather and fuel 
condition to develop predictions. Thus fire behavior modeling tools can 
be used to evaluate multiple scenarios, such as the effects of extreme 
drought or higher temperatures that might be expected in a changing 
climate. Our knowledge of how fire behavior affects forests and 
rangelands comes from a combination of experimental studies (often 
using prescribed fire) and observations before, during and after 
wildfires. Such observations can occur at a range of scales from 
satellite remote sensing of fires and burned areas, to aircraft-based 
remote sensing or smoke sampling, to measurements of fluxes or changes 
in ecosystem properties made on the ground. Each year, seasonal 
severity projections include expected weather patterns over the fire 
season, including the known influences of changes in atmospheric 
circulation patterns, temperatures, and rainfall brought about by El 
Nino or La Nina, and other ocean oscillation patterns.
    Good data on current and past fuel conditions as well as patterns 
of fire on the landscape provide a foundation to better understand the 
interactions between fire and climate. Ongoing monitoring is also 
essential. Two recent national projects being implemented under the 
auspices of the interagency Wildland Fire Leadership Council will help 
to provide this foundation. The LANDFIRE project (http://
www.landfire.gov/index.php), a collaboration with the US Geological 
Survey and the Nature Conservancy, is mapping at the 15 meter 
resolution for fuels, vegetation, fire regime, condition class, 
terrain, and other important parameters. The Monitoring Trends in Burn 
Severity Project (http://svinetfc4.fs.fed.us/mtbs/) is mapping burn 
severity and perimeters for all large fires in the United States (over 
the past 20 years and into the future). Information from the burn 
severity project will eventually be integrated with LANDFIRE as part of 
the mechanism for updating LANDFIRE for fire and other disturbances. 
The two projects will provide essential baseline data layers which can 
be used for improved monitoring as well as modeling of changing fire 
regimes, effects of fuel treatments, fire behavior, fuel consumption 
and emissions, and potential interactions with climate.
               feedbacks between fire and climate change
    There is growing scientific concurrence that climate change will 
increase areas burned, which will result in increased emissions of 
carbon dioxide and other greenhouse gases from wildfires--both through 
increases in area burned and through increased emissions. Mitigation 
measures such as hazardous fuel reduction can help to reduce these 
effects (e.g. Johnson et al. 2007). Fire produces many emissions 
besides CO<INF>2</INF> (including methane, particulates, and other 
aerosols; Andreae and Merlet 2001). Some of these compounds are much 
more efficient at trapping radiation than CO<INF>2</INF> while others 
reflect heat and light. In addition, there are great variations among 
ecosystems in how fires affect the release of CO<INF>2</INF> from soil 
which normally stores about twice as much carbon as above ground parts 
of forests. In some systems, post-fire emissions from soil respiration 
are greatly reduced, while in others they may increase or remain 
relatively unchanged (Amiro et al.2003). Another factor that will 
affect the regional and perhaps global effects of fire on climate is 
the magnitude of the impacts of fire-induced vegetation changes on how 
the surface of the earth reflects or absorbs the sun's rays.
    A number of recent papers have addressed this issue, but it is 
extremely complex, and current data are not adequate to evaluate the 
potential net affects. Smoke from wildfires can also cause severe local 
and regional air pollution. Smoke from large fires often travels great 
distances, and may affect local temperatures and air quality thousands 
of miles from its origin (e.g. Colarco et al. 2004, Damoah et al. 
2004). While it is clear that increases in burn area and fire severity 
will increase greenhouse gas emissions, it is the balance among the 
influences of these various emission changes, the uptake of 
CO<INF>2</INF> by regrowing vegetation, the utilization of potential 
wildfire fuels for bioenergy or in wood products, and changes in 
vegetation composition, albedo and other factors that will determine 
the net effect of changing fire regimes on carbon storage and on 
climate.
        implications of changing fire regimes for carbon storage
    There is increasing attention being paid by scientists to the 
significant role that wildfire plays in the global carbon cycle 
(Schimel and Baker 2002). As long as the incidence and severity of 
wildfires remains constant, removal of carbon from the atmosphere 
through regrowth of vegetation in burned areas equals the wildfire 
carbon products emitted. An increase in wildfire will increase 
emissions of carbon gases and particulates and other greenhouse gases 
(IPCC 2007). Many forest management techniques, such as prescribed 
burning or thinning dense vegetation in appropriate fire regimes, can 
be used to make forests more resilient to wildfire, particularly in 
ecosystems typified by short intervals between fires or mixed severity 
fire regimes.
    Research has shown that hazardous fuel reduction treatments in the 
appropriate type of fire regime are often effective at decreasing the 
severity of subsequent fires (e.g. Johnson et al. 2007). If the fuels 
that are removed are used either for bioenergy or in wood products, 
they are providing benefits in terms of overall carbon balance, either 
by offsetting use of fossil fuels or entering carbon into semi-
permanent storage. Subsequent lower severity wildfires fires will emit 
less carbon to the atmosphere than would occur in untreated stands. 
Forest Service scientists are working with partners to develop better 
estimates of various components of the forest carbon cycle that include 
these alternate uses of materials (Smith et al. 2006) and account for 
the various processes involved as forests are harvested or burned, and 
as they regrow.
    In the United States, the magnitude and effects of climate change, 
and its impact on fire regimes will vary in different regions of the 
country. We need to understand more about fuels, the effects of 
changing burn severity on carbon release, and how these effects will 
vary regionally.
    I would like to turn to Dr. Bartuska for a discussion of science in 
support of managers and policymakers.
            science in support of managers and policymakers
    Scientists can assist managers and policymakers by providing 
knowledge and tools that support adaptive management in response to our 
changing climate. Adaptive management combines emerging research with 
evaluation of management practices. This enables managers to modify 
practices as our understanding of the science of these complex systems 
improves.
    Research, such as that mentioned earlier, tells us that fire 
regimes are changing and will continue to change across North America, 
and that some of this change is due to changing climate, although 
measures such as fuel reduction can help to mitigate these effects. 
These changes may complicate fire management activities and suppression 
operations, alter ecosystem characteristics and increase potential fire 
risk and other losses to communities and infrastructure. We can also 
expect that new vegetation communities will develop over time as a 
reflection of the tolerances and adaptations of individual species.
    Changes in vegetation and fire regimes will affect our ability to 
store carbon in forests and rangelands, and will affect atmospheric 
chemistry and climate. Scientists across the United States and around 
the world are developing new knowledge and new approaches to 
quantifying these impacts and improved methods of adaptation and 
mitigation to lessen the impacts of these changes.
    There is good scientific basis for vegetation treatments in 
appropriate fire regimes to reduce wildfire severity; treatments will 
reduce stress and crowding of vegetation and increase resistance to 
severe drought and to bark insects. Because climate in many areas will 
change more rapidly than long-lived plant species can migrate, moderate 
to severe fires can be seen as opportunities to facilitate migration, 
either by planting a mix of species that may be better adapted to 
current and future climates, or by selecting seed from trees that grow 
in warmer seed zones or at lower elevations.
    Because we can not predict precisely what species or genotypes will 
be best able to tolerate changing environments, managers may want to 
ensure a diverse mix of species on the landscape. Forest biomass from 
fuels reduction can be used for bioenergy and wood products--this will 
decrease the net effective emissions from wildfires, offset fossil fuel 
emissions, and help to increase carbon storage. Scientists are 
evaluating options for incorporation of organic matter from forest 
fuels into the soil, where it will decompose slowly, and not add to 
fire hazard as much as if left on the surface. While wildfire is a part 
of the problem of climate change and carbon storage, management of fire 
and fuels and thoughtful restoration of burned areas can be a part of 
the solution.
                               conclusion
    As we have presented, science can describe the connections between 
human and ecological systems. Scientists can help policymakers and 
managers evaluate options and interpret the effectiveness of potential 
management alternatives. Science can provide a solid foundation for the 
many non-scientific considerations that managers and policymakers must 
take into consideration. I hope the information we have provided has 
been helpful.
    Mr. Chairman and members of the Committee, thank you for the 
opportunity to discuss the science of interactions of climate change 
and wildfire. Dr. Conard and I would be happy to answer any questions 
you might have.

    The Chairman. Thank you very much.
    Dr. Helms, why don't you go right ahead.

  STATEMENT OF JOHN A. HELMS, PROFESSOR EMERITUS OF FORESTRY, 
             UNIVERSITY OF CALIFORNIA, BERKELEY, CA

    Mr. Helms. Thank you, Chairman Bingaman and Ranking Member 
Domenici, for--and members of the committee--for the 
opportunity to come and talk to you this afternoon on this 
topic.
    But the first remark I'd like to make is that it must be 
remembered that forests have responded to climate change 
throughout the last millennia, and they adapt very strongly. 
They have moved in species distribution, they have evolved, and 
they've also suffered from extermination as the climate has 
changed. So, this is something that is ongoing. What we are 
concerned about is the increased rate at which this is 
happening.
    But I might also comment that the forests are adaptable, 
and one can see that, when you look at forests that grow both 
on a north slope and a south slope in an area. They are 
obviously growing well, even though the climate might be 
different by several degrees.
    The projections are--vegetation change, in precise, has 
been mentioned earlier, due to differences in model assumptions 
on temperature change, temporal patterns of rainfall, et 
cetera; but, in general, it can be summarized that the changes 
most likely to be seen in the northern latitudes, where there 
will be loss of meadows, a conversion of forests to grasslands, 
and probably tree invasion into areas that previously were too 
cold. Forests are expected to move northwards in latitude and 
upwards in elevation, and probably this indicates that the pine 
forests are mostly subject to change. The shift in boundaries 
are--can be quite large. It has been estimated that a 
temperature change of about 3 and a half degrees in the Rocky 
Mountain area is equivalent to the vegetation habitat moving 
upwards: 2,000 feet upslope or 200 miles further north.
    Climate change will also have an effect on growth, which 
may increase or decrease, depending upon the way in which the 
climate changes, and the particular species, the tree ages, et 
cetera.
    Within a given forest, there will be changes in ecosystem 
structure due to changes in species interaction and 
competitiveness. But, in general, climate change is expected to 
lower productivity in some forests, such as in parts of the 
West, and higher productivity may occur in the Northeast, lake 
States, and parts of the Southeast.
    But we also must remember that carbon dioxide may also 
enhance growth. Experimentally, it's been demonstrated that, if 
you increase levels of CO<INF>2</INF>, it's been commonly shown 
that tree growth can increase by around about 20 percent if the 
site is fertile, but that this increase is then subjected to 
other limiting factors in the environment, such as water supply 
or other nutrients. Interestingly, as a consequence of 
industrial pollution, it's being demonstrated, in many parts of 
the world, that the forests are increasing in growth. So, when 
we come to the point of examining the way in which climate 
change is affecting growth, there are complications that will 
require quite sophisticated analysis.
    But as forests are placed under increasing stress, the most 
observable characteristic will be loss of vigor and increased 
mortality. Some of the species will no longer be able to grow 
or compete. This decline in health and vigor will be resulting 
in increased carbon to the atmosphere, and, in some cases, this 
will be quite substantial. It may be equivalent to what might 
happen under deforestation. As these species die, it exposes 
the soil, and, as you are aware, there are substantial 
quantities of carbon in the soil, which, as it becomes exposed, 
subjected to increased temperature, it will again be a source 
of release of carbon to the atmosphere, compounding the effects 
of climate change.
    So, already in North America, forests are showing evidence 
of stress. A prime example is that of the mountain pine beetle 
epidemic in British Columbia. Although the beetle is endemic 
and a natural part of the ecosystem, and, indeed, and important 
component in the functioning of the system, once the 
populations develop to a great extent, you end up with 
increased mortality. The B.C. Ministry of Forests reports that 
about 23 million acres have been subject to increased beetle 
attack. Of particular concern is that, as the winter conditions 
are made more mild, this insect may move into other provinces 
and attack other species.
    A second example is that in the Southwest, where some 
States have experienced a die-off of pinyon pine of about 90 
percent. The Forest Service has estimated that about--almost 4 
million acres over six States have been affected. Here again, 
the precipitous decline in pinyon pine is associated with 
climate change, particularly reduced temperatures in the 
wintertime.
    So, again, evaluating the effects of climate change on 
forests is made difficult. It appears that the impact on 
insects may, indeed, be greater than the impact on potential 
wildfire.
    Now, in evaluating the effect of climate on wildfires, I 
would like to mention that there are three issues that are 
important. One is the levels of prehistoric burning by Native 
Americans. The second is the importance of human ignitions in--
as sources of wildfire. The third is the changed forest 
structures that have occurred over time.
    It's well documented that Native Americans have used fire 
extensively. One example is in California, that prior to the 
1800s it's estimated that they burned about 400--4 and a half 
million acres annually. In the period of the 1800s, 1825 to the 
very early 1900s, it's estimated by the Interagency Fire Center 
that there's about seven fires that were 1 to 3 million acres 
in extent. Although these fires are--both Native American and 
in the early 1800s--were large in extent, it's probable that 
the modern fires are much more destructive because of their 
intensity.
    I'd like to comment on the role that humans have played in 
fire. Again, the Interagency Fire Center reports that in 2006 
there were over 96,000 fires nationwide, of which 83 percent 
were human-caused, and that, if you divide the country up into 
11 regions, that human ignitions exceeded lightning ignition in 
five out of those 11. So, clearly, it's difficult to separate 
out the effects of climate change from other factors such as 
human ignitions and fire conditions.
    So, finally, I'd like to comment on what role mitigation 
might play. Since the severity of wildfires are, to a large 
extent, influenced by human ignitions and changed forest 
conditions, it's important to consider the extent to which the 
social sciences and forest management could contribute to both 
understanding and mitigation.
    Monitoring climate change and forest conditions should be 
aimed at separating out all these complex factors and 
interactions that result in wildfires. Since growth and 
mortality on national forests greatly exceeds that from removal 
from harvest in the building up of fuels, it would be prudent 
to consider treatments and incentives aimed at fuel reduction 
and, where possible, using that excess biomass for socially 
needed products and energy production.
    So, the aim of treatments on forests would be to create, as 
far as possible, conditions in the forest that are suited to 
current and future uses by society so that these forests can 
better withstand what will inevitably be an increase in 
wildfires that will be enhanced through climate change.
    Mr. Chairman, thank you very much for the opportunity to 
comment.
    [The prepared statement of Mr. Helms follows:]
 Prepared Statement of John A. Helms, Professor Emeritus of Forestry, 
                 University of California, Berkeley, CA
                              introduction
    Chairman Bingaman, Ranking Member Domenici, and members of the 
Senate Committee on Energy and Natural Resources. Thank you for the 
opportunity to give testimony on scientific assessments of the impacts 
of global climate change on wildfire activity in the United States. My 
name is John A. Helms, Professor Emeritus of Forestry at the University 
of California Berkeley where I served as Head of the Department of 
Forestry and Resource Management. I am here today representing the 
Society of American Foresters for which I served as President in 2005. 
The Society has 15,000 members who are forest managers, consultants, 
academics, and researchers and promotes sustainable forest management 
for balanced and diverse values.
                   likely magnitude of climate change
    This topic has been discussed at previous hearings, so I will not 
elaborate here. However, since there is a direct relation between 
climate and forests, and between the structure of forests and wildfire, 
it is important to understand the likely magnitude of changed climate.
    Due to the complexity of General Circulation Models there is 
considerable uncertainty regarding the precise changes in climate. 
However, there is general agreement that temperatures will increase 1-
4C in the next century resulting in less snow, more heat-absorbing 
exposed ground and sea water, which lead to less reflectance or albedo 
and provide positive feedback. On the other hand, there is continuing 
uncertainty regarding the extent to which changes in clouds and 
precipitation patterns may ameliorate increased temperatures. Average 
temperatures have already changed several degrees especially in 
northern latitudes. Maritime climates are already becoming wetter and 
interior of continents drier. Glaciers and ice sheets are diminishing.
              effect of climate change on forest ecosystems
    Throughout millennia, climate has been the principle determinant of 
vegetation distribution throughout the world. Animal and plant species 
are in a constant state of flux--continuously adapting, changing 
distribution, evolving, and becoming extinct. At a finer scale, forests 
have considerable adaptive capacity and can, for example, grow well on 
both north-and south-facing slopes that have several degrees difference 
in climate.
    Scientific literature clearly documents changes in growing season, 
phenology, and modified distribution of animals, plants, and insects. 
Of particular concern is the extent to which likely increases in 
temperature will cause changes in species distribution, how much 
climate changes are being affected by human activities, and whether the 
rate of change can be mitigated.
    Projections of vegetation response to climate change are imprecise 
due to differences in model assumptions on temperature change, temporal 
patterns of rainfall, and likely responses of species to these changes. 
However, in general, effects of climate change are more likely to be 
seen in northern latitudes with loss of meadows, conversion of forest 
to grassland, and tree invasion into areas that were previously too 
cold. Forests are expected to move north in latitude and upward in 
elevation. Pine forests at low elevation are likely to be replaced by 
woodlands and grasslands. These shifts in biome boundaries are expected 
to be large. It has been estimated that a temperature change of +3.5C 
in the Rocky Mountain zone is equivalent to vegetation habitat moving 
2,000 feet up slope or 200 miles further north (Ryan 2003).
    Climate change will have considerable effects on forest growth, 
which may increase or decrease depending on tree age, species, site 
quality, and location. Within a given forest there will be changes in 
ecosystem structure due to changes in species interaction and 
competitiveness. In general, climate change is expected to lower 
productivity in the west, and Alaska with higher productivity in the 
Northeast, Lake States, and parts of the Southeast.
    Carbon dioxide in the atmosphere can also limit growth. 
Experimentally increasing atmospheric levels of CO<INF>2</INF> have 
commonly shown that tree growth increases up to 20 percent on fertile 
sites. Growth declines over time since other factors such as nutrient 
availability or water then become limiting. Interestingly, forest 
growth has increased in many areas of the world due to added nitrogen 
from industrial pollution, which further complicates analyses of tree 
growth responses to climate change.
    As forests are placed under increased temperature and water stress 
the most observable feature will be loss of vigor and increased 
mortality as species are no longer able to survive in the changed 
climate. This decline in health and increased mortality and decay will 
add substantially to carbon emissions--equivalent in some instances to 
that due to deforestation. As species die and are replaced, soils will 
be exposed, become warmer and subject to erosion, again releasing 
substantial amounts of carbon to the atmosphere and compounding climate 
change effects.
    Already North American forests are showing evidence of stress and 
apparent effects of climate change. A prime example is the mountain 
pine beetle epidemic in lodgepole pine forests of British Columbia. 
Although this beetle is endemic and, overall, is a positive and useful 
component in the functioning of natural ecosystems, it appears that 
unusually hot, dry summers and mild winters have increased beetle 
attacks and in 2006 about 23 million acres were affected (BC Ministry 
of Forests and Range 2007). Of particular concern is that, due to 
climate change, the mountain pine beetle is likely to spread to Jack 
pine forests in Alberta thus causing potential for increased wildfire.
    A second example is pinyon pine in the Southwest where in some 
states dieoff has reached 90 percent. The USDA Forest Service estimated 
in 2003 that about 3.8 million acres over six states were affected. 
Here again, the precipitous decline in pinyon pine is associated with 
climate change and drought. It seems that the winters have not been 
sufficiently cold to restrict build-up in bark beetle populations. In 
addition, the extensive tree mortality has been accompanied by a major 
decline of pinyon jays and other ecosystem changes. In evaluating the 
effects of climate change on forests, therefore, it appears that the 
area impacted by insects are greater than that affected by wildfire.
    A third cause of catastrophic change in forest ecosystems is 
hurricanes. Increasing sea water temperature in the Gulf of Mexico is 
expected to cause increased hurricane frequency and severity. Again, in 
the context of climate change, the sudden removal of forests by 
hurricanes is likely to increase opportunities for species to invade 
that are more adapted to warmer conditions.
                  effect of climate change on wildfires
    Lightning-caused fires have always been a major component of forest 
ecosystems in the West. In addition, it is well documented that Native 
Americans used fire extensively in controlling game, regenerating 
desired plants, and for preventing surprise attacks from enemies. Prior 
to the 1800s, it has been estimated that Native Americans in California 
burned about 4.5 million acres of wildlands annually (Stephens et al. 
2007). The National Interagency Fire Center estimates that during the 
period 1825-1918 there were seven fires that were 1-3 million acres in 
extent. Although these historic fires were very large, they probably 
differed from contemporary fires which are more intense, crown fires 
that result in stand replacement. This difference is primarily due to 
past harvesting, regeneration, and fire suppression practices that have 
resulted, especially on national forests, in stands having a high 
proportion of shade-tolerant species, younger age classes, and higher 
density of smaller trees than were characteristic of forests prior to 
settlement. Similarly, major changes have occurred in plant species and 
structure of the nation's grasslands due to grazing.
    The National Interagency Fire Center also reports that humans have 
had a major role in fire ignitions. In 2006, there were 96,380 
wildfires of which 83 percent were human-caused and human ignitions 
exceeded lightning ignition in five out of 11 regions. Expressed in 
terms of area, 9.8 million acres burned in 2006 of which 45 percent 
were human-caused with human ignitions exceeding lightning ignitions in 
eight out of 11 regions.
    Clearly, then, it will be difficult to separate the effects of 
climate change on wildfire occurrence from the effects of rapidly 
increasing human populations in forested areas and the change in forest 
conditions due to past forestry, urbanization, and other activities.
    Never-the-less, weather is fundamentally important in influencing 
the incidence and severity of wildfires, which due to climate change 
are expected to increase in frequency and intensity (Keene et al. 1997, 
USFS PNW 2004). One estimate is that wildfires will increase 50 percent 
by 2050 and double by 2100, with estimates varying depending on the 
climate models used (Liu et al. 2004).
    Higher temperatures and low humidity are important because they 
increase the drying rate of fuels and increase the likelihood of 
drought and length of fire seasons. Increased wind increases the rate 
of fire spread. And climate change will likely increase the incidence 
of thunderstorms and lighting. However, some areas will no doubt 
experience decreased fire frequency. Areas of increased precipitation 
may moderate fire behavior, but greater vegetation growth may also add 
to wildfire potential. Further complicating predictions is that 
wildfires emit considerable quantities of particulates that result in 
short-term cooling by reducing solar heating. At the same time, 
wildfires exacerbate climate change by emitting greenhouse gases to the 
atmosphere. In 2005, wildfires in the U.S. resulted in 126.4 Tg 
CO<INF>2</INF> (140 million tons) being emitted to the atmosphere (EPA 
2007).
    Although interactions among climate change, vegetation, human 
actions, forest conditions, and insect and disease vectors are highly 
complex and uncertain, wildfires will certainly be a major factor 
accelerating species change and changes in plant distribution.
          responsibility to mitigate through forest management
    Since incidence and severity of wildfires are to a large extent 
influenced by human ignitions and forest conditions, it is important to 
consider the extent to which social sciences and forest management can 
contribute to both understanding and mitigating wildfire occurrence and 
intensity.
    Monitoring climate change and forest conditions should be aimed at 
separating out the complex factors and interactions that result in 
wildfires. Since both growth and mortality on national forests greatly 
exceeds harvest resulting in a build-up of fuels, it would be prudent 
to consider treatments and incentives aimed at fuel reduction and using 
excess biomass for societally-needed products and energy production. 
The aim of such treatments on national forests would be to create, as 
far as practicable, forest densities more suited to current societal 
usage so that forests can better withstand the inevitable increase in 
wildfires that climate change will cause.

    The Chairman. Thank you very much for your testimony.
    Dr. Swetnam, we're glad to have you here. Please go right 
ahead.
    Mr. Swetnam. OK.

STATEMENT OF THOMAS SWETNAM, DIRECTOR, LABORATORY OF TREE-RING 
  RESEARCH, AND PROFESSOR OF DENDROCHRONOLOGY, UNIVERSITY OF 
                      ARIZONA, TUCSON, AZ

    Mr. Swetnam. Chairman Bingaman, thank you so much for 
inviting me, and thanks to the ranking member, Senator 
Domenici.
    By way of a little further introduction, I'm a professor of 
dendrochronology, which is the use of tree rings. We use the 
tree rings to study all kinds of history--climate history and 
ecological history and human history. Just a little personal 
note, also, I just want to say I--in addition to being a 
scientist for the last 20 years, I was a firefighter before 
that for several years. My father was a district ranger with 
the U.S. Forest Service for 35 years in New Mexico, and he 
taught me quite a lot about fire. He's been on my mind 
recently. He passed away a year ago, and, last night, watching 
Ken Burns's new war documentary, he came to mind, also.
    Key points of my presentation here. I think you may have 
some handouts here, where you can see these graphics* a little 
more detailed. The first key point is that warming temperatures 
clearly have begun to influence fire activity in the western 
United States, with increasing numbers of large fires well 
correlated with both the interannual and the decadal changes 
that we see in temperature throughout the western United 
States. Now, we also see--we know that there are many other 
factors involved, including forest changes, increasing fuels, 
and also things like invasive species; cheatgrass in the Great 
Basin, for example, have also been involved. We also know that 
more people have been moving into these environments. So, all 
of these things are coming together in a kind of perfect 
firestorm.
---------------------------------------------------------------------------
    * Graphics have been retained in committee files.
---------------------------------------------------------------------------
    That's the main point I'm going to make, and I'm going to 
hold that til the end of my presentation.
    I'm going to talk a little bit about the historical 
perspective of fire--using tree rings and other records, we've 
been able to look far back in time--and to see what the role of 
fire has been in forest ecosystems over centuries and 
millennia. Several things that we see right off is that there's 
a lot of variability, historically, with some ecosystems not 
burning very frequently in the past, and some ecosystems having 
burned very frequently, until recent century. About 100 years 
ago, with the beginning of livestock grazing and then fire 
suppression, the fire regimes were disrupted in some forest 
types. We also see, from the historical record, that fire and 
climate were very well correlated going way back in time, so 
warming temperatures and droughts have been related to big 
fires for a long time.
    I'm also going to talk a little bit about some natural 
climate factors that control forests and also fire activity, 
particularly the El Nino southern oscillation and these other 
two major ocean and atmosphere patterns of Pacific decadal 
oscillation and the Atlantic multidecadal oscillation.
    Fire-scarred trees are one of the main ways that we get 
these long histories of fire from our paleoecological records. 
One of the main things we see on these scars--there are 
injuries at the bases of trees, and what we see is that, very 
commonly, there are many fire scars right until about 1890, and 
then a lack of fire scars for about 100 years. The last fire 
scar typically occurs when livestock grazing began--that's when 
the sheep and cattle begin to eat the grasses which were 
carrying fires--and then fire suppression by government 
agencies.
    We also have been able to use long records, like charcoal 
in lake sediments and bogs. This is an interesting example of a 
core sediment--core sample from a bog at Valles Caldera 
National Preserve, which Senator Bingaman knows well. This bog 
shows charcoal presence all the way down 9,000 years, and it's 
only the top 20 centimeters of this core has no charcoal on it. 
That's the last century. So, it's a truly extraordinary change 
in the last 9,000 or 10,000 years, with lack of fire relation 
to fire suppression.
    We also see from these records that there's a lot of 
variability, as I said. In some forest types--the wetter, 
cooler, higher-elevation forests, like spruce and fir and 
lodgepole pine, in Idaho and Montana--typically, the fires only 
occurred every 100 years to 400 years in those forest types 
before this century. You move over to the Ponderosa pine-
dominated ecosystems, and there you had surface fires burning 
once or twice per decade, in some cases, in the Southwest. So, 
very different kinds of fire histories. It's likely that fire 
suppression has had much less effect in the wetter, cooler 
types, because they were longer intervals anyway, so fire 
suppression has had less influence there.
    We have a long history of fire from giant sequoias, more 
than 3,000 years of fire-scar record from the Sequoia National 
Park and King's Canyon. We are able to get fire-scar records 
there and compare them with our tree-ring records of 
temperature. So, here we have a fire-scar-based history from 
these trees, and then we have ring-width patterns from 
bristlecone pine and foxtail pine. These are trees growing 
right at tree line, and their growth is controlled by how warm 
the growing season is. So, if it's a very warm year, you get a 
thick ring; if it's a cold year, you get a narrow ring. When we 
compared the foxtail pine and bristlecone records, you see this 
match--a pretty good match between the fire-history record and 
the temperature record over the last 1500 years.
    One thing I'd point out is, about at the very end of the 
record, you see that the fire-scar record drops off, with very 
few fires after about 1850. That's when fire suppression began. 
But you see the temperatures rising up in the tree-ring record. 
My colleagues and many other dendrochronologists have put 
together records like this from around the northern hemisphere, 
and they show that this warming episode in the last decade or 
so is warmer than the temperatures over at least the last 1,000 
years, including this medieval warm period here, which was 
quite warm, and there was a lot of fire.
    Now, the El Nino and these other ocean atmosphere patterns 
are also important to climate and fire. I'm not going to go 
into detail on this. There's quite a bit more of this in the 
written testimony, of how they're important. We know a lot more 
about the El Nino and La Nina than we do this Pacific decadal 
oscillation or the Atlantic multidecadal oscillation. But we 
are learning that they control interannual to decadal-scale 
climate patterns. One of the things we see when we look at the 
El Nino record relative to our tree-ring, fire-history, and 
also documentary records, is that there's a strong relationship 
in the Southwest with the El Nino. Typically, El Ninos bring 
more moisture to the Southwest and also to the Southeastern 
United States, and there's less fire. But, at the same time, 
there is an inverse relationship in the Northwest--so, the 
northern Rockies and the Pacific Northwest is usually dry 
during El Ninos, and there's more fire--and that the converse 
is true of La Ninas. The pattern tends to switch back and 
forth. This is of some use, actually, for potential predictive 
uses, is--are these patterns over the long term.
    The other thing I would say is, this Pacific decadal 
oscillation has some effect on climate in the West and also 
fire activity, and it's shifted to a state that's more typical 
of drought; that is, colder ocean temperatures. At the same 
time, the Atlantic--North Atlantic has shifted to warmer 
temperatures, which is also more conducive to drought. So, 
there are some changes that are not good right now with regards 
to fire.
    But these don't seem to explain the big fires that we're 
occurring--we're seeing. Over the western United States, we've 
had more and more of these recordbreaking fires, over 100,000 
acres--one in Oregon, you know, the Biscuit Fire Complex in 
2002, a half a million acres, and Rodeo-Chediski, in Arizona. 
This year, actually, we may be breaking records, I believe, in 
Idaho, Utah, Nevada, and maybe California, as the year goes on, 
with more large fires that are really extraordinary.
    When we look at the total record of fire over this past 30-
some-odd years, this is the paper we published last year with 
my colleague Tony Westerling in Science, where we looked at 
numbers of large fires over the whole West. We were focusing on 
forest landscapes on Federal lands, primarily. You can see a 
clear trend of rising numbers of large fires. In fact, a 300-
percent increase in the last decade and a half or so, relative 
to the prior period.
    If you go to lower elevations, there's not such a clear 
trend. The lower elevations, below 5,000, 4,000 feet, there's 
not such a clear trend of increasing numbers of large fires, 
except maybe, in the recent years, there may be more and more 
of those large fires since 2003.
    You can see a real shift here, if you look at the size of 
these pie charts*. Since 1986, there's 6.7 times more area 
burning. Notice that the size of the red portion, which is area 
above 5,500 feet, there's more high-elevation forest burning, 
which is leading us to this conclusion that this is not just 
fire suppression, this is also climate variability. Remember, 
it's those high-elevation forests that only burn at long 
intervals and have less of a fire-suppression effect.
---------------------------------------------------------------------------
    * Charts have been retained in committee files.
---------------------------------------------------------------------------
    The trends are very similar. When you look at temperature 
in relationship to the area-burned record, there's a very good 
correlation there, the interannual. Then, there's a nonlinear 
relationship, as well, perhaps, as temperature is rising, 
numbers of fires is increasing faster and faster.
    Then, last, there's--when we look at the record, there's 
many more of these early snowmelt years. That is, spring is 
arriving earlier. There's many more of these early snowmelt 
years in the last decade than in the previous two decades. If 
you sort out when the big fires are occurring, they're 
occurring in those years when there's early snowmelt.
    Finally, I don't mean to simplify this at all. There's many 
different factors involved, besides climate. There's changing 
fuels in forest structures, and invasive species are very 
important--cheatgrass in the Great Basin. In southern Arizona, 
we have a problem with this African buffel grass that's 
burning, and now causing more wildfire in the Sonoran Desert. 
On top of that, we have the warming conditions and people--more 
people moving into these landscapes. So, there's a whole suite 
of problems coming together for our fire problems.
    Thank you.
    [The prepared statement of Mr. Swetnam follows:]
Prepared Statement of Thomas Swetnam, Director, Laboratory of Tree-Ring 
  Research, and Professor of Dendrochronology, University of Arizona, 
      Tucson, AZ, and Anthony L. Westerling, Assistant Professor, 
   Environmental Engineering and Geography, University of California
    Chairman Bingaman, ranking member Domenici, and members of the 
Committee, I thank you for the opportunity to be here and testify on 
the matter of climate change and wildfires. My name is Tom Swetnam, and 
I am Professor of Dendrochronology (which is the study of tree rings) 
and Watershed Management at the University of Arizona. I am also 
Director of the Laboratory of Tree-Ring Research. Please note that my 
co-author of the written testimony is Dr. Anthony Westerling of the 
University of California, Merced. Tony is Assistant Professor of 
Environmental Engineering and Geography.
    Senators Bingaman and Domenici may recall that we met and talked 
some years ago when I was appointed by President Clinton to the first 
Board of Trustees of the Valles Caldera National Preserve in New 
Mexico. Part of the reason I was appointed to that Board was because I 
was raised in northern New Mexico and I know that landscape very well. 
I have spent a great deal of time studying forests and fires in New 
Mexico and elsewhere in the West--originally as a fire fighter, and for 
the past 27 years as a scientist.
                           executive summary
    Fire is a natural and necessary part of most terrestrial 
ecosystems. Prior to Euro-American settlement of North America, 
enormous areas burned as a consequence of lightning and Native 
American-set fires. The largest areas burned during the warmest and 
driest years. However, recent fires and damages caused by them are 
often outside the historical range of variability, and in some cases 
these impacts are ecologically unsustainable. This is particularly the 
case in many ponderosa pine-dominated forests and drier mixed conifer 
forests that formerly sustained primarily frequent, low-severity 
surface fires. The changes we see in some of these areas now are a 
consequence of a ``perfect fire storm''--the combination of a number of 
causes contributing to catastrophic fire. The ecological and watershed 
damages caused by some of these fires are extreme and probably 
irreversible. The threats to human lives and properties are increasing.
    The key points of our testimony are:

  <bullet> Increasing numbers of large forest fires and total area 
        burned in the western United States are significantly 
        correlated with warming and drying trends.
  <bullet> Historical land uses and management practices disrupted 
        natural fire patterns in many western forests about a century 
        ago, and these changes have led to dense forests and fuel 
        accumulations that are also contributing to unusually large and 
        severe fires in some places.
  <bullet> Natural climate oscillations (for example the El Nino-
        Southern Oscillation) have also affected fire activity, but 
        they do not fully explain the recent surge in burning.
  <bullet> Studies using coupled global circulation and wildfire models 
        consistently predict increased burning under scenarios of 
        future increased greenhouse gas concentrations.
         long-term perspectives of wildfire and climate history
    From many detailed studies of fire scars in tree rings, sampled in 
ponderosa pine-dominated forests across the West, we have learned that 
low severity forest fires used to burn through the understory of these 
forests at intervals of about 5 to 30 years. This pattern of repeated 
burning continued for centuries until the late 1800s, when Native 
American burning practices were eliminated, large herds of sheep and 
cattle were introduced, and government-sponsored fire suppression 
began. My colleagues and I have developed very similar histories of 
frequent, low severity forest fires from fire scars and tree rings in 
giant sequoia trees in California, extending back to 3,000 years before 
the present (Figure 1)*. Other scientists and colleagues have drilled 
core samples from wet meadows, bogs and lake bottoms in many places in 
the west. They have reconstructed more than 10,000 years of fire 
history by carbon-14 dating and counting the number of charcoal 
particles of various sizes deposited in the sediments.
---------------------------------------------------------------------------
    * Figures 1-6 have been retained in committee files.
---------------------------------------------------------------------------
    Fire history studies typically find a broad range of past fire 
frequencies in different forest types and elevations. As you might 
expect, the relatively wet forests of high elevations and more 
northerly latitudes generally show much longer intervals between past 
fires (on the order of 100s of years) than the relatively dry, lower 
elevations where ponderosa pine dominates. Although the frequencies of 
past fire varied substantially from one ecosystem type to another, a 
general finding has been that the changes in past fire activity were 
well-correlated with independent reconstructions of climate history. In 
particular, increased fire occurrence corresponded with warming and 
drying conditions. Our studies of giant sequoia fire scars and 
comparison with temperature-responsive tree-ring width chronologies 
shows that these long-term associations have existed for many centuries 
(Figure 1).
    Warmer, drier conditions are likely to promote drier fuels, which 
may be more readily ignited by lightning or people. Drier fuels also 
carry fire more rapidly across the landscape. Another general pattern 
of wildfires is that, the longer the typical interval between fires, 
the more severe and intense the fire when it occurs. For example, 
lodgepole pine and spruce-fir forests of high elevations in the 
Northern Rockies typically burned only once per 150 to 400 years. When 
they did burn, they burned intensely during hot, dry years. Recall the 
1988 Yellowstone fires, for example. In contrast, Southwestern 
ponderosa pine and relative dry mixed conifer forests (like giant 
sequoia groves) usually burned once or twice per decade for thousands 
of years, and these fires were typically of low severity. The key 
factor here is fire frequency. At low fire frequencies fuels accumulate 
in increasingly dense forests over long periods, while at high fire 
frequencies the fuels are consumed and open forests with little fuel 
accumulation are maintained. Hence, suppression of the frequent, low 
severity fires in forests where this type of fire regime predominated 
has led to unusually high fuel accumulations and increasingly large and 
severe wildfires.
    Although warm and dry conditions were important to increased fire 
occurrence, another aspect of climatic control was also important, 
especially in the drier, lower-productivity forests. That is the role 
of prior wet conditions, which served to reduce fire activity and allow 
fuel accumulation. Our paleoecological and modern studies have 
indicated that wet/dry lagging patterns are important to regional fire 
patterns in some parts of the West, both in the past and today.
    Based on these findings, it is evident that both climate variations 
and human land uses in the past have directly and indirectly affected 
forest fuels and fire frequencies. Despite local and sub-regional 
differences among ecosystems with different land-use histories, at the 
broadest-scale of the western states, including Alaska, increasing 
numbers of large forest fires in recent years are significantly 
correlated with warming and drying. I will come back to this key point 
about recent broad-scale trends in a moment, but first, I will briefly 
review what else we have learned about historical and natural climate 
and fire patterns from tree rings and documentary records.
      multiyear to multi-decadal climate variations: enso/pdo/amo
    Just about everyone has heard of ``El Nino'' since the very large 
event in 1982 and 1983 resulted in worldwide climate effects. This 
general awareness marks a revolution in climatology that has occurred 
in the past few decades. Thanks to many observations of ocean and 
atmosphere patterns and computer models, we have increasing knowledge 
that ocean surface temperatures, related atmospheric pressure patterns, 
and the jet streams have tremendous effects on climatic patterns over 
the continents. These patterns go through changing ``cycles'', or 
oscillations. The word ``oscillation'' is used because the intervals 
between the highs and lows, and the magnitudes of the highs and lows 
are highly variable, and not fixed like the cycle of a pendulum clock. 
The El Nino/La Nina pattern is also known as the El Nino-Southern 
Oscillation--or ENSO, for short. ENSO is the best known of the ocean-
atmosphere oscillations, and it operates over variable periods of about 
2 to 7 years. ENSO appears to most strongly affect rainfall and forest 
fire patterns in the West and Southeast, but two other ocean-atmosphere 
oscillations have also been identified in recent years that appear to 
be quite important: The Pacific Decadal Oscillation (PDO), and the 
Atlantic Multi-decadal Oscillation (AMO). As implied by the names, 
these last two oscillations operate on decadal time spans, that is, the 
high and low parts of the oscillations persist for 10 years or longer.
    From a combination of centuries-long tree-ring records, and careful 
analyses of modern climate histories and documentary records of forest 
fires from government agencies, a number of studies have revealed the 
following key findings:

  <bullet> The ENSO has important effects on wildfire occurrence, 
        especially in the Southwest and Southeast. In these regions, El 
        Nino typically brings increased cool season rainfall, and 
        forest fire activity is reduced in the subsequent fire season. 
        Conversely, during La Nina events conditions are generally 
        drier and wildfire activity is increased. These patterns have 
        some predictability to them months in advance of the fire 
        season. Consequently, the state of the ENSO is now being used 
        by the Predictive Services group at the National Interagency 
        Fire Center for developing seasonal wildfire ``outlooks''.
  <bullet> The Pacific Northwest and northern Rocky Mountains (in the 
        U.S.) typically have an opposite, though weaker response to 
        ENSO relative to the Southwest and Southeast. This means that 
        during El Nino events it is typically drier in these regions 
        and more fires occur, and during La Nina events it is wetter 
        and fewer fires occur. However, it appears that during some 
        strong La Nina events, it is generally dry throughout the West 
        and Southeast. The typical inverse pattern of ENSO response 
        between the Northwest/Northern Rockies and the Southwest/
        Southeast has potential strategic applications in the 
        allocation and pre-positioning of fire fighting forces, and/or 
        emphasis on prescribed fire use in the different regions.
  <bullet> The Pacific Decadal Oscillation was first noted, in part, 
        because of its important effects on salmon fisheries in the 
        Northwest. The pattern itself is measured by sea surface 
        temperatures in the Pacific Ocean, especially the northern 
        part. Recent studies indicate the most pronounced sub-regional 
        effect of the PDO is in the Pacific Northwest and northern 
        California, both in terms of rainfall patterns and forest 
        fires. However, there are interesting interactions of the PDO 
        and ENSO affecting fire and climate across the West, as might 
        be expected because both oscillations are based on changes in 
        the Pacific Ocean. For example, drought conditions and more 
        wildfires appear to occur in parts of the West during 
        combinations of positive (warm) phases of the PDO and negative 
        (cool, La Nina) phases of the ENSO. Again, there may be some 
        predictive utility of these patterns for long-term ``outlooks'' 
        and forecasting wildfire hazard.
  <bullet> Findings to date suggest that the positive phase of the 
        Atlantic Multi-Decadal Oscillation (AMO), generally corresponds 
        with more widespread droughts and wildfires in the western US 
        than during the negative phase. These associations are less 
        well understood than the ENSO and PDO patterns.
  <bullet> Finally, an important implication of the PDO and AMO 
        patterns described above is that both of these ocean-atmosphere 
        patterns appear to have shifted to states that favor more 
        drought and wildfire in some sub-regions of the western US 
        (i.e., cool PDO, warm AMO phases). These climate patterns may 
        have contributed to the recent surge in area burned and 
        increased numbers of large fires in the west, but it is 
        unlikely that they are primarily responsible. A chief reason 
        for this conclusion is that fire-promoting decadal phases of 
        the PDO and AMO occurred before in the past century (e.g., the 
        1950s and 60s), but we did not see the magnitude of increases 
        in burning that we have witnessed recently accompanying the 
        warming.
                     modern climate and fire trends
    Most of the climate-wildfire patterns I have just described have 
been studied extensively using a combination of paleoecological, 
paleoclimatic, and modern documentary records. Although the paleo-
records are insightful, and are the best data we have for long-term 
perspectives on climate and wildfire, the recent several decades is the 
period of time when we have the most comprehensive records for 
assessing climate and fire patterns. Government agencies have been 
keeping records on wildfire statistics since the early 1900s, but 
unfortunately, these records are often lacking in completeness and 
reliability before the 1970s. Nevertheless, this recent period has 
proven useful for assessing contemporary changes.
    Our current understanding of recent wildfire changes in North 
America derive from a set of studies in Canada, Alaska, and the Western 
US. First, I am going to summarize the findings of the study led by my 
colleague Tony Westerling that we published in July of last year in the 
journal Science, along with our co-authors Drs. Dan Cayan and Hugo 
Hidalgo from Scripps Institution of Oceanography, University of 
California, San Diego. Next, I will briefly mention the published 
findings on climate change and wildfire in Canada, Alaska, and 
elsewhere.
    The Westerling et al. (2006) study utilized fire occurrence records 
for the period 1970-2003 from federal lands in the western US, and the 
time series used was the number of large wildfires (i.e., exceeding 400 
hectares, or about 1,000 acres). Most of the area (80%) included in 
this database was above 4,500 feet elevation. Hence, these data 
primarily reflect forested landscapes across the western US. It is 
important to note that these data do not necessarily reflect general 
wildfire patterns in the many lower elevation, non-forest ecosystem 
types.
    The main findings are as follows:

  <bullet> There is a clear upward trend in the area burned and numbers 
        of large forest fires in the western US, especially since the 
        mid 1980s (Figure 2, Figure 3, upper two plots). The area 
        burned by large forest fires is 6.7 times higher in the latter 
        period 1987 to 2003 than in the earlier period from 1970 to 
        1986 (Figure 4). Note, however, in a separate compilation of 
        lower elevation, non-forest fire occurrence data that no clear 
        trend through 2003 shows in these data (Figure 3, lower two 
        plots). It is particularly notable that the largest wildfires 
        in 50 to 100 years have occurred in a number of states in the 
        past five years (i.e., Arizona, Colorado and Oregon in 2002, 
        Texas 2006, Idaho and Utah 2007).
  <bullet> The trend and year-to-year variation in numbers of large 
        forest fires is well-correlated with spring and summer 
        temperatures over the same time period (Figure 5).
  <bullet> The trend and year-to-year changes in number of large forest 
        fires generally matches changes in the timing of spring onset, 
        as indicated by the timing of peak runoff from extensive 
        streamflow data in the western US. Many more large fires 
        occurred during years in which spring arrived relatively early 
        than during years when spring arrived relatively later (Figure 
        6). Additionally, there are significantly more early spring 
        occurring years after 1986 than before that time.
  <bullet> The largest increase in numbers of large wildfires has 
        occurred at middle elevations, with much of the increase above 
        5,500 feet (Figure 4). About 60% of the large fires in the 
        recent period occurred in the Northern Rockies and another 18% 
        in the Oregon Cascades, Sierra Nevada, and northern California. 
        This concentration of many large fire events in northern 
        mountain areas in relatively wet forest types suggests that 
        forest structure changes because of past land management may be 
        less important in these areas than the effect of warming and 
        earlier springs. That is because these northern, wetter areas 
        contain a large proportion of spruce-fir, lodgepole pine, and 
        other forest types where natural fire intervals were already 
        quite long (centuries), and so fire suppression has had less 
        effect there on changing fuel accumulation patterns.

    In addition to the Westerling et al. study, several other recently 
published studies point to the importance of warming temperatures in 
observed trends of increasing fire occurrence in the western US 
including Alaska (McKenzie et al. 2004, Duffy et al. 2005, Kasischke 
and Turetsky 2006), Canada (Flannigan et al. 2005, Gillett et al. 
2004), ), and possibly Russia (Goldammer 2006). Furthermore, a number 
of these studies have employed global circulation model (GCM) 
simulations of future climate under increasing greenhouse gas scenarios 
as input to wildfire response models. The GCM-fire studies have 
consistently concluded that increasing areas burned are to be expected 
in coming years and decades (Brown et al. 2004, Fried et al. 2004, 
Gillett et al. 2004, McKenzie et al. 2004, Flannigan et al. 2005, 
Westerling and Bryant 2006).
    Finally, both the Arctic Climate Impacts Assessment (http://
www.acia.uaf.edu/), and the ecosystem impacts assessment of the 2007 
Intergovernmental Panel on Climate Change Report identified increasing 
wildfire occurrence as a likely response to global warming. The 1,000-
plus member Association for Fire Ecology (composed of fire scientists, 
students, and fire managers) recently issued a declaration on climate 
change and wildfire, strongly expressing their professional and 
scientific concern over current and anticipated wildfire responses to 
regional and global warming http://www.fireecology.net/pdfs/san--
diego--declaration--final--29--nov--2006.pdf).
                               conclusion
    Increasing wildfire problems are related to an interacting set of 
causes, including (1) increased forest density and fuels because of a 
century of fire exclusion, (2) warming climate and increasing frequency 
and magnitudes of droughts, (3) invasive species, such as cheat grass 
and African buffel grass allowing fires to spread more readily across 
elevation gradients, and (4) the increasing presence of people and 
built structures in these areas that are fire prone (i.e., the 
wildland-urban-interface).
    Although the combination of causes listed above exist together on 
some landscapes, it should be emphasized that there is tremendous 
variability across the US, and not all of these causes and problems are 
present everywhere. Indeed, there are some landscapes where warming 
trends apparently have had little effect, so far, on fire activity. 
Some forests and other ecosystem types have been unaffected or little 
affected by fire suppression. Moreover, the importance of invasive 
grasses (or other non-native species), urbanization and its 
consequences to habitat fragmentation, and increasing ignitions by 
humans are paramount in some areas, and these factors may exceed the 
effects of climate change now and the foreseeable future.
    ``Natural'' oscillations of the climate system, such as ENSO, PDO, 
and AMO will continue to operate and have important effects on drought 
and wildfire in the US. These ocean-atmosphere patterns impart some 
degree of predictability to climate and wildfire hazard months in 
advance of fire seasons. For example, the most recent National Oceanic 
and Atmospheric Administration reports on the ENSO status indicate an 
increasing trend toward La Nina conditions, which could spell increased 
drought and wildfire problems next summer, especially in the Southwest 
and Southeast. The effects of long-term warming trends caused by 
greenhouse gases on ocean-atmosphere oscillations are not well 
understood. Some modeling studies addressing these questions are not 
encouraging, suggesting that increased amplitude of ENSO might occur. 
Alternatively, ocean and atmospheric patterns might lock into states 
promoting more-or-less permanent ``dust bowl'' like conditions in the 
Southwest (Seager et al 2007).
    A recent influence of warming climates and increasing drought is 
apparently manifest in the rising areas burned and occurrences of 
``megafires'' (>100,000 acre burns) in many places across North America 
and elsewhere. Under increasing greenhouse gas scenarios, the available 
evidence points to a likely continuation of rising areas burned, more 
megafires, greater damages and costs incurred, and additional human 
lives lost. Not least of the mounting concerns about these trends is 
the likely effect of releasing more carbon into the atmosphere, and the 
possibility of shifting temperate and boreal forests from a net carbon 
sink to a net source.

    The Chairman. Thank you very much, all of you, for your 
testimony.
    Let me start, and we'll do 5-minute rounds of questions 
here.
    Dr. Swetnam, let me start with you. It would seem that, 
based on the charts--and I didn't pick up all of the 
information on each of these charts that you put up, but maybe 
you could interpret it a little bit for us. To what extent can 
we make policy about which ecosystems we ought to be 
concentrating our forest restoration dollars on----
    Mr. Swetnam. Right.
    The Chairman [continuing]. As a result of the research 
you've done? I don't know all the factors that go into deciding 
where we put that forest restoration money, but if we were 
going to try to put it where it would do the most good, based 
on your research, what would you conclude?
    Mr. Swetnam. I think it is very important to be cognizant 
of the different kinds of fire regimes that occurred in the 
past, and, indeed, we see in these higher- elevation forests, 
that they only burned at very long intervals in the past, and 
there's likely to be less changes in those places because of 
fire suppression. So, the really big problems with regards to 
forest structure and ecosystem changes are in those forest 
types and other ecosystem types that burn frequently in the 
past, but then those fire regimes have been disrupted. So, 
commonly it's Ponderosa pine--Ponderosa-pine-dominated 
ecosystems in the West, and other dry mixed-conifer forest 
types--as where there's been the greatest structural changes 
and the greatest shifts in fire behavior and fire risk, I 
think.
    So, those have a real key, I think, priority for treatment. 
Of course, it's also where people have moved in and--people 
have, you know, moved into harm's way--are a lot of these same 
landscapes. So, I think there is some basis of using the fire 
history, our understanding of these different fire-regime 
types, to focus the energies and the efforts where the 
ecosystems have changed the most, and where the fire behavior 
has shifted outside of its historical range of variability the 
most.
    The Chairman. To your knowledge, is that kind of a 
calculation being factored in to decisions about forest 
restoration priorities, at this point, or not?
    Mr. Swetnam. To some extent. I believe some of the mapping 
work that's being done--for example, LANDFIRE, which perhaps 
Dr. Conard could talk about a little bit more--there are some 
large-scale mapping efforts for the whole United States that 
are aimed at identifying which ecosystems have changed the 
most, and which ones--which--where are the fuels located? I 
think that is one approach to getting at this, is understanding 
where the high priorities are. But there is a need for more 
work on this, I think, and more use of historical information, 
to try to zero in on where the changes have been most severe.
    The Chairman. Because where those changes have been most 
severe is where you believe the forest restoration work would 
do the most good?
    Mr. Swetnam. That's right.
    The Chairman. That's what----
    Mr. Swetnam. That's right.
    The Chairman [continuing]. I'm taking you to say.
    An issue that I've raised with some other witnesses in 
earlier hearings is this whole business--you know, one of our 
policies here in Washington is that we budget fire suppression 
funds on the basis of the average over the last 10 years. 
Whatever was required over the last 10 years, we take the 
average, and that's what we budget for the next year. When I 
look at your charts, it seems like there is a fairly clear 
pattern of increased fire activity. I think Dr. Conard talked 
about how--I think you said six of the seven worst fire seasons 
were--since what year was it?
    Mr. Conard. Since 1980. Oh, I'm sorry--actually, a high 
percentage of them have been in the past 10 years, so I have 
another graph here that shows that in the past 10 years we've 
had 5--well, we've actually had, now, 7 years, over 7 million 
acres a year burning.
    The Chairman. I guess the obvious question is, Does it make 
any sense, given this pattern of increased fire activity that 
we've experienced and are continuing to experience, to continue 
budgeting, on the assumption that an average over the last 10 
years will get us where we need to be? I don't know, is that 
something you've looked at, Dr. Swetnam?
    Mr. Swetnam. I haven't really looked at the economics of 
this. I would defer to Dr. Conard and----
    The Chairman. All right.
    Mr. Swetnam [continuing]. Dr. Bartuska.
    The Chairman. Dr. Bartuska, did you have any thoughts on 
that?
    Ms. Bartuska. I think you've hit one of our more 
significant challenges--budgeting based on the increasing level 
of fire suppression is really eating into our overall programs. 
What we're trying to look at is different types of approaches, 
risk-based management approaches, being able to reduce our 
costs, being able to put our efforts into greater priority so 
that we have--where we have the greatest risk, where we have 
the greatest probability of success. But the escalating cost is 
something that we're very concerned about, and, I know, has 
been talked about in various hearings in the last several 
months.
    The Chairman. All right. My time is up.
    Senator Craig.
    Senator Craig. Mr. Chairman, based on what Dr. Helms said, 
with fires moving north, I would suggest we invest in Idaho and 
not in New Mexico.
    [Laughter.]
    The Chairman. Based on what Dr. Swetnam said----
    [Laughter.]
    The Chairman [continuing]. I think he said it's a waste of 
money up in Idaho, and----
    [Laughter.]
    The Chairman [continuing]. We really should concentrate in 
the Southwest.
    Senator Craig. All right.
    The Chairman. That's what I thought I heard.
    Senator Craig. I was just trying to put it in the context 
of those who've testified today.
    Let me thank all of you very much for your testimony. I 
read a great deal of what you do, and spend a good deal of time 
with this issue. Thank you for these reports, coming out, and 
the University of Arizona, their work.
    What I said earlier--and let me do this now--I want to make 
a statement, because, you know, I think it's very consistent, 
but it takes us to a slightly different dimension, Mr. 
Chairman, as it relates to how we look at what we're doing, or 
not doing.
    I say that in this context. Earlier this year, we had a 
hearing to discuss wildfire management and preparedness. During 
that hearing, I discussed the Angora fire at Lake Tahoe. The 
reason this was a significant time to discuss it, Mr. Chairman, 
was because, about a decade ago, this committee, along with 
Senator Reid and others and I, looked at the dead and dying 
problem of Tahoe, and we put the resources into the budget, but 
we were denied activity in that watershed by certain interests, 
who simply said, ``No, you're not going to come in and thin and 
clean and change the character of that forest.'' That was then. 
So, what happened this year was, 254 homes in the biggest 
travesty--that was potentially preventable. Dr. Swetnam 
continually talks about adding man to the ecosystem. Those 
large homes that we're seeing spread across the West right now 
definitely change things.
    It's estimated that 90 percent of the trees in that fire 
scenario, in Tahoe, burned. Now, that's a--3,100 acres. It 
released 190,000 tons of carbon dioxide. Right now, there are 
two fires burning in Idaho that are 100 times the size of that 
fire. The Cascade Complex still burns, at 300,000 acres. The 
East Zone Complex still burns, at 300,000 acres. It's an 
unimaginable release of those two release that is phenomenal in 
carbon into the atmosphere.
    So, where do we stand now? Mr. Chairman, over a century 
ago, to intervene on behalf of nature, we decided to make a 
stand against wildfire. Many folks here today have testified to 
that. We took fire out of the equation, whether it was with 
man's presence or with grazing, or a variety of other 
activities that were human-induced, and we replaced it with 
land management.
    Now that we are not able to actively manage our public 
lands, we have taken both out of the equation. But the problem 
is, man has more intensively come to the land by his presence, 
and those--and so, to simply step back and say, ``Let it 
burn,'' is no longer possible. We spent $130 million in Idaho 
alone this year on fire. Part of it was to save a great 
nationally known resort, called Sun Valley. We had to save it, 
or we would have lost tens of billions of dollars worth of 
property. Seems to me that we've rejected land management, and 
nature is replacing it with fire in this scenario.
    I don't know about the folks in your State, Mr. Chairman, 
but I know that the folks in my State got a very bitter lesson 
this year. Here's why they got the lesson. In 2004, Idaho was 
one of the cleanest States in the Nation. We released 15,000--
15.56 million metric tons of CO<INF>2</INF> in Idaho in 2004. 
This year alone, by fire, we released 12 million metric tons of 
CO<INF>2</INF>. So, for all of the commercial and industrial 
and residential and transportation and electrical power, it was 
minuscule. My State was nearly gray all summer, because its 
skies were filled with smoke and with carbon.
    Let me go on, just a little more. Fires are lending--are 
leading producers of CO<INF>2</INF> in the environment. On 
average, 6 million tons of CO<INF>2</INF> are released for 
every acre burned. Up to 100--excuse me, 6 tons--up to a 100 
tons of CO<INF>2</INF> per acre can be released, depending on 
the intensity of the fire, the number of trees per acre and so 
on and so forth. To date, roughly 8.4 million acres have burned 
in the United States, meaning a--at least 50 million tons of 
CO<INF>2</INF> have been released due to catastrophic fire.
    Last year alone, 10 million acres. We've had that debate 
about what was the bigger year. I was out in Idaho in August, 
saying, ``It's one of the greatest fire years ever,'' and a 
prominent person in the Forest Service called me and said, 
``Larry, you're wrong. We had much bigger burns before the turn 
of the century than we have today, but it's the decade that 
we're in, where we're having the largest burns of recent 
memory.'' It's of recent memory that we're talking about. Dr. 
Conard just talked about the last decade and these acreages. 
But we were burning at, or above that, before the turn of the 
century.
    Here is the point I want to get to. If you stop burning in 
the forest today, if you stopped at the 8 or 10 million burned, 
and backed it off substantially--and I'm talking about climate 
change now, Mr. Chairman, your struggle, and others, to look at 
comprehensive climate change legislation that might produce a 
result--that would be roughly the equivalent of removing 12 
million automobiles from the roads. If we stopped the forests 
from burning today, it would be equivalent to removing 12 
million automobiles.
    Now, you and I both know we can't remove 12 million 
automobiles. But if we decided to engage fire once again, both 
in stopping it, where we can, and creating a healthy forest 
environment where we could--if we were dedicating way more than 
we are now to healthy forests--my guess is, we would come 
closer to removing those automobiles from the road, in a sense 
of pollution, than ever before.
    Now, I've gone on beyond my time. I'll add the rest to the 
record.
    Senator Craig. But we know the triangle of fire, Mr. 
Chairman. We know that it's oxygen, we know that it's heat, and 
we know that it's fuel. We have great scientists out there 
working on it. But our hands are tied today because we do not 
have the political will to change the equation necessary to do 
one of those three things in the triangle, and that's to remove 
the fuel. If we had the political will to intervene and engage 
active management again to remove the fuel, we change the 
equation dramatically as it relates to fire, we change the 
equation to a healthy forest coming earlier than 2035, we 
change the style of sink that brings us back to a much more 
positive sink for our healthy forests than a negative sink.
    In 2000, I was at The Hague stopping the Clinton 
administration--and this just isn't politics, this is reality 
of climate change at that time--from trading off our ability to 
use our national forests as sinks. We stopped 'em. We said, 
``No, you don't go there.'' It's one of our great options in 
climate change, is to re-create a healthy forest environment, 
and to do so that it can once again sink.
    I'll close by saying this. As we work, as you struggle, you 
and Senator Specter, to--and you've been thoughtful and 
workable; and, potentially, the work you're doing has some 
application--but when? Would you like to move 12 million 
automobiles off the roads? You do that by stopping our forests 
from burning, short term. But, long term, you create a much 
healthier environment in which those forests begin to sink and 
grab up the carbon in the atmosphere and become a positive 
force instead of a negative force. I think that makes good 
sense. We ought to be at that business.
    Thank you.
    The Chairman. Senator Wyden.
    Senator Wyden. Thank you.
    I thank all the panel. It's been an excellent afternoon.
    I think it's obvious that Senators understand that we are 
dealing with a worsening spiral. We've got these hundreds of 
thousands of acres, in the West, of, you know, choked second-
growth plantation forests. This leads to more fires. That 
increases global warming, which, in turn, worsens the fires. 
So, we have this spiral that we're dealing with.
    I'm interested in hearing your thoughts about what the 
barriers are to active management. Now, that's what we have 
worked very hard on, as a part of the forest health 
legislation, to address. I've heard litigation is always cited. 
As far as I can tell, most of the litigation involves issues 
relating to old growth and various matters involving, you know, 
timber sales, and not barriers with respect to getting thinning 
projects off the ground.
    But I'd like to go right down the line and get a sense of 
what each of you thinks are the barriers to active management. 
That's what we want, that's what we think is critical to get on 
top of this issue of cleaning out overstocked plantations.
    So, Dr. Bartuska--let's just go down the row--barriers to 
active management?
    Ms. Bartuska. Speaking, of course, as the head of our 
research organization, our real focus is on, How do we make 
sure we have the right tools in the hands of the managers to 
make the best decisions they have? The subject of wildland fire 
and its interaction with climate change, what we're hearing 
from the people on the ground is, they need to know, What are 
adaptation options? What can they do about these changes that 
are taking place? What do they need to do to be able to manage 
for a resilient forest that allows for multiple stresses? Then, 
what are the mitigation options they have with regard to carbon 
and carbon management? So, what are the tools, and how do they 
get there with----
    Senator Wyden. What is the----
    Ms. Bartuska [continuing]. In their context?
    Senator Wyden [continuing]. The backlog on those thinning 
projects? Because what I hear, at home, is that there's a huge 
backlog on the very, kind of, of thinning projects that you're 
talking about. Do you have information on that?
    Ms. Bartuska. I do not know what our backlog on thinning 
projects is. We could certainly get that to you and provide it 
at a later time.
    Senator Wyden. Would ya? That would be very helpful.
    Would your colleague like to add anything on this point? 
Barriers to active management, and the very projects that your 
colleague was talking about.
    Mr. Conard. I don't think I have anything specific to add, 
except just to emphasize that, while research is providing 
managers with some tools that they can use in making decisions 
on how best to manage, certainly the more we can understand, 
regionally and locally, the impacts of fire and better ways of 
managing fire and managing carbon, that that will certainly 
improve the manager's ability to do a good job.
    Senator Wyden. Doctor.
    Mr. Helms. Senator Wyden, I think the issue is not a matter 
of lack of knowledge or lack of technology. In my view, the 
issue is one of--it's a sociopolitical issue. It's lack of 
trust. It's different agenda of different parts of society. I 
think one of the solutions is to--we have to increase the 
amount of information that's available, and understanding of 
the natural processes so that society at large can better 
understand the issues that it faces. It's basically a matter of 
choice among very difficult and competing values. What--the job 
we have in front of us, I think, is to seek some sort of 
sensible balance that seeks to find some middle ground among 
the people who different views on the way in which the problem 
should be addressed.
    Senator Wyden. You're being too logical. We got 80 votes 
for the forest health legislation because we were trying to 
achieve exactly the kind of balance you're talking about, and 
it was built around the idea that we would get the resources 
for the thinning projects that Dr. Bartuska is correctly 
identifying. Those resources have not been forthcoming from the 
administration. I want to get the bipartisan spirit of the 
forest health bill back on track.
    Dr. Helms.
    Mr. Swetnam. I----
    Senator Wyden. Excuse me--Dr.--excuse me--I got my 
``Dr.'s'' mixed up.
    Mr. Swetnam. Yes.
    Senator Wyden. Thank you.
    Mr. Swetnam. I would echo some previous comments. I would 
point, sort of, what's lacking and needed more is more 
collaboration. I'll say a little bit more about that. We need 
more funding, obviously, to do a lot of this work. Ultimately, 
we need to begin working at broader scales. I, personally, 
don't think that we can thin our way out of this problem in the 
western United States. I don't think there's either enough 
funding or time necessarily to thin enough of the landscape 
actually to prevent the losses that we're worried about. So, 
one of the things we need to do----
    Senator Wyden. But you don't think thinning is unimportant.
    Mr. Swetnam. Thinning is important, especially smaller-
diameter trees, focusing on the dense forests, the forests that 
have changed the most. Strategically, we can focus those in 
particular areas to protect communities. But, ultimately, we 
need to think, and start working at the landscape scales. By 
that, I mean watersheds and mountain ranges, tens of thousands 
to hundreds of thousands of acres. When you get to that scale, 
I think you're also talking about other kinds of treatments 
besides thinning. You've got--we've got to move back toward 
using fire as a tool in these landscapes, using prescribed 
fire. There is risk and there is smoke involved in doing that, 
but it is a less expensive alternative, and it's a more 
realistic one, an appropriate, ecologically. So, collaboration 
is how we're going to get there, is working with communities--
--
    Senator Wyden. No----
    Mr. Swetnam [continuing]. I think----
    Senator Wyden. No question about it.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Domenici.
    Senator Domenici. Mr. Chairman, I went back to my office 
for a minute--and, you know, it's quite unique to go all the 
way back to my office, try to, all the way, walk back, but I 
watched you all, and you were so--it's so exciting that I came 
back.
    [Laughter.]
    Senator Domenici. I want you to know.
    The Chairman. We appreciate it.
    Senator Domenici. If anybody was watching the television, 
they would all have been watching, today.
    The Chairman. They had to either watch us or Ahmadinejad, 
and we made it.
    [Laughter.]
    Senator Domenici. Good. Don't close me off too quick, here, 
because I really have come with a purpose, and I don't know 
that I can put it together here.
    I'm directing my attention at you two ladies, because you, 
presumably, can go back to the Department and get information, 
and that's what I'm looking for.
    Could you find out, and furnish the committee with, 
information, first, about the number of acres of forestland 
that are infested by bark beetles? Like in New Mexico, and up 
in Alaska? Could you get us information as to how many 
thousands of acres, or whatever, are infested? Could you get 
that for us?
    Ms. Bartuska. Absolutely, we could provide that.
    Senator Domenici. Second, could you get us information as 
to how much infested forest has been removed--over any 
increment of time--last year, for 12 months? Could you get us 
that information?
    Ms. Bartuska. I believe so.
    Senator Domenici. Could you do that? We'd like to have 
that.
    Third, could you get us information as to how much of that 
kind of forest was sought to be cleaned, and was prevented by 
some kind of court action? Could you get that for us?
    Ms. Bartuska. I can bring it back to the office and see 
what is available, certainly.
    Senator Domenici. OK. Try that, if you would. OK.
    Now, the Doctor mentioned cleaning the forests. Of course, 
he's a good environmentalist, so he's right on the ball. He 
knows what kind you ought to cut. He mentioned the right one so 
they wouldn't hook him for cutting the forest. What size are 
they supposed to be?
    Mr. Swetnam. Smaller-diameter stems we need to focus on in 
many forests, but not always, not in all cases.
    Senator Domenici. What is the diameter? Tell me, so we'll 
have it, it'll be in the record. You stated it a while ago.
    Mr. Swetnam. This is also an issue. Should we fix on a 
particular fixed diameter? I don't think that's----
    Senator Domenici. Didn't you, a while ago, use it, just as 
you spoke? You said----
    Mr. Swetnam. No. No. ``Small diameter.''
    Senator Domenici [continuing]. Small diameter? Is that good 
enough?
    Mr. Swetnam. That's the--that should be the main focus of--
--
    Senator Domenici. OK, small diameter.
    Mr. Swetnam. Yes.
    Senator Domenici. Can you get that down, normally, when you 
have an argument, where you stop arguing and agree that ``small 
diameter'' means something? Will that normally happen?
    Mr. Swetnam. That's when the argument begins again, is, 
``Well, what do you mean by `small'?''
    Senator Domenici. I understand.
    Mr. Swetnam. Of course, it's--a small tree in Sierra Nevada 
is a huge tree in the Southwest.
    Senator Domenici. Yes. Now, here's the point. Either you 
or--you don't work for the government, do you?
    Mr. Swetnam. No, sir. I work for the State of Arizona.
    Senator Domenici. Yes, that's right. Used to go up there 
and take care of that ranch a little bit, and then got up there 
in northern New Mexico.
    Mr. Swetnam. The Valles Caldera National Preserve, yes, 
sir.
    Senator Domenici. Yes. Then you stopped that and----
    Mr. Swetnam. Yes, I'm no longer on the board.
    Senator Domenici. Right, we were just----
    Mr. Swetnam. I was on the first board that you--both you 
and Senator Bingaman appointed me to, and----
    Senator Domenici. Yes, that's right. Then you didn't get 
appointed the second time. I don't want to talk too much about 
that.
    [Laughter.]
    Senator Domenici. Now, let me come back over here to you 
ladies for the last question.
    Now, you know, you're supposed to be able to clean up the 
forest, I assume. We've even passed bills that focused on 
cleaning up the forest that is close to housing and buildings, 
and all you remember that. What was--we called it Happy Forests 
or something--Healthy and Happy--I named it ``Happy,'' and you 
all called it ``Healthy.''
    [Laughter.]
    Senator Domenici. I said, why couldn't it be happy? When it 
burns and has a place to go, it's very happy forest.
    But, anyway, what I'm trying get, along with these facts, 
is a set of facts that has to do with how much forestland do we 
clean up? Because I'm firmly of the opinion that the answer is: 
for the money we put out, and for what Congress says we should 
be doing, we're doing far too little cleanup of the heavy-
laden--and I don't know how to define it for you to bring me 
back something, so let me try. How much forest acreage do we 
clean up in a period of time, using whatever prescribed means 
are legal and appropriate? Can you try to get me that?
    Ms. Bartuska. Let me clarify ``cleanup.'' Your first 
question had to do with insect or----
    Senator Domenici. Yes, you're right.
    Ms. Bartuska [continuing]. I would say, the bark beetle 
issues in the West. We certainly can lay out where those 
forests are that have been affected by beetle, and where we 
have the management. Then I'm also assuming where--we could 
provide--acres on where we have done fuels reduction projects 
associated with the Healthy Forest Restoration Act or, in 
general, where we have hazardous fuels. That, I think, is also 
very available.
    Senator Domenici. Right.
    Ms. Bartuska. Is that sufficient, sir?
    Senator Domenici. Now, this last one----
    Ms. Bartuska. OK.
    Senator Domenici. Did you define the last one, about just 
cleanup?
    Ms. Bartuska. I'm--what I'm--I was--or assuming that you 
were referring to both the insect disease issue and then fire 
issues as being a priority for our active management.
    Senator Domenici. OK. If you can give us that, where it's 
understandable to us--what some of us would just like to know--
is our sensitivity, that not much is going on, right or wrong, 
with reference to beetle-infected forests and with reference to 
forests that are overladen and going to burn, just as sure as 
we're sitting there?
    Ms. Bartuska. I can say that we--since the beginning of the 
National Fire Plan, we have treated 200 million acres with 
hazardous fuels reduction, so we--we feel like we have had some 
accomplishment.
    Senator Domenici. Great.
    Ms. Bartuska. We believe that we have been showing some 
good progress. But we can get you the data that supports the 
larger acreage.
    Senator Domenici. Very good, thank you.
    The Chairman. Senator Tester.
    Senator Tester. Thank you, Mr. Chairman.
    I want to thank the panelists that are here today. A lot of 
my questions revolve around forest management. That's probably 
not your bailiwick, but we'll see if we can get through it.
    First of all, I want to thank all your comments, but 
especially when we were talking about what some of the problems 
were when you have competing interests that want to have it 
done one way, and another group wants to have it done another 
way, when you try to achieve common ground, and balance, and 
exchange information. I can just tell you, from my perspective, 
I think what's happened in the past is that there's been a ``my 
way or the highway'' kind of attitude. That is not how you get 
things done. You get things done by finding common ground.
    But I want to talk about thinning versus fire prevention, 
first of all. I'll ask Dr. Bartuska this question, and that 
is--what I've read--and, make no mistake about it, we've got to 
do some thinning--but from what I've read, thinning isn't going 
to eliminate the fire problem. It may help, but is it going to 
eliminate it?
    Ms. Bartuska. I think what was mentioned earlier is that 
we--it is really a complex set of competing issues and 
competing of stresses that need to be addressed. So, certainly, 
management for wildfire is one piece of that. But I think there 
is clearly--within the climate change context, we have other 
issues that we are working toward.
    Senator Tester. I mean, because you can thin a forest, and, 
if you have a big undergrowth of grass, your fire potential is 
going to go through the roof, is that not correct?
    Ms. Bartuska. In fact, I believe Dr. Swetnam pointed to the 
buffalo grass issue--or buffalo grass, rather--that is a 
problem in some of the southwestern areas. Cheatgrass is 
another one.
    Senator Tester. Yes.
    Ms. Bartuska. That is certainly--invasive species is part 
of this equation, and how you manage that, and whether or not 
you can address some of that problem--has to also be taken into 
account.
    Senator Tester. But even grass species that are native to 
the area--if you get heavy rains in the spring, and it grows 
up, it doesn't have to be cheatgrass, it could be any kind of 
grass. You're going to have a fuel there that is going to be 
easily touched off by a lightning strike or somebody careless 
with a campfire or whatever.
    Ms. Bartuska. Actually, I'd like to see if Dr. Conard could 
respond to that.
    Senator Tester. Sure.
    Mr. Conard. I think what I'd like to do is back up a little 
bit and----
    Senator Tester. Sure.
    Mr. Conard [continuing]. Maybe talk about different ways in 
which fires burn in different ecosystems. The kinds of systems 
that Dr. Swetnam was talking about--the Ponderosa pine, for 
example; loblolly pine in the East--were historically typified 
by these fairly frequent fires that burned the low-growing 
fuels, but didn't damage the trees. As you get into cooler and 
wetter kinds of tree systems, those were historically 
characterized by crown fires that had very long intervals in 
between them.
    I think that's where we're beginning to see some of these 
effects in the northern forests, in forests that are crown-fire 
systems, but where more often you're getting those severe 
conditions, where those fires can occur. Now, thinning in those 
systems has--would have the effect of essentially changing the 
ecosystems, because these are ecosystems with closed-canopy 
forests. If you begin to open it up enough to prevent crown 
fire across the landscape, which I think would probably not be 
feasible, what you begin to do is change it to an ecosystem 
where those shade-tolerant species, which normally would be 
regenerating, can't regenerate, and other species would start 
to come in. So, you'd be changing the system.
    Senator Tester. OK. I want to rip over to Dr. Swetnam, 
because you talked about thinning the large-diameter trees, and 
I don't want to be too specific, but we did talk about the pine 
beetle in B.C., which also happens to be in Montana, that that 
dies when it gets into small-diameter trees, because the 
winters get cold enough it can still kill it in the small 
diameter trees. In the bigger diameters, we don't get cold 
enough winters to kill it, so it infects the bigger trees.
    So, in those kind of situations, isn't it fair to look at a 
more global way of--I mean, if you cut all your small-diameter 
trees, you're not going to have a forest left, the big ones are 
dead.
    Mr. Swetnam. That's right. You need to have a balanced 
design. If you're going to do thinning or forestry treatments, 
you have to be considerate of the age structures of the 
forests, and how the forests regenerate naturally. With regards 
to beetle outbreaks, something that we might be able to do is 
to break up the landscape into a more heterogenous type of 
landscape, with different ages and different species, might be 
helpful. When you've got these really expansive areas of one 
species, and they're all being stressed by climate change, then 
you're set up for these really enormous kinds of events.
    Senator Tester. OK. I've got more questions, but I'll wait 
for the next round, Mr. Chairman.
    The Chairman. Senator Salazar.
    Senator Salazar. Thank you very much, Senator Bingaman, for 
holding this hearing on this very important issue.
    A comment, first, and that is, I think it is very important 
for us to keep moving forward with our energy legislation that 
we crafted out of this committee, also working with the Finance 
Committee; because, at the end of the day, if we can move 
forward with biofuels, with efficiency, with carbon 
sequestration in the way that we fashioned our legislation out 
of this committee, I think it'll help us move forward in a 
significant way on the global warming issue. So, I appreciate 
what you've done there, and I appreciate you also putting a 
focus here on our forests and what's happening with fire danger 
in the West.
    I Dr. Swetnam, thank you for including, in your two--in 
your megafires in the Western United States, a picture of the 
Hayman Fire that burned in my State with 138,000 acres, back in 
July 2002. I actually was the attorney general of the State at 
that time, and was very involved in the criminal aspects of 
that case for a period of time, and saw the disaster that 
occurred out there with the burning of over 100,000 acres.
    I have a question for you, Dr. Helms, with respect to a 
part of your testimony where you say that, since both growth 
and mortality on national forests greatly exceeds harvest, 
resulting in a buildup of fuels, it would be prudent to 
consider treatments and incentives aimed at fuel reduction and 
using excess biomass for societally needed products and energy 
production.
    My question--starting with you, Dr. Helms, and to all of 
you, is--as we look at what's happening in the West and in my 
State, we have, in Colorado, approximately 2 million acres of 
forests that have been infected by bark beetles. So, you can 
travel through hundreds of miles, and you see the disaster 
that's about ready to happen. I've often referred to that as 
the Katrina of the West ready to happen with some of these 
forests ready to go up like a tinderbox. So, my question to 
you, Dr. Helms--if you look at the possibility of biomass, 
bioenergy coming off with some of these forests, what kinds of 
policy changes would you recommend to us to further that goal? 
I would ask the same question of you, Dr. Bartuska, in terms of 
what the Department of Agriculture might be recommending to us.
    Dr. Helms.
    Mr. Helms. The policy direction should be oriented toward 
trying to secure ways and means by which these forests can, 
indeed, be treated, because it--the way in which beetles attack 
is primarily through those stands which are the densest. So, we 
understand that, ecologically. The issue how to effect ways in 
which to do that--not technologically, but through social and 
political means.
    Senator Salazar. OK. Dr. Bartuska, how would you respond to 
that question?
    Ms. Bartuska. Actually, first, I'd like to take a moment to 
correct the record. I got enthusiastic and forgot the decimal 
point on my million acres of treatment. We're at 20 million 
acres. I think I overstated that a bit.
    But, also, with regard to biomass-to-energy, I'm not sure 
that a policy change is needed, so much as we have some really 
fundamental scientific breakthroughs that are needed for an 
effective woody biomass-to-energy portfolio. Our group and the 
Forest Products Lab has been working on several of the enzymes 
that are needed to really move us into a true biorefinery, 
bioenergy context, and are part of a--the recent DOE-funded 
projects at University of Wisconsin. So, we think that is the 
big breakthrough that's needed. The billion-ton report speaks 
to that woody biomass can provide up to 30 percent of the 
bioenergy of this country currently in use as a substitution 
for fossil fuel. So, being able to have biomass as a principal 
starting point for the energy program is absolutely critical. 
That's what I think we need to be----
    Senator Salazar. Is it mostly, though, a technological 
breakthrough that is needed for woody biomass, or do we 
already--have we already developed some of the technology? Are 
we putting enough money into the research and development of--
for woody biomass? What more could we do to try to get us there 
faster?
    Ms. Bartuska. There are several different pathways of 
biomass to energy, some in the ethanol production is--we 
probably have the technology and the ability to move in that 
pathway. But some of the big breakthroughs in the cellulosic 
ethanol, really using wood in a more effective way, require, 
still, several enzyme paths that have not been worked out. That 
is where we just need to have the community working much more 
effectively together. I think that is actually happening right 
now.
    But you also have the biomass into just fuel use. That, I 
think, has also been developing more technologies. The Fuel for 
School program, for example, where you have biogenerators 
locally placed, and it--whether it be schools, hospitals--so, 
you have this balanced portfolio, and those are multiple steps.
    I just believe wood has to be part of the solution, and I 
think that's what we're all trying to identify, is that 
pathway.
    Senator Salazar. I'll only make this--my time is up, but 
I'll make this comment. I think, in Colorado, we struggle with 
the opportunity, and try to figure--trying to figure out the 
pathway forward. There are a number of different demonstration 
projects where we are trying to use woody biomass in a good way 
with respect to pellets, and even a high school in one county 
that wants to become the first energy-independent county in my 
State, Jackson County, through using woody biomass. But I think 
we're searching for the pathway to make--so that we can have 
effective programs with respect to using woody biomass.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Why don't we go ahead with any additional questions in a 
second round.
    Senator Craig.
    Senator Craig. I'll be very brief.
    A couple of comments and observations based on some of my 
colleagues' questioning and response from the--our panelists.
    Obviously, thinning and changing the structure of a forest 
as it relates to fuel loading, whether you get laddering 
effects from small trees getting to big trees, or whether it's 
grass and certain types of grass--and Senator Tester mentioned 
that--I'm sitting here looking at a scenario that was--is 
somewhat historic. Probably in the State of Montana and Idaho, 
we graze our land 50 to 60 percent less than we did a decade or 
two or three ago, so that fuel buildup on the floor, if it's 
just grass and some forbes and small bushes, is now rapidly 
growing, in part because we no longer graze the land, or we 
graze it substantially less. I flew over a fire complex in 
Idaho this year unlike any I have ever experienced. I've been 
fighting fires, or on fires, since I was 15 years of age, in 
the back of our ranch, on BLM lands. This was a 600,000-acre 
piece of black land. Now, that's all of Connecticut and 
probably Rhode Island together. It had burned, 2 years before. 
A lot of it had been rehab'd and seeded, but it had not been 
grazed because of a variety of reasons, and decisions and 
lawsuits that would disallow even the lightest of grazing. We 
talk about cheatgrass as an invasive species that is very fire 
prone, but is very graze-able, early. If you hit it early and 
thin it and get it down, and then get your livestock off from 
it, you change the whole fire equation. But slick-spot pepper 
grass and a fear for the spike-tail grouse disallows that in a 
lawsuit that denies the grazing of that area. A problem. Now 
it's a 600,000-acre burn, once again. Four ranchers wiped out, 
and grazing and some livestock. The great tragedy was the 
canyons--this is high country, high plateau country--beautiful 
canyon lands filled with trees and water and wildlife--gone, 
gutted, like a torch gone through--in some instances, not all, 
and in some.
    So, when we look at reality, believe it or not, as hostile 
as public policy has been to grazing over the last five 
decades, in the scenario that the Doctor started talking about, 
in the late 1800s, when we began to change things, grazing, 
properly managed, also became a fuel reducer in some instances. 
I found that, really, very intriguing. You're right, Dr. 
Bartuska, I've done a couple of Fuels to Schools projects. 
We've got one on the Payette Forest, in Council, Idaho. The 
Payette Forest has got dead-and-dying. It's a very fire-prone 
forest in some instances, but it's now suggesting it just may 
not be able to find the fuels for the school. It's ironic that 
they were the promoters of it, but now, policywise, doesn't 
quite allow us to get to where we need to get, to get the hog 
fuels, to get to the burners, and so on and so forth. Policy 
begets policy, and it must work together. We, here in 
Washington, have dramatically tied the hands of our land 
managers into some scenarios that are a lot more political than 
they are scientific, I suspect. I guess that's my frustration. 
We'll work our way through that. Woody biomass and cellulosic 
ethanol and, you're right, a few more works at the lab table, 
and maybe we've got a stand-up commercial operation that could 
significantly, as Senator Salazar mentioned, help us change 
some of those equations. But it really needs to be a broadbrush 
picture, narrowed, specified as it relates to the situations 
we're all dealing with. My guess is, here, we try to get it too 
broad at times, and we tie the hands of those who have the wise 
science behind them in the management.
    Anyway, Mr. Chairman, thank you very much for, I hope, a 
valuable hearing coming out of a very bad fire season.
    In Idaho, while the rains are coming and the snow is coming 
in the high country, we're still burning. We're now--we've 
knocked off about 2 million acres of land, most of it in the 
timbered areas. It's a great tragedy. Now the mudslides, and 
the water quality in those regions is beginning to rapidly 
decline as we get into our wet season, and that's going to be 
the next step and problem we deal with.
    Thank you.
    The Chairman. Senator Tester.
    Senator Tester. Thank you, Mr. Chairman.
    Dr. Bartuska, if we do nothing, if we don't do any 
thinning, if we don't do anything different than we're doing 
now, and climate change continues along the same upward ramp, 
as one of the charts showed, have you done any projections on 
what the Forest Service budgetary needs are going to be over 
the next 10 or 20 years, just to fight fire, alone?
    Ms. Bartuska. No, I have not done that, and I don't believe 
our agency has done that, based on the climate change 
projections.
    Senator Tester. OK. I know it would just be projections, 
but do you think it would be wise to do that? Just over the 
short term, it might give us, as policymakers, some sort of 
idea on what to expect if policies aren't put in place that 
could help impact the forest.
    Ms. Bartuska. We actually have just began looking at, what 
are the management activities that are needed in response to 
climate change, based on the science that we've done. So, we 
believe we'll be improving our estimates over time. I can't 
tell you when that will----
    Senator Tester. OK.
    Ms. Bartuska [continuing]. Happen, but we have----
    Senator Tester. OK.
    Ms. Bartuska [continuing]. Our very first documentation of 
our strategy right now.
    Senator Tester. That's good.
    Dr. Helms, you talked some on invasive species. We have 
invasive weed species that are incredible problem in our 
forests and in the grassland, too, in the State of Montana. I 
guess the question I have is that--Is there a connection 
between the invasive species in our forests, and global 
warming? Or is the invasive-species issue due to something 
else?
    Now, let me give you an example. I live in north central 
Montana. It's flat as this table, right up here. If I overgraze 
my ground, cheatgrass will come in. If I don't overgraze my 
ground, if I treat it in a way that's sustainable, I'll never 
have a problem with cheatgrass. Is that the same thing that's 
happened in the forestland, or is it because of global warming 
or some other issue, that we find invasive grasses and invasive 
species--more along the line of invasive grasses, because the 
invasive weeds are a whole 'nother animal?
    Mr. Helms. When you have a change in vegetation, any kind 
of disturbance, the--you know, nature abhors a vacuum. So, what 
plants come in there are those plants that have a competitive 
advantage.
    Senator Tester. Gotcha. So it does have a----
    Mr. Helms. It's often the invasive, testimony those exotic 
plants aren't accompanied by other organisms, insects or 
whatever, that hold them in check. So, once you create change, 
it's the pioneering species that have the advantage. In the 
context of climate change, it's going to exacerbate that, and 
it will give, perhaps, invasive exotics an advantage over the 
native plants.
    Senator Tester. OK, good to know.
    You talked a little bit about forest lands turning to 
grasslands, and I didn't hear what you said at the beginning. 
What happens to the grasslands with climate change?
    Mr. Helms. The grasslands could move into desert.
    Senator Tester. Really? That's a nice thought. You also 
talked about the fact that they take off the forested 
vegetation, for whatever reason, and you have higher soil 
temperatures and----
    Mr. Helms. Yes.
    Senator Tester [continuing]. A greater potential for the 
CO<INF>2</INF> to----
    Mr. Helms. Yes.
    Senator. Tester [continuing]. Come out of the ground. Is 
there anything being done to address that issue--and that can 
be either you, Dr. Helms, or to Dr. Conard, or anybody on the 
panel, I don't care--to deal with the issue of exposed ground, 
higher temperatures, more CO<INF>2</INF> potentially coming out 
of the ground? Because it's going to happen.
    Mr. Helms. Yes. In the context of forest management, given 
that likelihood, the response would be to reduce the amount of 
cutting such that there is canopy--shade--so that you don't 
raise the temperature of the soil.
    Senator Tester. OK.
    Mr. Helms. So, it would be prudent, then, to recognize that 
the soil, in the highest sites, have about 40 percent of the 
total carbon content. So, you need to be prudent about how you 
handle that.
    Senator Tester. OK. I just want your opinion on this, 
because, like I said before, a lot of these questions revolve 
around forest management, and I'm not a forester, I'm a farmer. 
But the question about low or no snowpack and a let-it-burn 
policy is an issue that comes up a lot in Montana, where we 
have a lot of acres that burned this year. What is your 
perspective on a year that has very low snowpack, so we know 
it's going to be a dry summer and, for the most part, the heat 
comes with it--what is your perspective on the let-it-burn 
policy on a fire that starts in June, per se, when you have 
snowpack that's way below normal? Any of you can answer it. If 
none of you want to answer it, I understand, because it's kind 
of a political hot button.
    Mr. Helms. If I can initiate a comment.
    Senator Tester. Sure.
    Mr. Helms. Where the precipitation comes in the form of 
snow, the forest does two things. One, the canopy itself 
collects that snow and prevents it from getting to the ground, 
and it oblates and moves back to the atmosphere. But if the 
forest canopy is not closed, and the trees provide partial 
cover, then the trees play a crucial role in protecting that 
snow that's on the ground from melt. So, I think one of the 
issues that face our concerns around the forest, whether it be 
through climate change or insects or disease, is to recognize 
the extreme importance of the Nation's forests in relationship 
to water supply, because water is going to be a particularly 
critical factor, and, in the context of climate change, we need 
to be very concerned about the important role that forests play 
in protecting our watersheds.
    Senator Tester. OK.
    Do you have any comment on that, Doctor?
    Ms. Bartuska. Actually, I think Dr. Helms has done a very 
good job at----
    Senator Tester. Yes.
    Ms. Bartuska [continuing]. At summarizing where we are.
    Senator Tester. Yes. Thank you very much.
    I appreciate your guys's perspective, and I know that 
there's questions about forest management, and there's been 
head-knocking. But from my perspective, nothing's ever going to 
change in the forests until we get together and find common 
ground. Nothing's ever going to change. There is common ground 
to be found, and we can manage the forests right, and we can 
take care of our watersheds, and we can take care of the 
invasive species. But, if we continue to kick people out of our 
offices that differ with us in opinion, it's never going to 
happen.
    Thank you guys very much for your comments.
    The Chairman. I think it's been useful testimony. We 
appreciate you all being here. I think we will try to gain some 
lessons from what you've said and put them into application.
    That'll end our hearing.
    [Whereupon, at 4:37 p.m., the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

                         Department of Agriculture,
                                            Forest Service,
                                  Washington, DC, December 3, 2007.
Hon. Jeff Bingaman,
Chairman, Committee on Energy and Natural Resources, 304 Dirksen Senate 
        Office Building, Washington, DC.
    Dear Senator Bingaman: Thank you for your letter of September 28, 
2007, in which you provided the questions submitted for the record by 
the Committee for the September 24, 2007, hearing on Scientific 
Assessments of Global Climate Change on Wildfire Activity in the United 
States. The responses to the questions are enclosed.
            Sincerely,
                                        Douglas W. Crandall
                                     Director, Legislative Affairs.
[Enclosure.]

     Responses of Ann Bartuska and Susan Conard to Questions From 
                            Senator Bingaman
    Question 1. Can you summarize the available science regarding which 
particular regions in the country are likely to see the most 
significant increases in wildfire activity resulting from global 
warming?
    Answer. The recent report of the Intergovernmental Panel on Climate 
Change (IPCC 2007) developed projections of the most likely future 
changes in temperature and precipitation for different regions around 
the world. These projections were based on the outputs of 21 different 
global climate models. For North America the largest increases in 
summer temperatures are projected for the western and central US, and 
the largest increases in winter temperatures for the boreal zones of 
Canada and Alaska, and to a lesser extent the northeastern US. Winter 
precipitation is expected to decrease in the southwestern US and in 
Florida, and summer precipitation is projected to decrease across much 
of North America (with greatest decreases perhaps in the northwest and 
in Florida), and to decrease along the eastern seaboard and in the 
north (Alaska and Canada).
    These data suggest that increased fire hazard may occur in many 
regions of the US, primarily the western US, Florida, and the boreal 
forests. Projections based on regionalized climate models (Brown et al. 
2004) suggest that in the western US the greatest impacts on fire 
hazard will be in the northern Rockies, Great Basin and the Southwest, 
with less impact the on Front Range of the Rockies and the High Plains 
regions.
    Question 2. Your testimony indicates that the Forest Inventory and 
Analysis program is an important program when it comes to monitoring 
and understanding the impacts of global climate change on our forests. 
Can you give me a better idea of the role and importance of the FIA 
program in the Forest Service's global warming and other research?
    Answer. The Forest Inventory and Analysis program (FIA) uses a 
scientifically sound monitoring design to provide forest resource 
baselines and trends. The program makes use of remote-sensing data and 
field-based data to monitor forests and provide an inventory in every 
State every year. The FIA program provides critical information for 
interdisciplinary ecosystem research including climate change. Since 
1930, FIA has collected, analyzed, and reported information on the 
status and trends of America's forests by tracking how much forest 
exists, where it exists, who owns it, how it is being managed, and how 
it is changing, as well as how the trees and other forest vegetation 
are growing and how much has died or been removed. This long term data 
set is important to tracking changes in forest and tree species 
distribution as well as determining the amount of carbon sequestered in 
forests.
    Question 3. Your testimony repeatedly mentions that vegetation 
treatments ``in appropriate fire regimes'' may reduce wildfire 
severity. Would you expand on which fire regimes are appropriate for 
such a treatment strategy?
    Answer. Fire regimes describe the general relationships between a 
given ecosystem and its expected disturbance in terms of average return 
interval, burn intensity and severity. Treatments are most appropriate 
in those ecosystems that have historically burned frequently with low 
intensity and little mortality to the overstory species. This type of 
fire regime is found in dry ponderosa pine forests and dry mixed 
conifer ecosystems of the west and southwest, as well as the frequent 
burning pine ecosystems of the southeastern United States.
    In addition, other ecosystems may benefit from appropriately 
designed treatments even though fire has historically been less 
frequent. The need for treatments in these areas might be to reduce 
hazardous fuels in the wildland urban interface, protect wildlife 
habitat, control insect and disease outbreaks, create a mosaic of age 
classes across the landscape, or for other reasons related to ecosystem 
restoration.
    Question 4. Would you please provide a list of all of the Forest 
Service projects over the last ten years that were designed to reduce 
hazardous fuels within the area burned by the Angora Fire and that were 
appealed or litigated? Please include the name and a brief description 
of each such project; whether it was appealed, litigated, or both; the 
outcome of the appeal or litigation; and the length of time between 
when the appeal was filed and when it was decided by the Forest 
Service.
    Answer. No fuel treatment projects within the Angora Fire were 
appealed or litigated within the last ten years. Over the last ten 
years, seventeen fuel treatments were implemented in and adjacent to 
the Angora Fire on National Forest System lands (excluding the urban 
lot treatments). One of these treatment units (unit 20) was partially 
complete (trees thinned and hand piles created but not burned).
    Please see the chart and map* on the following pages for specific 
information.
---------------------------------------------------------------------------
    * Map has been retained in committee files.

                                                 ANGORA FIRE AREA PRE-FIRE TREATMENT UNIT PRESCRIPTIONS
--------------------------------------------------------------------------------------------------------------------------------------------------------
                   Unit                          Acres Treated            Year Completed*                               Activity
--------------------------------------------------------------------------------------------------------------------------------------------------------
6                                                               78                      1995           Pre-commercial Thinning/Activity Fuels Pile Burn
--------------------------------------------------------------------------------------------------------------------------------------------------------
7                                                               33                      2007    Commercial and Pre-commercial Thinning/Salvage/Activity
                                                                                                                                        Fuels Pile Burn
--------------------------------------------------------------------------------------------------------------------------------------------------------
8                                                               91                      2007      Commercial and Pre-commercial Thinning/Activity Fuels
                                                                                                                                              Pile Burn
--------------------------------------------------------------------------------------------------------------------------------------------------------
11                                                              14                      1997   Commercial and Pre-commercial Thinning/Salvage/ Activity
                                                                                                                                        Fuels Pile Burn
--------------------------------------------------------------------------------------------------------------------------------------------------------
12                                                              12                      2006   Commercial and Pre-commercial Thinning/Salvage/ Activity
                                                                                                                                        Fuels Pile Burn
--------------------------------------------------------------------------------------------------------------------------------------------------------
13                                                               8                      2007   Commercial and Pre-commercial Thinning/Salvage/ Activity
                                                                                                                                        Fuels Pile Burn
--------------------------------------------------------------------------------------------------------------------------------------------------------
14                                                              17                      2007           Pre-commercial Thinning/Activity Fuels Pile Burn
--------------------------------------------------------------------------------------------------------------------------------------------------------
16                                                              27                      2006           Pre-commercial Thinning/Activity Fuels Pile Burn
--------------------------------------------------------------------------------------------------------------------------------------------------------
17                                                              18                      2006    Commercial and Pre-commercial Thinning / Activity Fuels
                                                                                                                                              Pile Burn
--------------------------------------------------------------------------------------------------------------------------------------------------------
18                                                              11                      2006   Commercial and Pre-commercial Thinning/Salvage/ Activity
                                                                                                                                        Fuels Pile Burn
--------------------------------------------------------------------------------------------------------------------------------------------------------
19                                                              25                      2006           Pre-commercial Thinning/Activity Fuels Pile Burn
--------------------------------------------------------------------------------------------------------------------------------------------------------
20                                                              60                        **   Commercial and Pre-commercial Thinning/Salvage/ Activity
                                                                                                                                        Fuels Pile Burn
--------------------------------------------------------------------------------------------------------------------------------------------------------
21                                                              87                      2005   Pre-commercial Thinning/Salvage/ Activity Fuels Pile Burn
--------------------------------------------------------------------------------------------------------------------------------------------------------
22                                                             123                      2005   Commercial Thinning/Salvage/ Activity Fuels Jackpot Burn
--------------------------------------------------------------------------------------------------------------------------------------------------------
28                                                              21                      2006           Pre-commercial Thinning/Activity Fuels Pile Burn
--------------------------------------------------------------------------------------------------------------------------------------------------------
29                                                              26                      2005   Commercial and Pre-commercial Thinning/Salvage/ Activity
                                                                                                                                        Fuels Pile Burn
--------------------------------------------------------------------------------------------------------------------------------------------------------
30                                                              35                      2005   Commercial and Pre-commercial Thinning/Salvage/ Activity
                                                                                                                                        Fuels Pile Burn
--------------------------------------------------------------------------------------------------------------------------------------------------------
* This year represents the year the burning was completed. Thinning was completed in previous years.
** All activities completed except pile burning.

    Question 5/6. A recent Forest Service assessment of the fire 
behavior during the Angora Fire indicated that slash piles left behind 
after fuels reduction projects burned during the fire. What is your 
best estimate of the number of slash piles that burned during the 
Angora fire?
    a) When were those piles made?
    b) Did the project decisions or descriptions specify a time-frame 
for the treatment of those piles?
    c) Does the Forest Service have any general guidance regarding 
removal of slash piles, and, if so, was the guidance followed in the 
area burned during that fire?
    Answer. More than 850 acres of hand piles\1\ were burned within 
Lake Tahoe Basin Management Unit (LTBMU) last fall, winter, and spring. 
However, there were not enough available burn opportunities due to a 
short, dry winter and air quality concerns to burn all ``cured'' hand 
piles within the Basin. Opportunities to burn are dictated by the 
presence of appropriate weather and fuel conditions for meeting burn 
controllability and smoke management objectives.
---------------------------------------------------------------------------
    \1\ The piles that burned on the Angora Fire were hand piles, 
created after hand thinning and piling of much smaller amounts of 
material than would be found in a typical slash pile. Slash piles refer 
to machine-generated by-products, often from timber operations or 
large-scale thinning.
---------------------------------------------------------------------------
    The hand piles within unit 20 were among those that were not 
burned. Hand piles within treatment units are not counted. However, 
estimates indicate that hand pile units within the Basin average about 
15-20 piles per acre. Treatment unit 20 totaled sixty acres.
    a) The hand piles in treatment unit 20 were created in 2005.
    b) No.
    c) The Forest Service has no general guidance regarding removal of 
hand piles.
     Responses of Ann Bartuska and Susan Conard to Questions From 
                            Senator Cantwell
    We are observing serious wildland fire conditions such as an 
increasing number of large and severe wildfires, lengthened wildfire 
seasons, increased areas burned, and increasing numbers of large 
wildfires in fire-sensitive ecosystems. The annual number of acres 
burned on public lands has been increasing over the last couple of 
decades. Recent research suggests that these trends are, in part, 
related to shifts in climate. For example, a warming climate is 
contributing to longer wildland fire seasons with more extreme wildland 
fire events, which greatly increase the risk to human lives and 
infrastructures, particularly within the wildland urban interface. 
Without taking action to manage fire-dependant ecosystems today and in 
the absence of thoughtful preparation and planning for the future, 
wildland fires are likely to become increasingly difficult to manage. 
To this extent, I have the following questions:
    Question 7. The San Diego Declaration on Climate Change and Fire 
Management was ratified at the Association for Fire Ecology's Third 
International Fire Ecology and Management Congress, a gathering 
attended by 1,200 delegates from 26 different countries across six 
continents, and represents the broadest agreement to date among 
wildland fire scientists and managers of the effects of global warming 
on wildfires and fire regimes. What is the Bush Administration's and 
the U.S. Forest Service's position on the San Diego Declaration? What 
has the Administration and agency been doing to incorporate the 
document's scientific conclusions and action items into land and fire 
management?
    Answer. We are familiar with the San Diego Declaration on Climate 
Change, which was developed by the Association for Fire Ecology and 
endorsed by the membership and other signatories at the 3rd 
International Fire Ecology and Management Conference in Sand Diego in 
November, 2006. In general, the Declaration addresses the role that 
climate and weather patterns play in shaping fire regimes and the 
potential for changing climate to significantly alter future fire 
patterns, and encourages managers to consider these potential impacts 
as they develop and implement management strategies for fire affected 
ecosystems.
    In the recently issued Forest Service Strategic Plan for 2007-2012, 
climate change is recognized as an important factor that ``will impact 
forest, range, and human well-being by potentially altering the ability 
of ecosystems to provide life-supporting goods and services. The 
implication for natural resource management is to be flexible and adapt 
management strategies to help mitigate the effects of climate change. 
In short, we need to develop new knowledge so that we can manage for 
future change, ensuring the continued provision of goods, services, and 
values from forests and rangelands.''
    Question 8. One of the key findings of the San Diego Declaration is 
that wildfire seasons are lengthening and wildfire size is growing. In 
the absence of thoughtful planning and preparation for future changes 
in climate and weather, wildland fires will likely be increasingly 
difficult to manage---a point apparently verified by the current 
wildfire season. What is the Forest Service doing to incorporate 
climate change projections and mitigations into Land and Resource 
Management Plans and Fire Management Plans?
    Answer. The Forest Service is developing a strategic approach to 
address climate change in forests and rangelands. By developing and 
implementing this strategy, we anticipate that field managers will 
address the effects of climate change by managing for healthy, 
resilient ecosystems.
    Question 9. The San Diego Declaration proposes several action items 
for management, research, and education to help adapt public land 
management to cope with wildland fire in a changing climate, including 
holding conferences and symposia to enhance communication among 
managers and researchers, and engage the general public. What is the 
Administration and Forest Service doing to educate citizens about the 
effects of climate change on wildland fire? What is the Administration 
and Forest Service doing to enhance communication and collaboration 
among fire and climate scientists, fire and land managers?
    Answer. The Chief of the Forest Service has identified climate 
change as one of three key themes for the agency to address, along with 
water issues and encouraging children to get outdoors. Chief Kimbell 
has delivered several recent speeches that have addressed climate 
change and has been interviewed on numerous occasions on the subject. 
The themes are spotlighted on the Forest Service webpage (http://
www.fs.fed.us/ ), and climate change is further highlighted by Research 
and Development (http://www.fs.fed.us/research/fsgc/climate-
change.shtml).
    Within Research and Development, fire and climate scientists 
collaborate closely on an ongoing basis. Over 75 Forest Service 
scientists, with several colleagues from other agencies and academia, 
met in September to identify gaps in the Forest Service Research and 
Development program in climate change. The results will be used to 
develop an updated Climate Change Research and Development Strategy.
    In addition, the Forest Service research community provides peer-
reviewed science for application on the national forests and 
grasslands, including extensive research on climate change effects on 
those ecosystems. This information is provided to land managers through 
training, conferences and other technology transfer efforts.
     Responses of Ann Bartuska and Susan Conard to Questions From 
                            Senator Salazar
    Question 10. What types of adaptation management strategies have 
been found to best deal with managing the expected increased threat of 
wildfires?
    Answer. The most effective measures for dealing with an increased 
threat of wildland fire are:

    Homeowner utilization of Firewise and other guidance to:

  <bullet> Ensure house and deck construction material is fire 
        resistant.
  <bullet> Ensure vegetation adjacent to houses and other structures is 
        either removed or exhibits low flammability characteristics 
        (e.g.: broadleaf versus conifer trees).
  <bullet> Ensure combustibles are kept away from structures (needle 
        litter, firewood, scrap lumber, etc.).

    Ensure adjacent fuel within the wildland-urban interface is 
maintained in a low hazard condition, through a combination of 
mechanical treatments and prescribed fire.
    Maintain a high percentage of lands outside the wildland-urban 
interface in a resilient, sustainable fashion, through the use of 
prescribed fire, wildland fire use, and mechanical treatments.
    Question 11. One of the most enduring ad campaigns in our country's 
history are the Smokey the Bear public service announcements. There 
probably isn't a person in the room who hasn't heard the slogan ``Only 
you can prevent forest fires.'' Given that the majority of wildfires 
are caused by human activity, are there plans to increase efforts to 
reach the public on climate change and expected increased wildfire 
activity, and ways to prevent wildfires?
    Answer. The Cooperative Forest Fire Prevention (CFFP) Program, 
commonly known as the Smokey Bear Program, was created to maintain 
public awareness of the need to prevent human-caused wildfires. In 
cooperation with the Advertising Council and the National Association 
of State Foresters, new campaigns are developed every few years. In 
calendar year 2008, a new campaign will be launched to spread Smokey's 
message of reducing human-caused wildfires.
    Fire and Aviation Management is actively involved with Forest 
Service Research and other staff groups to educate the public in the 
reasons for wildfire causes and increases in severity.
    Question 12. The link between climate change and fire is clearly 
strong, but since this linkage has come to light, some people suggest 
that climate is more critical than fuel as a driver of fire behavior, 
and there is no reason to treat fuels to protect communities or restore 
ecosystems. What are the implications of climate change for fuel 
treatment and forest restoration?
    Answer. Both field observations and fire behavior models 
demonstrate the central importance of fuel loads, fuel structure (the 
vertical and horizontal distribution of fine fuels, in particular), and 
fuel moisture as important determinants of fire behavior. Weather 
patterns during and preceding a fire also have strong effects on fire 
behavior, as does terrain. In general, decreased fire intensity and 
ecosystem impacts will occur as fine fuel loads decrease, fuel moisture 
increases, and where wind speeds are low, humidity is low, and slopes 
are more shallow.
    In situations where fuels are overly dense, or where understory 
vegetation development has led to fuel continuity from the ground to 
tree crowns, a number of studies have shown that fuel treatments can 
effectively modify fire behavior, increase the effectiveness of 
suppression actions, and decrease the likelihood of crown fire.
    Warming climate, as it increases intensity of droughts and length 
of fire seasons, is expected to lead to higher fire hazard in many 
parts of the country. Maintenance of healthy forests and rangelands, 
control of invasive species such as cheat grass, and fuel reduction 
treatments all can play a part in reducing this threat and in improving 
the ability to manage wildfires across the landscape. Recent papers 
also suggest that severe fires can be seen as opportunities to 
facilitate ecosystem adaptation to changing climate. For example, by 
planting tree species or genotypes more adapted to warmer climates, or 
by adjusting planting densities, forests recovering after a fire may be 
made more resilient to future changes in climate (e.g. Spittlehouse et 
al. 2003).
    Question 13. Fires are becoming increasingly harder to fight and 
are releasing huge quantities of carbon dioxide. Wildland Fire Use, the 
practice of allowing some lightning-ignited fires to burn under less 
extreme conditions, has been suggested as a way to mitigate fires and 
ensure they release less carbon dioxide. Do you see a role for Wildland 
Fire Use in changing future fire behavior so it is less extreme, 
thereby releasing fewer greenhouse gases?
    Answer. Careful use of unplanned ignitions (Wildland Fire Use) has 
great potential to reduce severity and intensity of future wildfires by 
creating patterns of vegetation which are less prone to large, high 
severity fire events. In these areas, reduced burn severity and 
emissions occur through reduced consumption of fuel, thus enabling the 
site to retain material which in a severe wildfire would have otherwise 
been released as carbon dioxide and other emissions.
    Withholding fire from fire-adapted ecosystems increases the 
potential for severe, high intensity fires. In some parts of central 
Idaho wilderness areas, there is evidence that the previous 
implementation of wildland fire use (1972-2006) resulted in reduced 
burn severity and emissions from the fires of 2007.
    Question 14. It has been suggested that because young forests grow 
fast and older forests grow slowly, we can cut down old forests and 
replace them with fast-growing plantations to maximize the uptake of 
carbon dioxide and reduce global warming. What is the current 
scientific understanding of the effects of logging older forests on the 
uptake or release of greenhouse gases?
    Answer. Answering this question requires consideration of the net 
greenhouse gas outcome of the options in the question--it requires 
thinking about what the atmosphere sees rather than thinking only in 
terms of carbon on a particular acre.
    Actively managing rapidly growing forests and converting the wood 
to long-lived products, substitutions for fossil-fuel intensive 
products, and biofuels provides substantial greenhouse gas benefits. 
Older forests can be significant pools of carbon, but the pool size is 
neither increasing nor decreasing when considered across time and 
disturbance cycles (fire, insect, disease, wind events). In the systems 
studied, a life cycle analysis shows that substantially more carbon can 
be sequestered and greater greenhouse gas benefit realized by actively 
managing the stand and using the wood over multiple rotations than is 
sequestered by older stands of the same type.
    A mosaic of ages and stand types across the landscape can be 
important depending on the goals and objectives of the landowners or 
managers. Old forest stands that may be important with regard to other 
environmental values often do not help in overall greenhouse gas 
reductions. The relative value of desired outcomes must be considered.
     Responses of Ann Bartuska and Susan Conard to Questions From 
                            Senator Domenici
    Question 15/16. Dr. Conard, near the end of your written testimony 
you said: ``Because climate in many areas will change more rapidly than 
long-lived plant species can migrate, moderate to severe fires can be 
seen as opportunities to facilitate migration, either by planting . . . 
or by selecting seed from trees that grow in warmer seed zones or at 
lower elevations.'' What is the current reforestation backlog facing 
the Forest Service?
    Answer. At the end of fiscal year 2006, the Forest Service declared 
a total of approximately 1.1 million acres needing reforestation. These 
needs will be updated with new information following the end of fiscal 
year 2007.
    Question 17. How much of that backlog was the result of fires and 
insect outbreaks and how much was caused by past harvesting?
    Answer. We estimate that the 1.1 million acres of reforestation 
needs consist of approximately 704,000 acres resulting from wildfires, 
33,000 acres caused by insect and disease, and 120,000 acres from 
previous harvest treatments. Reforestation after a timber harvest is a 
legal requirement that is paid for through the timber sale, whereas no 
funding source outside of appropriated funds is available following a 
fire unless there is a salvage sale.
    Question 18. In the absence of a dramatic increase in reforestation 
funding, what are the other ways the Forest Service has to pay for the 
work needed to address the reforestation backlog?
    Answer. Partnerships with external organizations are a way that the 
Forest Service uses to provide additional funding for reforestation 
work. For example, the Forest Service receives contributions from 
organizations such as American Forests, The Arbor Day Foundation, 
National Forest Foundation, the National Association of Garden Clubs, 
the Batesville Casket Company, and the Forest Service Plant-a-Tree 
programs. These contributions currently provide less than 5% of the 
annual reforestation accomplishments but we are working with the 
partners to increase the program.
    Question 19. Given current funding availability and the projected 
increase in fires that you've suggested could happen, is it realistic 
to believe the Forest Service has the capability of undertaking the 
kind of work you suggested in your testimony? If not, what changes 
would have to occur to facilitate that kind of work?
    Answer. As with all decisions regarding expenditures of funds, this 
would be a matter of evaluating priorities among many competing needs.
    Question 20. Dr. Conard, I have been reading a Pacific Northwest 
Research Station publication from January 2004 titled Western Forests, 
Fire Risk, and Climate Change. The author of the paper was Ron Neilson. 
I found a number of the statements in that document quite interesting. 
In the summary, Mr. Neilson said, ``In six of seven future scenarios 
run through one model, the Western United States gets wetter winters 
and warmer summers throughout the 21st century (as compared to current 
climate), with expanded woody growth across the West and thus, 
increasing fire risk.'' Several of the witnesses today told us that 
early spring run-off followed by a dry summer leads to severe fire 
seasons. In fact, the paper I am talking about said: ``Large fires 
associated with climate patterns including the 1910 Idaho fires, 1988 
Yellowstone fires, and 2002 Biscuit Fires in Southwest Oregon'' were 
strongly related to climate variability. Are Forest Service researchers 
suggesting we will be more likely to experience dry springs followed by 
warmer summers and therefore more fires due to climate change? Or are 
the models suggesting that increased forest vegetation over a larger 
landscape will make more acres susceptible to forest fires?
    I am also interested in another comment in this paper, which said: 
``Computer models can forecast the likely effects of different 
scenarios, giving people a chance to compare outcomes. Computer models 
cannot predict specific events.'' We heard lots of dire predictions, 
most based on computer models at our Climate Change and Wildfire 
hearing. Yet, the authors of this Forest Service report are warning us 
that these models have limited capabilities.
    Answer. Current global change models, and regional analyses based 
on these models, suggest that much of the US will experience warmer 
summers, earlier snowmelt, and longer, more severe summer drought. As 
shown in recent papers, such as that by Westerling (2006) in Science, 
these factors can be associated with the occurrence of severe fire 
seasons and more large fires in the West over the past several decades. 
Fire patterns in Florida and other areas of the country have also been 
associated with severe drought and other factors related to multi-year 
climate variability.
    Based on model projections, the environmental conditions associated 
with high fire hazard are likely to increase in many regions. The 
effects of climate and fire/climate interactions on vegetation are more 
difficult to predict. Newer model projections (IPCC 2007) suggest that 
the southwestern US will be both drier and warmer, as opposed to 
earlier projections that suggested the area would be wetter and warmer.
    If the new projections are correct, we might expect fewer trees in 
these regions, with a transition from forest to savanna to desert 
grasslands. Because projections of individual models vary, the IPCC 
uses ensemble forecasts (developed by comparing the results from over 
20 different global models) to increase the robustness of their 
projections. Climate models are improving greatly, and generally are 
much more capable at reproducing past events than they were even 5 
years ago. This calibration to past events provides higher confidence 
in the accuracy of projections of future changes.
    Question 21. Understanding these limitations, is the Forest Service 
suggesting that we should predicate future forest policy on these 
predictive models?
    Answer. Clearly we believe climate change has serious implications 
for the long-term health and sustainability of the nation's forests. 
But, as we have already noted, predictive models have their limits when 
it comes to developing long-term forest policy. In the near term, 
modeling results will be useful in informing management strategies 
developed in forest plans. In the longer term, as the real world 
effects of climate change become more apparent, other environmental 
policy changes may be needed to protect the national forests. Adaptive 
management strategies are being used, but will be even more important 
and useful as more information comes in and models improve.
    Question 22. I gather from the past testimony of Chiefs Dale 
Bosworth, and Abigail Kimbell, and Undersecretary Mark Rey that the 
Forest Service believes we must manage for change, including increased 
management of forest vegetation. Is that correct?
    Answer. We are already starting to see the impacts of climate 
change on forests with fires burning hotter and bigger, larger insect 
outbreaks, and warmer winters with smaller snowpacks. The agency is 
working to increase the resilience of National Forests and Grasslands 
by adapting to changing ecosystem conditions, and working to mitigate 
future effects of climate change. Management of forest vegetation and 
disturbance processes are the essential tools we use to adapt to a 
changing climate and mitigate further impacts to the forests and 
grasslands.
    Question 23. Dr. Bartuska, I have a data set provided by the Forest 
Service that shows the number of acres burned by year from 1916 through 
2006. When I look at that data set, I see that 2006 is only the 37th 
worst year in the 90-year data set. Two years (1931 and 1933) showed 
more than 5 times the number of acres burned than we had in 2006. Four 
other years (1928, 1929, 1933 and 1934) showed more than 4 times the 
number of acres burned than we had in 2006. What do you think caused 
the number of acres burned each year between 1916 and 1954?
    Answer. First, we would like to frame the data in question. Several 
years ago the Forest Service compiled available historical federal and 
state wildfire occurrence data back to the early 1900's. However, the 
Agency cannot provide a full accounting for field methods used to 
collect the data, so the accuracy of the data during this time period 
cannot be verified.
    The data do indicate that significant acres were burned during the 
1920's through the 1940's; the maximum number of burned acres reported 
in a single year was 52 million acres in 1930. The data further 
indicate that the acres burned were predominantly in the southern and 
eastern US (states of VA, WV, NC, SC, TN, GA, FL, AL, LA, MS, TX, AR, & 
OK) with most of the burned acres occurring on unprotected forested and 
non-forested lands, for example:


------------------------------------------------------------------------
                                                           Acres Burned
                 Year                     Total Acres     within States
                                             Burned           Above
------------------------------------------------------------------------
1927..................................      38 million       34 million
1930..................................      52 million       47 million
1933..................................      44 million       41 million
1947..................................      24 million       21 million
------------------------------------------------------------------------

    As to the general cause of the acres burned, there appears to be a 
combination of factors including climatic conditions on a national 
scale such as the ``dust bowl'' of the 30's combined with a tradition 
of woods and field burning and fire reporting protocols which 
contributed to the high number of acres reported. The Agency has 
initiated an effort to better understand and interpret the historical 
data and would be willing to provide a follow-up report at conclusion 
of that effort.
    Question 24. I know you heard my opening statement when I mentioned 
the 1871 Peshtigo fire, the 1894 fire in Hinckley, Minnesota, and the 
1910 fires in Montana and Idaho. What do you think primarily caused any 
of those fires?
    Answer. The primary underlying factors for the fires in question 
appear to be the accumulation of fuels, management practices, drought, 
and wind and weather conditions. An account of the specific incidents 
follows:

    Peshtigo Fire.--Many months of extreme drought combined with the 
land-clearing practices of the time (``slash and burn'') caused many 
small fires to be whipped into a huge forest fire when a cyclonic storm 
blew up on the night of October 8, 1871.
    One example from survivor accounts is that railroad workers 
clearing land for tracks that Sunday evening started a brush fire which 
somehow became an inferno. It had been an unusually dry summer and the 
fire moved fast. Some survivors said it moved so fast it was ``like a 
tornado.''
    Hinckley Fire.--The fire occurred on September 1, 1894 and was 
centered at Hinckley, Minnesota. After a two-month drought, several 
fires started in the pine forests of Pine County, Minnesota. The main 
contributor to the fire was apparently the then common method of lumber 
harvesting, which involved stripping trees of their branches, littering 
the ground with such detritus. Another contributing factor was a 
temperature inversion that trapped the gases from the fires.
    1910 Fires.--1910 was the driest year in memory. Snows melted early 
and the spring rains were lacking. An electrical storm the night of 
July 15 touched off more than 3,000 fires. Then, on August 20, 
hurricane-force winds roared into Idaho and Montana dry forests. In a 
matter of hours, fires became firestorms.

    Question 25. Do your models suggest that we will have more years 
with the specific causal agents that occurred in these mega fire 
incidents?
    Answer. The primary causal agents of the incidents described above 
were rooted in land management practices, such as relatively 
uncontrolled burning of logging slash, and burning for land clearing. 
Today, these practices are much more closely managed. Widespread 
burning without knowledge of impending weather changes (such as high 
winds) was often the critical confluence of events that led to these 
megafires of the past. Once the fires started, often in many places at 
once, there was little capability in place to suppress them. We utilize 
fire behavior science and fire weather forecasting to manage fire 
effects and maintain controllability of our prescribed fires. In 
addition, fire weather predictive services allow for better preparation 
for weather changes and identification of long-term weather trends.
    As climate changes, the weather conditions that lead to increased 
fire hazard are likely to become more frequent, and the annual burned 
areas are likely to continue increasing, at least in the short-term. 
Current land management practices, including reduction in hazardous 
fuels and the existence of extensive fire suppression capabilities, 
should help to mitigate these effects of changing climate on fire 
regimes.
    Question 26. If the low elevation and southern ponderosa pine 
forests are likely to migrate to higher elevations and to the north, as 
suggested by Dr. Swetnam, do you believe it would be wise to ignore the 
fires at higher elevations in the northern Intermountain States?
    Answer. Our policy is never to ``ignore'' fires regardless of the 
location. Each fire receives an appropriate management response that 
balances resources at risk, potential fire behavior and effects, cost, 
and potential resource benefits from the fire (in areas where the use 
of fire to achieve resource benefits is permitted by the Land and 
Resource Management Plan) to determine the best management approach 
while always providing for the safety of our firefighters and the 
public. As climates change and conditions favor species that may be 
better adapted to dry, warm conditions, our appropriate management 
response approach will not change. The specific actions taken to ensure 
our approach is appropriate will be determined based on risk, 
probability, safety, cost, and benefits (where appropriate).
    Question 27. Do you know of any research that examines the ability 
of tree species to invade and reforest lands that have been heavily 
impacted by fires, including how various species respond to the loss of 
soil and the changes in moisture regimes after high intensity fires?
    Answer. There are multiple research studies that have looked at 
recovery after individual fires in a wide range of vegetation types. 
Each ecosystem type has different characteristic patterns of recovery 
after fires, and both the rate of recovery and the species composition 
after a fire can vary as a function of fire adaptation of individual 
species, the availability of seed, the size and severity of the burn, 
and the weather patterns in the seasons after the fire.
    The rate of regeneration of tree species after a fire is a case in 
point. Some tree species, such as aspen, oaks, and maples, have the 
capacity to sprout from roots or living stem bases following even 
fairly severe fires. Most conifer species, on the other hand, must 
reproduce from seed. Some conifer species are well-adapted to 
reproducing after high-intensity fires, while others, such as ponderosa 
pine in the west and loblolly pine in the east, may have their seeds 
burned up in a severe fire. These species will need to reinvade from 
living trees within the burn or at the edge; a process that can take 
decades depending on local conditions.
    There are a number of studies that have evaluated the geographic 
changes in habitat suitability that might be expected for various tree 
species based on various climate change scenarios. The Climate Change 
Tree Atlas provides maps of potential changes in habitat suitability 
for over 100 tree species in the eastern US. Models developed by Forest 
Service researchers provide similar projections for key tree species in 
the western US. Such information can be used by managers to help them 
make decisions about appropriate strategies for regeneration following 
severe disturbances, including wildfires.
     Responses of Ann Bartuska and Susan Conard to Questions From 
                             Senator Corker
    Question 28. I understand that a number of models predict that the 
Southeast is likely to experience the greatest increases in wildfires 
in the continental United States. Will you please describe why this is 
the case and describe what changes are predicted to occur and how they 
will increase the risk of wildfires?
    Answer. In general the eastern seaboard is projected to experience 
less warming than the rest of the country, and is projected to 
experience similar or higher precipitation than what we have today. The 
exception is Florida, where models suggest that temperatures will warm 
slightly and rainfall may decrease substantially. This pattern is 
likely to lead to increased frequency of periods of high fire hazard. 
We are not aware of published models that predict large increase in 
wildfires in the rest of the Southeast.
    Question 29. Do we need to reconsider forest management policies or 
other mitigation activities?
    Answer. We believe the Forest Service currently has forest 
management policies and authorities that allow the agency to mitigate 
and adapt to the impacts of climate change. For example, we currently 
conduct thinning treatments in conifer forests to improve forest health 
and make the forest more resistant to insect attacks.
    Question 30. Are there currently obstacles to forest management 
that could significantly reduce the damage caused by fires that will 
only continue to compound the problem if temperatures continue?
    Answer. The Healthy Forests Initiative, launched in 2002, has 
helped to reduce the time it takes to administratively plan and 
implement projects that reduce the impact of wildfire on the landscape. 
The Forest Service received additional assistance in removing 
administrative barriers through the Healthy Forest Restoration Act, 
which improved the procedures and processes for planning and 
implementing fuel reduction projects, especially near at-risk 
communities. The Forest Service continues to work to streamline 
planning processes and remove administrative barriers to accomplish 
fuel reduction work as quickly and efficiently as possible.
     Responses of Ann Bartuska and Susan Conard to Questions From 
                            Senator Barrasso
    Question 31/32. Doctors, your testimony mentions the importance of 
forest treatments to reduce stress and crowding. Your research details 
the opportunity for positive results presented to forest managers by 
these methods. What is your agency's approach to implementing your 
findings? What steps have been taken to put these findings into 
practice to actively meet forest management needs?
    Answer. The Forest Service research community provides peer-
reviewed science for application on the national forests and 
grasslands, including extensive research on climate change effects on 
those ecosystems. Among other applications, Forest Service research is 
used to plan and visualize stand level vegetation treatments and 
evaluate forest plan strategies for promoting healthy forests. The 
computer models used for these purposes are being retooled to account 
for the latest climate change research. The latest research information 
is also disseminated through publications, conferences, and the ongoing 
collaboration between national forests and the regionally based 
research stations.
    Question 33. When will we see results on the ground?
    Answer. The Forest Service approach to vegetation management 
already promotes the resilience of forest ecosystems in the face of 
climate change. Under the National Fire Plan, the Forest Service has 
accomplished 11.9 million acres of hazardous fuels and restoration 
treatments from 2001 through 2006. This includes 6 million acres in the 
wildland-urban interface and 2.1 million acres of restoration 
treatments. Final numbers for FY07 are still being compiled, however, 
an estimated 2.9 million acres of hazardous fuels and restoration work 
was accomplished. The Forest Service will continue its work on fuel 
reduction projects and insect treatments in FY 2008.
                                 ______
                                 
      Responses of John A. Helms to Questions From Senator Salazar
    Question 1. What types of adaptation management strategies have 
been found to best deal with managing the expected increased threat of 
wildfires?
    Answer. Wildfires require a combination of fuel, temperature, and 
oxygen. Of these, the only factor that can be managed is the presence 
and distribution of fuels. Given that the most intense and catastrophic 
fires occur in dense forests, and since experience has shown that when 
wildfires encounter less dense and more open stands fire intensity 
commonly drops (USDA PSW 2007), it seems clear that increased efforts 
must be made to thin overly-dense stands. In doing so, irregular 
mosaics of stand density should be created that remove ladder fuels to 
reduce opportunities for fire to burn into tree crowns.
    Since it is clearly impossible to rapidly treat all 180 million 
acres the Forest Service estimates are in hazardous condition, current 
efforts to create ``Defensible Fuel Profile Zones'' (DFPZs--Quincy 
Library Group/USDA FS, California), ``shaded fuelbreaks'' (Agee et al. 
2000) and ``Strategically Placed Landscape Area Treatments'' (SPLATS or 
SPOTS in California's Sierra Nevada--USDA FS) are all worthwhile 
exploring. These are areas 1/4-1/2 mile wide, usually along roads or 
strategically placed in which fuel loadings are reduced to reduce 
potential for crown fires, interrupt fire spread, and to provide 
defensible space to fight the fires.
    Although not free from criticism, these efforts are initial steps 
in the right direction. More adaptive management and pilot studies 
(such as the Fuels Management National Pilot Project 2007 funded by the 
Forest Service) are needed to demonstrate efficacy and cost 
effectiveness and to communicate lessons learned from these and other 
projects and forest treatments (Wildland Fire Lessons Learned Center 
2007).
    Question 2. One of the most enduring ad campaigns in our country's 
history are the Smokey the Bear public service announcements. There 
probably isn't a person in the room who hasn't heard the slogan ``Only 
you can prevent forest fires.'' Given that the majority of wildfires 
are caused by human activity, are there plans to increase efforts to 
reach the public on climate change and expected increased wildfire 
activity, and ways to prevent wildfires?
    Answer. There is considerable current effort aimed at providing the 
public with information regarding wildfires, hazardous fuels, and the 
need to provide defensible space around homes. Some of these are the 
Fire Safe Council, Firewise, Rural Fire Assistance, and Landfire. 
National programs are coordinated through the National Fire Plan. Fire-
prone states such as California have aggressive programs of public 
information.
    However, the fact that catastrophic wildfires are due to hazardous 
fuel loadings and over-dense public forests and thus can be addressed 
by forest management seems to be either little understood or rejected.
    Increased effort in technology transfer and outreach is needed, 
particularly at K-12 education levels where perceptions are formed, to 
provide the public with science-based information regarding the need to 
restore public forests to densities that do not support catastrophic, 
stand-replacing fires or insect outbreaks. It is generally not 
appreciated, for example, that current mature mixed conifer stands in 
the Sierra Nevada of California are carrying over 1,000 trees per acre; 
by comparison, natural forests in which low-intensity fires were common 
carried only about 40 mature trees per acre.
    Priorities to move forward are: 1) enhance collaboration among 
federal and state agencies in partnership with industrial, tribal, and 
non-industrial family forest owners, 2) streamline legal and regulatory 
frameworks to encourage restoration of forest health and responsible 
stewardship of the nation's forest lands, and 3) provide better 
communication to the public and decision makers indicating that 
restoring and maintaining forest health is key to mitigating likely 
effects of climate change.
    Question 3. The link between climate change and fire is clearly 
strong, but since this linkage has come to light, some people suggest 
that climate is more critical than fuel as a driver of fire behavior, 
and there is no reason to treat fuels to protect communities or restore 
ecosystems. What are the implications of climate change for fuel 
treatment and forest restoration?
    Answer. Wildfires are driven by both fuel and temperature and are 
made particularly devastating when combined with low humidity and high 
winds. Modeling shows that, in general, changing climate will likely 
result in more wildfires. However, fires won't burn without fuel, and 
fire intensity increases with fuel loading. A prudent steward of forest 
lands would therefore reduce hazardous fuel loads and remove a portion 
of trees that provide ladder fuels that enable flames to reach the 
canopy.
    The amount of fuels in a forest can reach 15-70 tons per acre 
(Sampson 2004) and this fuel loading cannot be removed by prescribed 
burning without incurring substantial risk. Therefore some preliminary 
mechanical treatment is required. This could be cost-effective if the 
smaller-dimension biomass could be used for cellulosic ethanol 
production and the larger material converted into wood products that 
store carbon. A major hurdle on public lands is to make this material 
available through long-term contracts that provide a sufficiently 
stable investment climate that will enable industry to construct the 
necessary processing plants for both ethanol and wood products.
    Question 4. Fires are becoming increasingly harder to fight and are 
releasing huge quantities of carbon dioxide. Wildland Fire Use, the 
practice of allowing some lightning-ignited fires to burn under less 
extreme conditions, has been suggested as a way to mitigate fires and 
ensure they release less carbon dioxide. Do you see a role for Wildland 
Fire Use in changing future fire behavior so it is less extreme, 
thereby releasing fewer greenhouse gases?
    Answer. Yes, the Wildland Fire Use system in which lightning fires 
are managed to achieve resource benefits is a worthwhile approach to 
reintroducing natural fire into forest ecosystems. Wildfires are indeed 
increasingly hard to fight and release 75-80 tons CO<INF>2</INF> or 
more per acre (Sampson 2004). Fires that can be several hundred 
thousand acres in size are clearly emitting millions of tons of 
CO<INF>2</INF> and other greenhouse gases into the atmosphere. Once 
forest stands are restored to more natural density levels, prescribed 
fires can be used which emit about 18-20 tons CO<INF>2</INF> per acre 
(Sampson 2004).
    Decisions to permit natural fires to burn are based on diverse 
criteria that assess the risk to private property, ecological systems, 
and societal values. The Wildland Fire Use approach is commendable, 
however one must accept the likelihood that, initially at least, some 
ecological and societal values will be damaged and air quality will be 
affected. This points to the importance of providing the public with 
quality information regarding the goals, risks, and benefits of the 
program.
    Question 5. It has been suggested that because young forests grow 
fast and older forests grow slowly we can cut down old forests and 
replace them with fast-growing plantations to maximize the uptake of 
carbon dioxide and reduce global warming. What is the current 
scientific understanding of the effects of logging older forests on the 
uptake or release of greenhouse gases?
    Answer. It is true that fast-growing, younger forests sequester 
carbon at a higher rate than slower growing, older forests. When older 
forests become mature or over-mature, the rate of carbon accumulation 
may become zero or negative due to loss of vigor, tree mortality and 
decay of organic matter. The total accumulation of carbon in older 
forests is greater than in younger forests.
    It is well documented, however, that young forests managed by 
utilizing a series of harvests will, in time, sequester or store more 
carbon than unmanaged forests left for several hundred years (Birdsey 
and Lewis 2002, Krankina and Harmon 2006, IPCCa 2007). This is because, 
over successive rotations or cutting cycles, managed forests maintain 
high rates of CO<INF>2</INF> uptake. The superiority of managed forests 
in sequestering carbon is especially evident when the harvested wood is 
used for both energy production and wood products that store carbon for 
long periods. The situation is made even more compelling when renewable 
wood products are used instead of alternative materials such as 
concrete, steel, aluminum, and plastic that are non-renewable and have 
been shown by life cycle analyses to consume far higher amounts of 
energy in manufacture (Perez-Garcia et al. 2005). In this context it 
should be mentioned that ``managed forests'' are not necessarily 
single-species, uniformly-spaced ``plantations''. They could be if this 
was desired, but they could also be managed to have multiple species, 
several age classes, and understory vegetation such that are 
indistinguishable from naturally-occurring forests.
    The following figure* from the IPCCa 2007 report illustrates the 
principle.
---------------------------------------------------------------------------
    * Figure has been retained in committee files.
---------------------------------------------------------------------------
    Forests and forest management have an important role in mitigating 
climate change. As reported by the Intergovernmental Panel on Climate 
Change (IPCC 2007b):

          Forestry can make a very significant contribution to a low-
        cost mitigation portfolio that provides synergies with 
        adaptation and sustainable development. However this 
        opportunity is being lost in the current institutional context 
        and lack of political will and has resulted in only a small 
        portion of this potential being realized at present (high 
        agreement, much evidence).

     Responses of John A. Helms to Questions From Senator Domenici
    You have testified that ``. . . in general, effects of climate 
change are more likely to be seen in northern latitudes with loss of 
meadows, conversion of forest to grassland, and tree invasion into 
areas that were previously too cold. Forests are expected to move north 
in latitude and upward in elevation. Pine forests at low elevation are 
likely to be replaced by woodlands and grasslands.'' Dr. Swetnam 
suggested that it might be too late to manage in high-elevation long 
fire rotation stands and that it might be wiser to focus management in 
the Ponderosa Pine forests of the Southwest.
    Question 6. If the low elevation and southern Ponderosa Pine 
forests are likely to migrate to higher elevations and to the north, as 
suggested by Dr. Swetnam, do you believe it would be wise to ignore the 
fires at higher elevations in the northern Intermountain States?
    Answer. Decisions on when and how to deploy fire suppression 
resources depend on professional analyses of potential fire behavior, 
duration, cost, and risk to ecological, environmental, and societal 
values, life, and property. This approach is appropriate when 
considering fires within any ecosystem or biome. The mountain tops of 
the Southwest are especially at risk to climate-induced vegetation 
changes and replacement by species that are more adapted to hotter and 
drier conditions. Thus these unique ecosystems may warrant special 
attention to reduce the likelihood and severity of wildfires.
    Question 7. What does the field of forestry tell us about the 
ability of tree species to invade and reforest lands that have been 
heavily impacted by fires, including the loss of soil and the changes 
in moisture regimes after high intensity fires?
    Answer. In general, rates of germination, establishment, and growth 
of trees after wildfires are slower than those of shrubs and grasses--
in particular sprouting shrubs and hardwoods. It is therefore common 
for pioneering shrubs and grasses to rapidly colonize and dominate 
burned areas for many decades. This is less true for the ``fire-type'' 
conifers such as lodgepole pine that have serotinous cones evolved to 
open from the heat of fires. Forestry research and experience shows 
that vegetation growth after fires varies from brushfields to 
successful tree regeneration depending on such factors as the 
availability of seed. Surveys in California's Sierra Nevada have shown 
that mature true fir forests having no shrubs in the understory can 
have 2 million viable seeds of shrub species per acre that remain 
dormant in the soil until heat from fires cracks their seed coats and 
stimulates germination. In contrast, tree seeds do not commonly remain 
viable in the soil after two years and seed crops have periodicity from 
one to seven years.
    After a wildfire, a prompt assessment is needed of post burn 
conditions to determine the likelihood that desired vegetation of 
diverse species will become established. The desired mix of vegetation 
cover needs to be defined and the timeframe in which preferred 
conditions of tree cover, habitat, and soil cover should be attained 
needs to be identified. Experience has shown that those areas likely to 
become brushfields or have high potential for erosion need to be 
promptly planted to return them to forest conditions. Brushfields often 
have conifer seedlings underneath them, but it can take 50-100 years 
for the trees to overtop the brush and form a forest canopy. Burned 
areas that may regenerate satisfactorily to the desired species mix 
without treatment or are ecological reserves not needing treatment 
should be identified in the post-burn assessment.
    In all cases, the post-burn analysis should identify the costs, 
benefits, and risks associated with action or no action. Decisions 
should ensure that society is best served by using treatments where 
necessary to rapidly restore the preburn mix of forest values, 
habitats, uses, and watershed protection.
    Question 8. Dr. Helms, you have also testified that `` . . . since 
both growth and mortality on national forests greatly exceeds harvest 
resulting in a build-up of fuels, it would be prudent to consider 
treatments and incentives aimed at fuel reduction and using excess 
biomass . . .'' In your estimation, what type of effort would it take 
to mitigate the potential impacts of the change to our forests that you 
and the other witnesses have suggested could happen? That is, how can 
we prepare those forests for the changes that may occur?
    Answer. Efforts are already being made by agencies within Interior 
and Agriculture under existing programs and policies such as the 
Healthy Forests Restoration Act of 2003 to reduce fuels that have built 
up in over-dense federal forests. However, current efforts are small 
relative to the magnitude of the problem. The main impediment to 
progress is that segments of the public distrust and challenge analyses 
and plans to thin forests. To prepare forests for climate changes, 
emphasis must be placed on identifying ways and means by which high-
risk stands and forests can be thinned and fuel reduction carried out 
to restore and maintain forest health and vigor in a societally-
acceptable manner.
    The Forest Service estimates that 180 million acres of national 
forests are in need of treatment and all this area cannot be readily 
treated in a short timeframe. However, the spread of catastrophic 
wildfires can be limited by shaded fuel breaks such as described in my 
response to Question 1.
    In 2006 a joint agency comprehensive fuels treatment strategy was 
initiated aimed at reducing fuels buildup in forests in an efficient 
and effective manner (USDA and USDI 2006). This mix of policy and 
management approaches is an important step and warrants enhanced 
support and further development.
    Question 9. Do you recommend we start now, or do we have time to 
fight and fuss over what environmental protections and analysis must be 
completed before we begin to take action?
    Answer. Because wildfires are increasingly devastating and costly 
there is an urgent need to address forest condition problems and 
societal impediments to mitigation. This task has already commenced and 
excellent programs are beginning to reduce fuels on public lands (e.g., 
USDA and USDI 2006, National Fire Plan 2007). About 20 million acres 
have already been treated under the Healthy Forest Restoration Act, 
with special emphasis on the wildland/urban interface. But 
accomplishments to date represent only a small fraction of the 180 
million acres of national forests needing attention, thus losses to 
catastrophic wildfire and costs of suppression are increasing. Overly-
dense national forests need to be thinned, which would not only reduce 
hazards of wildfire but would also enhance wildlife habitat and water 
yields.
    National forests are owned by the people who necessarily must have 
a say in how their forests are managed. In addition, treatments under 
any policy or plan must conform with current laws and regulations. To 
address controversy and opposition by some segments of the public to 
thinning public forests, increased efforts are needed to provide 
factual information through technology transfer such that children, 
adults, and decision makers have adequate science-based information to 
help shape opinion regarding the balance that needs to be struck 
between competing uses and values of forests. This is especially 
important in the context of climate change because the likely increases 
in forest mortality and wildfires are undoubtedly going to negatively 
impact the diverse benefits that forests provide society.
    Moving forward will require policies and incentives aimed at 
increasing collaboration among landowners and stakeholders such that 
sustained thinning projects can be developed at the scale and duration 
necessary to effectively address the wildfire problem.
    Question 10. Dr. Helms, during questions by Senator Tester, you 
suggested that timber management could help to maintain sufficient 
crown cover to help hold the accumulated snow pack in place for longer 
than in open areas. If trees sometimes have a more difficult time 
regenerating after high intensity fires and water retention and run off 
are negatively impacted in the absence of tree cover; and we do 
experience higher temperatures, are we more likely to see brush fields, 
or stands of new trees as species have to migrate up in elevation and 
to the north through these heavily burned lands?
    Answer. Maintaining and enhancing the nation's water supply for 
residential, agricultural, and environmental needs is a critical 
priority. The nation's future supply of water is in jeopardy in the 
context of changed climate and precipitation patterns, particularly in 
the Southwest. Most of the nation's water comes directly from forested 
watersheds or indirectly through recharged ground water systems. It is 
imperative, therefore, that forests be evaluated in terms of how their 
structure and composition affect hydrological cycles and the extent to 
which management can enhance the supply and quality of water and the 
timing of distribution to streams.
    Where precipitation is in the form of snow, forest cover is 
critical in enhancing water yields by providing shade over snow, 
delaying snow melt, and preventing erosion. These effects are enhanced 
where the forest has a discontinuous canopy cover, a condition that may 
have to be maintained by thinning.
    Given likely higher temperatures, uncertain precipitation patterns, 
and possible species change, it would be prudent to examine whether 
thinning treatments can maintain forest health, delay transition to 
better-adapted vegetation such as shrubs, and thus help ensure adequate 
water yields for environmental and societal needs.
    The potential of forests to revert to brushfields, either following 
wildfire or as the result of climate change, is important because once 
an area is dominated by brush it often takes many decades before trees 
can break through and the area returns to forest. As brushfields 
commonly reburn, the area can remain dominated by brush indefinitely. 
The importance of considering ecological succession and forest/brush 
dynamics in any management strategy is mentioned in my response to 
Question 7.
      Response of John A. Helms to Question From Senator Barrasso
    Question 11. I notice that your testimony includes an emphasis on 
our ``responsibility to mitigate through forest management.'' Could you 
elaborate on that point, specifically fuels treatment?
    Answer. Healthy forests and their associated wildlife habitats and 
watersheds are priceless assets providing the nation with critical 
values and uses. The sustainable management and conservation of forests 
is crucial to societal welfare. When forests are allowed to become 
overly dense the trees lose vigor and become susceptible to insects, 
disease, mortality, and fire. This is exacerbated under conditions of 
overall rise in temperature, drought, and storms. It is therefore in 
society's best interest that, apart from ecological reserves, 
wilderness or similar areas, forests be sustainably managed to maintain 
forest health and provide the balance and diversity of values and uses 
that society needs.
    The argument that forests, especially national forests, should be 
left unmanaged and that ``nature knows best'' is understandably 
appealing. However it does not recognize that the condition of our 
national forests is far from ``natural''. People are an integral and 
often dominant part of ecosystems and rapidly increasing human 
populations have drastically changed forest structure and composition 
through harvesting, development, infrastructure, and wildfire 
suppression policies. Forests could be allowed to ``develop 
naturally'', but nature's way of reducing stand density is through tree 
mortality through competition, suppression, insect/disease attacks, and 
wildfire. Natural forests start as tens to hundreds of thousands of 
seedlings per acre and at maturity may only have fifty dominants. The 
natural process of forest succession is therefore characterized by 
natural agents continually causing tree mortality. However, in today's 
context, these forest successional processes represent loss of critical 
forest values, risk to life and property, and are most certainly 
societally unacceptable. The difficulty is that human timeframes of 
what is important and acceptable are far shorter than nature's long-
term cycles of ecological succession. Actually, our only realistic 
option is to manage our forests to reduce risks and to sustain the 
values and uses upon which we are dependent.
    The challenge is how to accomplish this in a socially acceptable 
and economically feasible way. Societal acceptance can probably only be 
achieved through a combination of Congressional leadership and science-
based information outreach. In particular, decision-making processes 
are needed that emphasize stakeholder common interests in restoring 
healthy forests to reduce wildfires, mitigating the effects of climate 
change, and striking a balance among competing values and viewpoints. 
The overall policy goal should be to restore and sustainably manage the 
nation's forests for the welfare of society at large. Since fuels 
treatments and thinning are costly, it is critical to explore ways and 
means by which these costs can be offset by utilizing the biomass in 
the form of energy or renewable wood products. The desirability of this 
option becomes apparent when one appreciates that using wood can reduce 
carbon emissions where it is used in place of alternative materials 
that life cycle analyses show have higher energy requirements in 
manufacture.
    I used the word ``responsible'' in my testimony in the context that 
failure to restore forest health and reduce impacts of wildfire and 
insects on wood supply, wildlife habitat, and water supply is to 
abdicate current society's responsibilities to present and future 
generations.
       Response of John A. Helms to Question From Senator Corker
    Question 12. Do we need to reconsider forest management policies or 
other mitigation activities? Are there currently obstacles to forest 
management that could significantly reduce the damage caused by fires 
that will only continue to compound the problem if temperatures 
continue to rise?
    Answer. Forests are a critical national resource. They are owned by 
state and federal agencies, industries, tribal groups, and non-
industrial family owners having diverse goals and objectives. Issues of 
climate change transcend property boundaries. It is important, 
therefore, to examine current laws and regulations to determine 
opportunities for coordinated policies and cooperative management at 
the landscape level. Flexible policies, regulations, and incentives are 
needed to readily accommodate mitigation opportunities that are time-
sensitive and likely to be ownership-, location- and forest-specific.
    The major obstacle to forest management on national forest lands is 
the strong perception by some that no trees should be cut to provide 
wood products needed by society. It seems imperative that society 
understand and support the need to reduce the density of trees on 
national forests that are so susceptible to mortality, fuel build-up, 
wildfires, and insect attack. This situation will be exacerbated as 
temperatures rise, storms increase in frequency, and changed 
precipitation patterns lead to droughts. Society must recognize that 
the enormous funding needed to address the problem and to thin the 
national forests is simply not available and that it is in society's 
best interests to carry out the needed thinning treatments through the 
sale of biomass for energy and for wood products that store carbon. It 
is important that the public and decision makers consider whether it is 
environmentally, ethically, or strategically appropriate that the US, 
although having the capacity to be self-sufficient in wood, imports 36 
percent of wood consumed and that California, for example, imports 80 
percent of its wood needs from other states or countries.
                                 ______
                                 
     Responses of Thomas Swetnam to Questions From Senator Bingaman
    Question 1. A number of the witnesses mentioned that logging and 
grazing have contributed to the accumulation of fuels that are 
contributing to these fires. Can you briefly explain the process by 
which logging and grazing results in the accumulation of fuels?
    Answer. Intensive livestock grazing was an important cause of 
reduction in surface fire occurrence in many Western forests. This 
effect occurred primarily during the late 1800s and early decades of 
the 1900s. Very large herds of sheep, goats, cattle and horses removed 
the grass cover in under stories of ponderosa pine and mixed conifer 
forests. In 1890, for example, there were more than 5 million sheep and 
1.5 million cattle in New Mexico! Prior to this intensive livestock 
grazing era, more-or-less continuous grass cover promoted fire 
ignitions by lightning and people, and extensive spread of these fires. 
Grazing and the creation of livestock trails and ``driveways'' 
effectively disrupted the fire ignition and spread process. The sheep 
industry declined after the First World War, and after 1910 the U.S. 
Forest Service also began to fight forest fires aggressively, and to 
reduce overgrazing on federal forest lands. During the subsequent 
century, lack of frequent surface fires in ponderosa pine and mixed 
conifer forests allowed many trees to establish and dead fuels (tree 
needles, branches, logs, and snags) to accumulate. This general history 
did not occur everywhere in the West, but it was fairly typical in the 
Southwest and in many pine-dominant and mixed conifer forests of the 
Sierra Nevada, and inter-mountain regions (Swetnam and Baisan 2003). 
This effect of livestock grazing, fire suppression, and subsequent fuel 
accumulation was generally not important in relatively higher 
elevation, wetter forests, such as spruce-fir and lodgepole pine 
forests. Grass cover was much less extensive in these forest types, and 
typically large fires only occurred at long intervals (>100 years), so 
fire suppression has had less or no effect here in lengthening the 
intervals between fires (Schoennagel et al. 2004).
    Logging (tree harvesting) has a highly variable effect on fire 
activity. Again, the effects depend on forest type, region, and the 
kind of management practices employed. It is generally thought that 
extensive, unregulated logging practices in the late 19th century and 
early 20th century were a contributing factor to the enormous and 
destructive wildfires that occurred during this part of the settlement 
era in the Lake States and West. Some of these massive, historic 
conflagrations were noted by Senator Domenici in his statement at the 
beginning of the hearing (for example the Peshtigo Fire of 1871). The 
unregulated 19th century harvesting, and some modern harvesting in the 
20th century, produced massive quantities of surface fuels, deriving 
from untreated residual branches, tree leaves/needles and boles. These 
fuels contribute to fire ignition, spread, and unusual fire severity. 
Although this type of logging--where residual fuels are generated and 
untreated--has contributed to increased fire extent and severity in 
some places and times, logging (and thinning) practices can lead to 
reduced fire hazards when the residual fuels are treated, e.g., by 
hauling them away or burning in situ in piles or by broadcast burning. 
There is a building body of scientific evidence supporting the general 
strategy of forest thinning and prescribed fire as a means of reducing 
wildfire severity and damaging effects in some western forests (e.g., 
Schoennagle et al. 2004, Finney et al. 2005, Cram et al. 2006, Omi et 
al. 2007). The recent Omi et al. study, in particular emphasized the 
importance of treating surface fuels, and not just reducing overstory 
tree densities. Again, I would emphasize that such fuels treatments 
(e.g., thinning) are ecologically appropriate in forests that formerly 
sustained frequent surface fires, had relatively low tree densities and 
low accumulated surface fuels, but now have much higher tree densities 
and accumulated dead fuels. From an ecological perspective, however, 
such treatments are not justified in wetter, higher elevations forests 
where frequent surface fires were not a natural occurrence (Schoennagle 
et al. 2004).
    Another effect of logging on fire activity is related to the 
extensive road building associated with logging. Vast networks of roads 
built to accommodate logging have allowed many more people to travel 
into remote areas, and it is likely that this greater access has 
allowed more human-set fires to occur in these places.
    Question 2. You mentioned at the hearing that you believe that 
thinning should generally focus on small-diameter trees. What is the 
scientific rationale for focusing on small diameter trees?
    Answer. To reduce fire hazards in forests that previously sustained 
frequent surface fires (i.e., before intensive livestock grazing and 
active fire suppression began) the primary emphasis should be on 
thinning relatively smaller diameter (often younger) trees (Allen et 
al. 2002). This emphasis is a rather obvious and logical strategy in 
most of these forest types where past management practices have led to 
extreme forest structure changes and hazardous fuel accumulations. For 
example, many ponderosa pine and mixed conifer forests in the Southwest 
and elsewhere in the West have extraordinarily dense ``thickets'' of 
relatively small diameter trees. It has been shown in studies that the 
vast majority of these small diameter (and often stunted) trees 
established in these forests as a consequence of and following the 
disruption of frequent fire regimes by land use practices (e.g., 
livestock grazing and active fire fighting) (e.g., Fule et al. 2002). 
In some cases the stem densities of these stunted tree thickets exceed 
5,000 stems per acre (Falk 2004). Moreover, it is clear from fire 
behavior modeling and observational studies that these dense thickets 
are an important contributing factor in generating unnaturally severe 
crown fire behavior in some forests (Cram et al. 2006, Cruz et al. 
2006, Allen 2007). It is also generally the case that larger diameter, 
older trees, are relatively rare in most forest types as a consequence 
of natural mortality patterns, and because of extensive harvesting of 
large trees in the past century. Hence, there are ecological, 
silvicultural, esthetic, and scientific reasons to focus primarily on 
thinning smaller diameter trees, and to thin (or harvest) larger 
diameter, older trees sparingly and judiciously (if at all) in these 
forest types I am referring to.
    In my view, it is an unnecessary and counter-productive point of 
contention for federal agencies, timber industry interests, or forest 
scientists to insist that specific diameter caps should never be 
imposed in thinning treatments. It is quite clear that a focus on 
thinning of the relatively small diameter stems will often and 
substantially reduce the risk of unnaturally severe fires in these 
forest types. Importantly, focus on the smaller diameter trees will 
also reduce contention and challenge of such treatments by concerned 
citizens and non-governmental organizations. Moreover, it is critical 
that resulting fuels generated by such thinning be treated by removal 
(by burning or hauling off site) (Omi et al. 2007). It is important to 
note here that I use the phrase ``small diameter'' trees in a relative 
sense, and specific to forests where natural surface fire regimes were 
disrupted. The diameter range of trees in high density groups in 
productive Sierra Nevada forests may be considerably larger than the 
diameter range of thickets in lower productivity Southwestern forests.
    I would also clarify that I am not opposed to traditional forestry 
practices that involve either even aged or uneven-aged management or 
rotation-based silvicultural designs in appropriate areas and 
circumstances. I am trained as a forester myself, and my father was a 
District Ranger with the U.S. Forest Service for 35 years. However, I 
believe that in the context of reducing fire hazard in forests where 
thickets of small diameter trees are a primary cause of increased 
hazards (i.e., a substantial part of the problem in the West), a focus 
on small diameter trees makes eminent sense.
    Question 3. Your testimony mentions the possibility that global 
warming could result in ``more-or-less permanent `dust bowl'-like 
conditions in the Southwest.'' Are there any indications in the 
historical or pre-historical records of what that might mean for 
wildfire activity in New Mexico?
    Answer. My reference to the potential for a transition to ``more-
or-less permanent `dust bowl'-like conditions in the Southwest'' was 
based on the recent paper published in the journal Science by Seager et 
al (2007). They hypothesized this potential under a scenario of 
increasing greenhouse gases and continued global warming, and the 
modeled and observed effects of ocean-atmosphere patterns on regional 
climate. The most extreme droughts in the past century in New Mexico 
were the ``turn of the century drought'' (1890s), the ``Dust Bowl 
drought'' of the 1930s, the ``1950s drought'' (late 1940s to about 
1957), and the current drought (since about 1998). The tree-ring record 
of drought in the Southwest is very extensive, and perhaps the best 
documented drought history of this type for anywhere in the world. Good 
quality tree-ring-based drought reconstructions cover all of New Mexico 
and the broader Southwest over the period from about AD 1500 to 
present, and some locations have histories extending back nearly 2,000 
years (Ni et al. 2002, Cook et al. 2004). These long-term histories 
show that some pre-20th century droughts exceeded in magnitude and 
duration any drought experienced during the 20th century. Notable 
examples include the so-called ``megadroughts'' of the mid 1100s, and 
the 1580s. Many of these droughts undoubtedly had profound impacts on 
human populations and ecosystems. For example, a ``Great Drought'' at 
the end of the 13th century AD was a contributing factor in the Anasazi 
abandonment of the Colorado Plateau, and the migration of many of the 
ancestors of modern New Mexico Pueblo peoples to the Rio Grande valley.
    We have limited knowledge about the impacts of past megadroughts on 
ecosystems and fire. However, it is likely that some past droughts led 
to very large wildfires, bark beetle outbreaks, and direct drought-
induced mortality of trees and other plants--much as recent drought 
effects. Moreover, extreme amplitude ``switching'' of wet years and dry 
years during the late 1700s apparently led to many widespread fires in 
the Southwest (Swetnam and Betancourt 1998). We think the 1580s 
megadrought probably caused widespread burning and drought/bark beetle-
related tree dieoff. This interpretation is based on observations that 
very few living or dead trees can be found in the Southwest that pre-
date this major event. Hence, it appears that a major forest and 
woodland dieoff occurred, followed by extensive regeneration during a 
wetter and cooler period in the early 1600s (Swetnam and Betancourt 
1998).
    During the 20th century, the 1950s drought stands out as the most 
severe event. Notably, a number of very large forest fires erupted in 
Southwestern forests during this period. Also, a very extensive bark 
beetle outbreak and tree mortality occurred in parts of New Mexico 
during the 1950s drought (Swetnam and Betancourt 1998, Breshears et al. 
2005, Allen 2007). However, even though the 1950s drought was more 
extreme in some areas of the Southwest than the recent drought, both 
forest fires and bark beetle outbreaks were considerably smaller in 
extent than during the recent drought. For example, the largest recent 
fires (i.e., the Rodeo-Chediski in Arizona, 467,000 acres) were almost 
an order of magnitude larger in size than the largest forest fires 
during the 1950s in this region. The extraordinary size of both bark 
beetle outbreaks and wildfires in the recent decade in the Western US 
(including Alaska) and Canada is a chief reason that I and many of my 
colleagues have concluded that recent warming temperatures and earlier 
springs are likely a key factor in these patterns, and not just reduced 
rainfall (Breshears et al. 2005, Westerling et al. 2006).
 Responses of Thomas Swetnam to Questions From Senator Senator Salazar
    Question 4. What types of adaptation management strategies have 
been found to best deal with managing the expected increased threat of 
wildfires?
    Answer. Fuels treatments using mechanical thinning and prescribed 
fires are appropriate and effective in some forest types, particularly 
forests that formerly sustained frequent surface fires in the 19th 
century and earlier. Climate change increases the urgency to get on 
with these treatments at much larger scales than has been accomplished 
so far. A general goal should be to increase the resiliency of these 
forests to the coming climate ``shocks'', i.e., drought-induced 
wildfires, insect outbreaks, and other disturbances. By ``resiliency'' 
I mean the ability of ecosystems to resist damaging effects and to 
recover from disturbances. I would emphasize a need to act at broader 
spatial scales, and especially to increase the use of fire as a 
management tool and a key element of ecological restoration. We can not 
hope to keep fire out of our forests. Fires will happen; the question 
is: Will they be fires that we have planned for and managed, and are 
ecologically beneficial, or will they be unplanned, uncontrolled and 
destructive to ecosystems and human values?
    One adaptive strategy I have advocated is utilizing recently burned 
landscape ``mosaics'' as an opportunity to engage in landscape-scale 
follow-up treatments. Most recent, large wildfires have resulted in 
complex mosaic patterns of high, moderate, and low severity burned 
areas (proportions of overstory trees killed), and unburned patches. 
These large mosaics of burned/unburned areas provide an excellent 
opportunity to engage in large-scale forest restoration/fire use 
treatment programs. The high severity burned patches and fire lines 
constructed during the suppression efforts offer safety zones and 
control features for use of prescribed surface fires. Local communities 
are energized in these areas and ready to move forward with proactive 
restoration efforts at improving sustainability and resiliency of 
forests surrounding their homes. A partnership of federal agencies, 
community groups, and University scientists are currently engaged in 
planning such an effort in southern Arizona, where I live and work.
    Question 5. One of the most enduring ad campaigns in our country's 
history are the Smokey the Bear public service announcements. There 
probably isn't a person in the room who hasn't heard the slogan ``Only 
you can prevent forest fires.'' Given that the majority of wildfires 
are caused by human activity, are there plans to increase efforts to 
reach the public on climate change and expected increased wildfire 
activity, and ways to prevent wildfires?
    Answer. I understand that the U.S. Forest Service is planning to 
engage in a new effort to reach out to children to help them understand 
climate change effects and the importance of forests and natural 
resources. I am unaware of other specific plans by federal agencies to 
focus on public communication/education on the wildfire and climate 
change issue.
    Although it is true that the majority of fires are ignited by 
people nationally, in most mountain and forest regions of the West 
there are more lightning ignited fires than human ignited fires. 
Moreover, lightning ignited fires dominate the total area burned in 
most forest landscapes of the West. In general, more than 95% of total 
area burned is accounted for by fewer than 5 percent of the fires. 
Hence, total area burned (or numbers of the very large fires) is a much 
more relevant statistical factor to consider in terms of wildfire 
trends, impacts and costs than total numbers of fires ignited. 
Ignitions by people are important, particularly in some sub-regions, 
and in some ecosystem types. But the effect of high numbers of human 
set fires in some sub-regions does not outweigh the dominant role of 
lightning, fuels and climate change at the scale of the entire Western 
United States.
    I do not mean to imply, however, that there isn't a strong need for 
public education and fire prevention programs. Careless ignition of 
fires by people can be extremely destructive, and is a part of the fire 
problem. Smokey Bear's message is still needed. At the same time, 
however, I believe we need to greatly increase the public's 
understanding that not all fire is bad, and in fact, the use of fire as 
a tool by knowledgeable managers (e.g., prescribed fire and wildland 
fire use) is essential to maintain the functioning of some ecosystems. 
Landscape-scale fire use will also be necessary to maintain fuels at 
safe levels. This is one of the great challenges of land management, I 
believe, in the coming century: How can we restore fire-dependent 
ecosystems using fire as an ecological restoration and management tool, 
while also protecting human property and lives? How can we use fire as 
a management tool, while also managing smoke and carbon dynamics?
    Question 6. The link between climate change and fire is clearly 
strong, but since this linkage has come to light, some people suggest 
that climate is more critical than fuel as a driver of fire behavior, 
and there is no reason to treat fuels to protect communities or restore 
ecosystems. What are the implications of climate change for fuel 
treatment and forest restoration?
    Answer. The implications are twofold. First, warming temperatures, 
earlier springs, and increasing severity and duration of droughts--and 
related wildfire responses--increases the urgency of forest restoration 
and appropriate fire management. Forest and fuel changes because of 
land uses are very important in some forests (and not in others). 
Furthermore, invasive species and expanding human populations all point 
to the necessity to better manage our forests to reduce fire hazards 
where feasible and ecologically justifiable. Second, there are some 
forest areas where forest and fuel changes are not outside the 
historical range of variability, and human land uses have had 
relatively little effect on the fire regimes or fire severity occurring 
in these types. In these places fuels treatments (thinning or 
prescribed surface fires) may or may not mitigate current or future 
fire hazards, and there is little or no ecological justifications for 
such treatments. In these cases, development and implementation of land 
use policies (e.g., wildland fire use, land use zoning, fire fighting 
and post-fire remediation policies) may be more appropriate local 
responses than fuels treatments.
    Question 7. Fires are becoming increasingly harder to fight and are 
releasing huge quantities of carbon dioxide. Wildland Fire Use, the 
practice of allowing some lightning-ignited fires to burn under less 
extreme conditions, has been suggested as a way to mitigate fires and 
ensure they release less carbon dioxide. Do you see a role for Wildland 
Fire Use in changing future fire behavior so it is less extreme, 
thereby releasing fewer greenhouse gases?
    Answer. Smart, effective wildland fire use will be essential in 
managing carbon dynamics in our forests in coming years. The issue is 
not whether we will generate smoke and carbon inputs to the atmosphere 
via fire, but how much, and to what extent can we manage such inputs? A 
general hypothesis is that planned, frequent low severity fires (in 
appropriate ecosystems) will result in less smoke and carbon input than 
uncontrolled, high severity wildfires. I am not very familiar with 
published literature on this topic, but my impression is that there is 
limited information on the short and long-term effects of fire use 
practices versus wildfires, particularly at the scales of landscapes 
(i.e., multiple watersheds and mountain ranges). I think more research 
is needed on this subject.
    Question 8. It has been suggested that because young forests grow 
fast and older forests grow slowly we can cut down old forests and 
replace them with fast-growing plantations to maximize the uptake of 
carbon dioxide and reduce global warming. What is the current 
scientific understanding of the effects of logging older forests on the 
uptake or release of greenhouse gases?
    Answer. The specific role of older forests versus younger forests 
in sequestering carbon is beyond my knowledge and expertise. I suspect 
that there is some scientific literature on this topic, but I doubt 
that there is a scientific basis for such a drastic step as removing 
old forests for this purpose. In general, old growth forests are a 
quite small proportion of the remaining forests in U.S., and so 
harvesting them for the purpose of planting young trees would unlikely 
be a significant benefit to carbon sequestration. The losses of the 
special values of old growth forests would also be great (e.g., 
wildlife habitat, esthetic, and scientific values). On the other hand, 
it may well be that expanding plantations in some previously harvested 
lands, or perhaps converting grasslands or other ecosystem types (where 
feasible) to forests for carbon sequestration may be a useful approach 
in the future.
     Responses of Thomas Swetnam to Questions From Senator Domenici
    Dr. Swetnam you suggested that it might be too late to manage in 
high-elevation long fire rotation stands and that it might be wiser to 
focus management in the Ponderosa Pine forests of the Southwest.
    Question 9. If the low elevation and southern Ponderosa Pine 
forests are likely to have to migrate to higher elevations and to the 
north, do you believe it would be wise to ignore the fires at higher 
elevations in the northern Intermountain States?
    Answer. During the hearing I stated that prioritization of 
management treatments, such as forest thinning and prescribed burning, 
should be focused in areas where forest structures and fuel levels have 
changed the most as a consequence of past land use practices (e.g., 
livestock grazing and fire suppression). High severity fires are a much 
larger problem--from an ecological and sustainability perspective--in 
these forests (e.g., ponderosa pine dominated and drier mixed conifer 
forests) than in some higher elevation, northern forests (e.g., spruce-
fir and lodgepole pine forests). Also, there are extensive areas of 
ponderosa pine and mixed conifer outside of the Southwest that have 
experienced disrupted surface fire regimes, increased forest densities 
and fuel accumulations, and are in need of fuels treatments to reduce 
risk of large unnaturally high severity fires. Current federal agency 
approaches and tools for mapping, and assessing fire hazards and 
treatment prioritization (e.g.., LANDFIRE and Fire Regime Condition 
Class assessments) do in fact consider such historical and natural 
aspects of fire and forest changes.
    Perhaps climate change (e.g., warming) will eventually establish 
more landscape areas in the higher elevations and northern Western 
states suitable for ponderosa pine. If this happens on a large-scale 
there will probably be many negative repercussions that will outweigh 
concerns about whether or not ponderosa pine can migrate to or grow in 
these places. For example, what will we do if the vast forests of 
spruce-fir, lodgepole pine, western hemlock, Douglas-fir etc. in the 
northern, Western states convert en masse to other ecosystem types as a 
consequence of extraordinarily large fires, forest insect outbreaks, 
and direct drought-induced mortality? Extreme watershed impacts, such 
as reduced water quality and rapid sedimentation of municipal 
reservoirs will likely occur in this scenario, as well as loss of 
critical wildlife habitat, and loss of human lives and built structures 
in the wildland urban-interface.
    Given this worrisome potential scenario, I do not at all believe we 
should ``ignore'' the changes occurring in high elevations, or northern 
forests. The key question is what can we do about these changes, if 
anything? It is possible that some kind of forest management might 
mitigate future changes in these forests. However, broad-scale forest 
thinning or the use of prescribed surface fires within these forests 
(i.e., long-interval fire regime types), has much less (or no) 
ecological basis or justification. Open, low-density forests and 
frequent surface fires were generally not a historical, ecological 
condition of most of these forests in the past; they are not 
evolutionarily adapted to this type of fire regime or forest condition. 
It is not at all clear that thinning treatments or surface fire use 
will help maintain or sustain these forests in the face of climate 
changes. It is possible that high severity fires, which are occurring 
more frequently in the recent decade, will begin to ``self limit'' the 
extent of future high severity fires. By ``self-limit'', I mean that 
formerly burned areas (n previous years and decades) may begin to limit 
the spread and extent of future fires.
    In the near-term, and at the much broader global-scale, I believe 
the most important thing we can do to reduce future negative impacts in 
our high elevation and northern forests is to proceed rapidly to 
significantly reduce our greenhouse gas emissions.
    Question 10. What does the field of forestry tell us about the 
ability of tree species to invade and reforest lands that have been 
heavily impacted by fires, including the loss of soil and the changes 
in moisture regimes after high intensity fires?
    Answer. There is a considerable scientific literature on post-fire 
responses of vegetation and soils. I am not an expert in these areas, 
or very familiar with all of the recent literature. However, I will 
comment on the case of ponderosa pine in the Southwest, which I know 
best. A recent published study of post-fire forest recovery in 
Southwestern ponderosa pine landscapes (Savage and Mast 2005) found 
that re-establishment of forests in high severity burned areas was 
highly variable. In some cases trees did re-establish, and in other 
areas, burned areas have not recovered to forest--even 50+ years after 
the fire. Ponderosa pine produces large seed crops only erratically, 
and the seeds are heavy and do not travel very far by wind. Hence, 
large canopy holes created by severe fire may not recover for 
centuries. Where seedlings do establish following severe fires, Savage 
and Mast found that sometimes very dense stands regenerated. If these 
dense stands are not subsequently thinning by surface fires or 
mechanical treatments, they may create conditions that will generate 
additional high severity fires in the future.
    Regarding soil effects, it has been observed that soil loss and 
erosion is sometimes extreme following high severity crown fires in the 
Southwest. For example, a recent crown fire in the Chiricahua Mountain 
of Southern Arizona resulted in a 30 foot deep, 60 foot wide gully at 
about 9000 feet elevation in this mountain (personal observation). 
Sheet erosion of soils, flooding and debris flows have occurred widely 
in Southwestern mountain ranges following recent fires (Allen 2007). In 
some cases, thin ancient soils in some burned areas in Southwestern 
Mountain ranges have been completely eroded away, and it is unlikely 
that soils or trees will re-establish on these sites for centuries, and 
possibly millennia.
    Question 11. If trees sometimes have a more difficult time 
regenerating after high intensity fires and water retention and run off 
are negatively impacted in the absence of tree cover; and we do 
experience higher temperatures, are we more likely to see brush fields, 
or stands of new trees as species have to migrate up in elevation and 
to the north through these heavily burned lands?
    Answer. We are already seeing some ecosystem-type conversions as a 
consequence of high severity fire and erosion in some Southwestern 
forests, as I described in response to the previous question. An 
example that Senator Domenici is familiar with is the Bandelier-Los 
Alamos area in the Jemez Mountains of northern New Mexico. A series of 
high severity crown fires in this landscape (including the 1977 La Mesa 
Fire and the 2000 Cerro Grande Fire) has resulted in conversion of 
ponderosa pine and mixed conifer landscapes to grasslands and shrub 
fields over significant areas (Allen 2007). At this point, it seems 
that grasslands and shrub fields are likely to be the most common 
ecosystem type replacing forests in the Southwest, and perhaps 
elsewhere in the West.
    Question 12. Dr. Swetnam, much of your testimony was focused on the 
Pacific Southwest and Southwest, yet many of the climate change models 
suggest that in the short and middle term the tree species composition 
in the upper Great Lakes and the Southeast are likely to see the 
largest changes, while the Western U.S. could even see an expansion of 
forests due to wetter winters. If one assumes that increased global 
temperatures will result in drier climates in these areas and that 
these areas may also experience increased fire activity, what steps can 
the land managers in these states take to mitigate the changes, or to 
prepare for the changes?
    Answer. It is only relatively recently that down-scaled, regional 
climate models have become sufficiently accurate to assess with some 
confidence what may occur climatically in regions of U.S. under 
different scenarios of increasing greenhouse gases in the atmosphere. I 
am not familiar with results of forecasts in most U.S. regions, but 
information on the Southwestern U.S. (e.g., Seager et al. 2007, 
Hoerling 2007) are not encouraging. Precipitation forecasts are still 
much less consistent and reliable that temperature estimates. However, 
even in models showing some increases in winter precipitation, warming 
temperatures and consequent increased evaporation and 
evapotranspiration are likely to override rainfall increases, resulting 
in a net decrease in soil moisture and river flows (Hoerling 2007).
    Regarding what to do to mitigate and prepare for these changes, I 
would refer to my answer to a similar question (#6) by Senator Salazar. 
In summary, I think climate changes (warming and increased droughts, in 
particular), increase the urgency of forest restoration and fuels 
treatments, but these should be focused in landscapes where forests 
have changed the most and have become more conducive to crown fires 
because of past management actions, and where large, high severity 
fires are generally outside the historical range of variability. It 
also makes sense to focus fuels treatments at the wildland-urban-
interface, but not exclusively.
    Question 13. Dr. Swetnam, in the most aggressive models of 
increased temperature and moisture changes can you describe where 
forests might exist in Arizona and New Mexico, as well as what the 
species composition might be at various altitudes say 50 years from 
now? And in 100 years?
    Answer. This is a critically important question, not only for 
Arizona and New Mexico, but also for the rest of the U.S., and the 
globe, i.e., what forest and ecosystem changes will occur due to 
warming and drought trends, when and where? I frankly do not think 
anyone has reliable answers to these questions yet. As I pointed out in 
the previous question (#12) there are improved regional climate change 
model results that are useful in addressing this question. There are 
also dynamic vegetation models that are beginning to address these 
questions (e.g., Bachelet et al. 2001). Some of the vegetation models 
do contain wildfire-climate sub-models, and some include insect 
outbreak dynamics. However, I don't think the important combined 
effects of fires and insect outbreaks have been addressed, and I know 
of no such results for Arizona and New Mexico in particular. I do think 
this is an important topical area needing much further research.
       Response of Thomas Swetnam to Question From Senator Corker
    Question 14. Do we need to reconsider forest management policies or 
other mitigation activities? Are there currently obstacles to forest 
management that could significantly reduce the damage caused by fires 
that will only continue to compound the problem if temperatures 
continue to rise?
    Answer. As I have articulated in response to previous questions by 
Senator Salazar (#4, 6, 7) and Senator Domenici (#9, 12), I believe we 
need to increase our forest restoration and fuels treatments 
substantially in forest types that have undergone major changes in tree 
density and fuel loads because of past management activities. We 
especially need to re-introduce surface fires as an ecological process 
in many of these forests. This will require planning and implementation 
at landscape-scales (i.e., watersheds to mountain ranges), and it will 
especially require collaboration with local communities. As I describe 
in response to Senator Salazar's question (#4), I think utilization of 
recently burned landscape ``mosaics'' is an outstanding opportunity to 
carryout much larger treatments, especially using prescribed fire. 
Moreover, there is urgency in quickly moving to landscape-scale 
treatments in these areas because it has been demonstrated in recent 
studies (Finney et al. 2005, Omi et al. 2007) that there is a fairly 
short window of time (10 years or less) that these treatments can 
effectively mitigate the effects of future wildfires.
    There are many obstacles to carrying out ecological restoration and 
mitigating/adapting to climate change and future wildfires using 
thinning and prescribed fire treatments. A few examples include smoke 
emissions, risk of escaped prescribed fires, liabilities in the use of 
fire as a management tool, public/agency conflicts over goals and means 
of carrying out restoration programs, etc. Dealing with all of these 
obstacles is daunting, but doable, I think, so long as collaborative 
approaches involving all concerned are a central part of the process.
    I would mention one obstacle in particular at this point: The 
professional capacity for fire management must be increased 
substantially within the federal agencies if we are to meet the 
challenge of creating more resilient and sustainable ecosystems in the 
face of coming climate changes. By this I mean that we need a much 
larger corps of well-trained, experienced, year-round fuels and fire 
managers. The task of fire fighting must not continue to overwhelm the 
ability to manage fuels and forests. An investment in much greater 
personnel capacity and expertise to plan and implement thinning and 
prescribed burning in the context of building ecological resiliency is 
essential to move beyond the current reactive mode of management in 
response to increasingly severe wildfire seasons (see the recent GAO 
report, 2007).
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

    Statement of the National Association of Conservation Districts
    On behalf of the nation's 3,000 conservation districts, the 
National Association of Conservation Districts (NACD) is pleased to 
provide comments to the Committee on climate change and wildfires. 
Established under state law, conservation districts are local units of 
government charged with carrying out programs for the protection and 
management of natural resources at the local level.
    In carrying out their mission, districts work closely with the 
USDA's Forest Service and Natural Resources Conservation Service and 
the Interior Department's Bureau of Land Management to provide the 
technical and other help private landowners need to plan and apply 
complex conservation treatments on forest, range and other working 
lands.
    Conservation Districts play an important role in the areas of 
hazardous fuels reduction, woody biomass utilization and forest 
planning.
    Though changing climate may have an effect many agree that because 
of past management practices and fire suppression, many of our forests 
administered by Federal agencies have accumulated fuel loads and 
developed stand structures susceptible to catastrophic fires that 
destroy the stands and increase the risk of insect and disease attack. 
Silvicultural practices such as prescribed fire, density control and 
harvest of commercial forest products can reduce the frequency and 
intensity of extreme fire events, while benefiting local, regional, and 
national economies.
    Conservation districts across the country are actively involved in 
implementing the National Fire Plan that was developed in 2000. 
Conservation Districts:

  <bullet> Serve as a catalyst to assemble major stakeholders to work 
        together to solve wildfire and any other environmental problems 
        on a community or watershed level.
  <bullet> Provide education and information about critical local 
        natural resource issues.
  <bullet> Play a direct role in implementing wildfire protection plans 
        such as hazardous fuel reduction and prevent a catastrophic 
        fire or in restoration plans to stabilize a site after a 
        wildfire has occurred.

    Conservation districts applaud Congress for passing the Healthy 
Forests Restoration Act (HFRA) in 2003. The funding for HFRA and 
implementation through the National Fire Plan provide opportunities for 
local communities and organizations, including conservation districts, 
to become engaged in community wildfire protection projects, fuels 
reduction projects, and state and local Firewise education efforts. 
Continued commitment from Congress and the administration to this end 
is crucial to if we are to make our forests more healthy and our 
communities safer places to live and work.
    Conservation districts and resource conservation and development 
councils (RC&Ds) already have in place a number of cooperative 
agreements with federal land management agencies to promote, and 
improve the utilization of woody biomass in order to reduce the build-
up of hazardous fuels, lessen the threat of catastrophic wildland fires 
and restore forest, woodland, and rangeland health.
    Conservation districts' efforts offer tremendous opportunities to 
reduce catastrophic wildland fires and restore forest, woodland, and 
rangeland health. In recognition of these opportunities, NACD entered 
into a cooperative agreement with the Bureau of Land Management and 
Forest Service to develop, promote, and improve woody biomass 
utilization.
    Other partners in this effort include the Interior Department's 
Bureau of Indian Affairs, National Park Service, Fish and Wildlife 
Service, the National Association of Resource Conservation & 
Development Councils, and State Forestry Agencies.
    Under this agreement, NACD is providing resource materials and 
information to local conservation districts to educate landowners and 
others on the issue. The goal of this initiative is to help increase 
public understanding of the social, economic, environmental and 
aesthetic benefits gained by using woody biomass as a means of reducing 
the buildup of hazardous fuels.
    We believe more cooperative efforts such as this are needed. 
Involving local communities and landowners is the ideal way to ensure 
the success of the Healthy Forests Restoration Act, the National Fire 
Plan and other efforts in wildland fire management.
    Conservation districts also support other collaborative efforts of 
the Interior and Agriculture Departments in conducting fuel reduction 
treatments in the urban wildland interface on federal lands that are at 
risk from wildfire. To maximize their effectiveness, we believe these 
collaborative hazardous fuel reduction efforts should include:

  <bullet> A landscape scale approach with the support and involvement 
        of local constituents;
  <bullet> Cross boundary mitigation;
  <bullet> Coordination of Federal, state and local government 
        priorities, project design and implementation strategies to 
        maximize effectiveness and minimize costs; and
  <bullet> Project designs that consider restoration of ecosystem 
        structure, native composition and natural fire regimes.

    The drought, which is expected to continue unabated for several 
more years--especially in the West--adds to the wildland fire issue by 
contributing to insect and disease problems on our Nation's National 
Forests, BLM lands and private woodlands, as well. Not only is the 
damage costly to timber, but it also adds to the fuel load and 
endangers lives, homes, and entire communities as we have recently seen 
in South Lake Tahoe.
    The nation's conservation districts believe that there are many 
more opportunities to develop the potential to use woody biomass and 
turn hazardous fuels into useful and valuable products such as 
renewable energy. We look forward to continuing our partnerships with 
the various federal agencies that are responsible for managing the 
nation's public forests and rangelands.
    NACD encourages support for policies and programs that prevent the 
buildup of hazardous fuels and rehabilitate those lands damaged by 
wildfire. Such efforts should be coordinated with biomass utilization 
projects and include criteria for enhancing watershed health. We look 
forward to continuing to work with the Committee on these issues and 
working at the state and local level to explore opportunities to 
partner with federal, state and local emergency response agencies to 
address natural resources recovery.
                                 ______
                                 
     Statement of Laura McCarthy, Interim Co-Director, Global Fire 
                   Initiative, The Nature Conservancy
    The Nature Conservancy is providing written testimony to add to the 
record of the Energy and Natural Resources full committee held 
September 24, 2007. This written testimony summarizes work by The 
Nature Conservancy's Global Fire Initiative and Global Climate Change 
Initiative to understand the impacts of climate change on fire 
management at a global scale and to work with public land managers in 
the Western U.S. to adapt to changing climate and fire regimes in 
specific landscapes.
    The Nature Conservancy is an international, nonprofit organization 
dedicated to the conservation of biological diversity. Our mission is 
to preserve the plants, animals and natural communities that represent 
the diversity of life on Earth by protecting the lands and waters they 
need to survive. Our on-the-ground conservation work is carried out in 
all 50 states and in more than 30 foreign countries and is supported by 
approximately one million individual members. The Nature Conservancy 
has protected more than 117 million acres of land and 5,000 miles of 
river around the world. Our work also includes more than 100 marine 
conservation projects in 21 countries and 22 U.S. states.
    The Conservancy owns and manages approximately 1,400 preserves 
throughout the United States--the largest private system of nature 
sanctuaries in the world. We recognize, however, that our mission 
cannot be achieved by core protected areas alone. Therefore, our 
projects increasingly seek to accommodate compatible human uses, and 
especially in the developing world, to address sustained human well-
being in a changing world.
    Climate change and altered fire regimes pose serious long-term 
threats to healthy ecosystems that support people, plants, and animals. 
Prompt action is needed to address these threats to minimize future 
harm to nature and to the social and economic fabric of our society. 
The effects of a changed climate, including increases in global average 
air and ocean temperatures, increased precipitation in some areas and 
more frequent and severe droughts in others, an increase in the 
occurrence of intense weather events and a change in wildfire patterns 
and intensity, are already evident. This testimony will focus on 
adaptation strategies, in order to avert the most extreme effects.
     impacts of climate change on fire management and forest health
    Fire is a key process in many ecosystems around the world\1\ and in 
the majority of U.S. ecosystems.\2\ The Nature Conservancy's recent 
global fire assessment found that over half of global lands have 
degraded fire regimes from urban development, livestock ranching, 
agriculture and mining.\3\ The alternation of these natural fire 
regimes through excessive wildfire suppression or, at the other 
extreme, catastrophic wildfire, can impair ecosystem function, emit 
greenhouse gases above natural levels, open pathways for invasive 
species, and place biodiversity conservation and human life and 
property at risk.
---------------------------------------------------------------------------
    \1\ Agee, J.K. 1993. Fire Ecology of Pacific Northwest Forests. 
Island Press. Wash., D.C.; Hardesty, J., R.L. Myers and W. Fulks.2005. 
Fire, ecosystems, and people: a preliminary assessment of fire as a 
global conservation issue. The George Wright Forum 22:78-87; Myers, 
R.L.2006. Living with fire: sustaining ecosystems and livelihoods 
through Integrated Fire Management. The Nature Conservancy. 
Tallahassee, FL; Pyne, S.J., P.L. Andrews and R.D. Laven, 1996. 
Introduction to Wildland Fire. 2nd edition. John Wiley and Sons, New 
York, NY.
    \2\ Shlisky, A.,J. Waugh, P. Gonzalez, M. Gonazlez, M. Manta, H. 
Santos. E. Alvarado, A. Ainuddin Nuruddin, D.A. Rodriguez-Rejo, R. 
Swaty, D.Schmidt, M.Kaufmann, R.Myers, A.Alencar,F.Kearns,D.Johnson, 
J.Smith, D.Zollner and W.Fulks.2007.Fire, Ecosystems and People: 
Threats and Strategies for Global Biodiversity Conservation. GFI 
Technical Report 2007-2.The Nature Conservancy. Arlington, VA.
    \3\ Shlisky,A.,J. Waugh,P. Gonzalez, M. Gonazlez, M. Manta, 
H.Santos. E. Alvardo, A. Ainuddin Nuruddin, D.A.Rodriguez-Trejo, 
R.Swaty, D.Schmidt, M.Kaufmann, R.Myers, A.Alencar, F.Kearns, 
D.Johnson,J .Smith, D.Zollner and W.Fulks. 2007. Fire, Ecosystems and 
People: Threats and Strategies for Global Biodiversity Conservation. 
GFI Technical Report 2007-2. The Nature Conservancy. Arlington, VA.
---------------------------------------------------------------------------
    Climate change is also altering key factors that control wildfire: 
temperature, precipitation, humidity, wind, biomass, vegetation species 
composition and structure, and soil moisture. Human activities have 
increased atmospheric concentrations of carbon dioxide and other 
greenhouse gases, causing global mean temperature to increase 
0.7[degree] C in the 20th Century.\4\
---------------------------------------------------------------------------
    \4\ Intergovernmental Panel on Climate Change (IPCC). 2007. Climate 
Change 2007: The Physical Science Basis. Cambridge University Press. 
Cambridge, U.K.
---------------------------------------------------------------------------
    Projections of future climate predict that natural fire frequencies 
will increase around the world,\5\ although fire may decrease in areas 
of higher precipitation. Warmer temperatures, decreased precipitation 
over land, increased convective activity, increased fuels from dying 
vegetation, and large-scale vegetation shifts may increase fire 
globally.
---------------------------------------------------------------------------
    \5\ Intergovernmental Panel on Climate Change (IPCC). 2007. Climate 
Change 2007: The Physical Science Basis. Cambridge University Press. 
Cambridge, U.K.
---------------------------------------------------------------------------
    Wildfires may create a positive feedback for global warming through 
significant emissions of greenhouse gases. Wildfires currently 
contribute approximately 7% of global greenhouse emissions.\6\ Global 
fire data indicate that carbon emissions from fire increased 
significantly in the last century--from 1.5-2.7 billion tons C 
y-<SUP>1</SUP> in 1900 to 2.7-3.3 billion tons y-<SUP>1</SUP> in 2000--
mainly as a result of tropical deforestation.\7\
---------------------------------------------------------------------------
    \6\ Intergovernmental Panel on Climate Change (IPCC). 2007. Climate 
Change 2007: The Physical Science Basis. Cambridge University Press. 
Cambridge, U.K.
    \7\ Mouillet, F.,A. Narasimha, Y.Balkanski, J.F. Lamarque, and C.B. 
Field. 2006. Global carbon emissions from biomass burning in the 20th 
century. Geophysical Research Letters 33:L01801.doi10.1029/
2005GL024704.
---------------------------------------------------------------------------
    In mid-altitude conifer forests of the western U.S., an increase in 
spring and summer temperatures of 1C since 1970, earlier snowmelt, and 
longer summers increased fire frequency 400% and burned area levels 
650% from 1970 to 2003.\8\ Low levels of human activity in those 
forests, however, suggest that climate change may cause different 
impacts where there are high levels of human intervention.
---------------------------------------------------------------------------
    \8\ Westerling.A., H.G. Hidalgo, D.R. Cayan, and T.W. Swetnam. 
2006. Warming and earlier spring increase western U.S. forest fire 
activity. Science 313: 940-943.
---------------------------------------------------------------------------
    Across much of North America, fire suppression during the 20th 
Century depressed fire frequencies below natural levels. In these 
areas, prescribed burning and wildland fire use could return ecosystems 
to an ecologically-appropriate fire regime, particularly if favored by 
future climate. Although prescribed burning may release greenhouse 
gases in the short-term, re-growth in biomass results in no net loss of 
carbon. Prescribed burning can also increase numbers of large-diameter 
old-growth trees (and standing biomass per unit area), thus reducing 
net greenhouse gas emissions in the long term.
   land treatments to improve resilience in fire-dependent ecosystems
    Questions to witnesses on September 24 revealed some of the 
Committee members' interest in the role of mechanical fuels reduction 
treatments to increase forest resilience to large-scale fires triggered 
by climate change (specifically less snowpack and higher summer 
temperatures). During the question and answer period, Dr. Thomas 
Swetnam made a point that was captured by the press as, ``We can't thin 
our way out of this.'' However, Dr. Swetnam's answer was actually much 
longer, as he explained how thinning is a necessary part of a landscape 
approach that addresses forest health at a scale of 100,000 acres or 
more. Specifically, Dr. Swetnam suggested that entire landscapes may 
not need to be mechanically thinned, but rather that such treatments 
could be strategically placed in the landscape, and fuels on the rest 
of the lands treated with prescribed burning and wildland fire use.
    The Nature Conservancy is already applying this landscape approach 
through a partnership program called the Fire Learning Network carried 
out with the Department of the Interior and USDA Forest Service. The 
Fire Learning Network consists of 76 multi-jurisdictional landscapes in 
36 states, ranging in size from 1,200 to 12 million acres. The 
landscapes are organized into regional networks that generally use 
collaborative approaches to large scale ecological restoration, and the 
four Western networks include several examples of the strategic 
approach discussed by Dr. Swetnam.
    The lessons learned from the Fire Learning Network experience with 
collaborative landscape restoration indicate that land managers and 
partners in some places are successfully developing strategies to 
restore forest health in fire-dependent ecosystems impacted by climate 
change. These land managers are developing landscape restoration plans 
before they begin treatments. The landscape restoration plans are based 
on a collaboratively developed vision of the desired future landscape 
condition, expressed quantitatively with data derived from LANDFIRE and 
related sources. The plans include an assessment of current ecological 
conditions and the treatments necessary to move toward the desired 
future condition. As a result, most implementation fits the description 
offered by Dr. Swetnam--that is strategically placed mechanical 
treatments and a program of prescribed burning and wildland fire use to 
restore ecological conditions across a large landscape.
                      summary and recommendations
    Two conclusions emerge from the above summary of climate change 
impacts on fire management at a global scale that are important to 
incorporate into forest and fire management policy:

          1. Attempts to exclude fire from forests that are adapted to 
        low-intensity, frequent fire can result in a net increase in 
        carbon release because eventually, unnaturally severe, damaging 
        fires can occur as a result of a build-up of vegetation.
          2. The ecologically appropriate use of prescribed burning and 
        wildland fire use in fire-dependent ecosystems does not 
        contribute to increased carbon emissions in the long run.

    The Nature Conservancy recommends that the Senate Energy and 
Natural Resources Committee steer the agencies to develop climate 
change adaptation strategies through existing agency land and resource 
management planning, research programs, and new initiatives that may be 
launched to address climate change.
                                 ______
                                 
    Statement of Thomas R. Armstrong, Senior Advisor, Global Change 
        Programs, Geological Survey, Department of the Interior
    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to provide this statement for the record on climate change 
and its impacts on wildfire activity in the United States. My name is 
Thomas R. Armstrong, and I am the senior advisor for global change 
programs at the U.S. Geological Survey (USGS). I also represent USGS 
and the Department of the Interior (DOI) as a member of the U.S. 
Climate Change Science Program (CCSP).
    Climate change is perhaps the most complex and multi-faceted 
challenge facing public land managers. Although climate change is a 
natural, continuous Earth process, changes to the Earth's climate are 
related to human activities as well. Whether the causes are natural or 
from human influence, the USGS climate change focus is on understanding 
its impacts and the potential adaptive strategies for managing natural 
resources and ecosystems in the face of these changes.
    Climate change affects biota, water, ecosystems, cultures, and 
economies. To effectively manage its public lands and trust resources, 
the DOI, working within the broader U.S. interagency climate change 
science framework, must advance the scientific understanding of climate 
change processes and impacts. The USGS, a DOI bureau, has a long and 
distinguished history of conducting research, monitoring and modeling 
of climate change and its physical and biological impacts. The USGS 
conducts scientific research to understand the likely consequences of 
climate change, especially by studying how climate has changed in the 
past and using the past to forecast responses to shifting climate 
conditions in the future; distinguishing between natural and human-
influenced changes; and recognizing ecological and physical responses 
to changes in climate. For example, USGS scientists and colleagues have 
created sophisticated models that relate wildland fire patterns to 
decadal climatic variability (Swetnam and Betancourt 1998). USGS 
researchers have also investigated plant, animal, soil, and water 
responses to fire through field-based empirical investigations for more 
than 40 years (Van Wagtendonk 1983, 1994; Keeley 2004). These 
capabilities and strengths allow the USGS to play a critical role in 
conducting climate change science across the Nation's terrestrial, 
freshwater, and coastal systems and in providing objective science to 
assist decision makers.
    The DOI has taken bold steps to coordinate and focus its efforts in 
climate change. Secretary Kempthorne has convened a Climate Change Task 
Force to address the land management and stewardship challenges 
presented by a changing climate. The task force includes three 
subcommittees--one on legal and policy issues; a second on land and 
water management issues; and a third, which I chair, dealing with 
climate change scientific issues specifically related to the DOI's 
responsibilities. This latter subcommittee is exploring development of 
regional scale models to better forecast location-specific changes to 
the landscapes we manage. In addition, it is evaluating information 
needs to determine whether more extensive and integrated monitoring 
might strengthen the understanding of on-the-ground trends in the 
forces of climate and how they influence water availability, vegetative 
patterns (including proliferation of invasive species and the health 
and integrity of native plant communities), wildlife habitat, the 
future viability of threatened and endangered species, and wildfires.
    A changing climate may profoundly shape future impacts of wildfires 
throughout the United States, North America, and the rest of the planet 
(Westerling et al. 2006). A changing climate is expected to produce 
major shifts in the timing and magnitude of local to regional 
precipitation patterns, the types and distribution of vegetation, 
including invasive species, and the types and volumes of fire fuel 
loads-and thus fire frequency, severity, and intensity. For example, as 
precipitation patterns in desert ecosystems change, opportunistic 
species such as red brome and cheatgrass invade. USGS research shows 
that these invasive species alter the natural ecosystems and fire 
regimes, leading to hotter burning fires that further alter soils and 
ecosystems (Whisenant 1990; Knapp 1996; Young and Evans 1978; Brooks 
and Pyke 2001; Suring et al. 2005; Miller and Tausch 2001).
    While DOI bureaus have management responsibility for both forest 
and rangeland habitat, a large portion of that habitat is in rangeland. 
Natural and human-caused disturbances have interacted over the past 
several decades to change rangelands and pinyon-juniper ecosystems 
across as much as one half of the Great Basin's one hundred million 
acres (McIver et al. 2004). Protracted drought coupled with invasive 
species, altered fire regimes, grazing, human settlement and 
recreation, and energy exploration and development have yielded suites 
of vegetation that often cannot support wildlife species. Increasing 
annual temperature and decreasing precipitation regimes have 
exacerbated these ecological changes, and climate change will continue 
to interact with plant and animal dynamics on dry lands. As a result of 
these rapid and widespread changes, the sagebrush biome is becoming 
widely recognized as among North America's most ``at-risk ecosystems'' 
(Noss 1995).
    Encroachment of native conifers such as juniper on the more mesic 
or moisture-balanced lands of the sage biome has shifted fire regimes 
from frequent, low-and mixed-severity fires to infrequent, high-
severity fires. Fuel loads have increased as much as six-fold (McIver 
et al. 2004). Changes in the size and severity of wildfires and in the 
type and patterns of precipitation, whether snow or rain, falling on 
burned areas may have significant effects on the biological and 
hydrological response of large areas of the landscape (Omi 2005). One 
unknown is the impact of climate change on the distribution of State or 
federal listed noxious weed species.
    Expansion of some invasive species, particularly cheatgrass and red 
brome which can serve as highly flammable fuels, have changed fire 
return intervals on the more xeric or dry interior rangelands from more 
than 50 years to less than 10 years (Miller and Tausch 2001). Another 
recent study found that cheatgrass biomass increases are stimulated by 
increasing carbon dioxide levels (Ziska et al. 2005). This study also 
found that cheatgrass will become more coarse (e.g., lignin content 
will increase) in the future, reducing the time that it is palatable to 
livestock and wildlife and causing fuel loads to accumulate due to 
reduced decomposition rates.
    USGS research supports land-management agencies by working to 
discover the site-specific conditions where management actions, such as 
fire suppression and mechanical treatments, can restore rangeland 
vegetation to habitat suitable for critical wildlife species such as 
the sage grouse. Better decision making tools mean better management of 
land resources, and they provide the support necessary to manage 
wildland fuels and wildfires through more cost-effective means.
    The USGS, in some cases in collaboration with universities or 
management agencies and with the support of the Joint Fire Science 
Program, conducts fire-related research to meet the varied needs of 
resource managers and to understand the role of fire on the landscape. 
This research includes fire management support, studies of post-fire 
effects and habitat restoration, and a wide range of studies on fire 
history and ecology. The ongoing mountain pine beetle epidemic, a 
consequence of long-term drought, perhaps related to climate change, 
has devastated forests throughout the West, thus creating a potential 
for catastrophic wildfires that may affect the natural ecosystems, 
homes and communities, including municipal water supplies, and local 
economies. The USGS is involved in multi-agency efforts to identify the 
bark beetle spread, tree mortality, and the potential for post-fire 
debris flows and water-quality effects. These efforts include the 
Colorado Front Range Fuels Treatment Partnership and the Northern 
Colorado Bark Beetle Cooperative, partnerships that include not only 
USGS but also the U.S. Forest Service, the National Park Service, the 
Bureau of Land Management, the U.S. Fish and Wildlife Service, and 
other State and local agencies.
    To better understand the interaction between climate change and 
fire, and provide the science needed by resource managers and decision 
makers, the USGS is working to develop:

  <bullet> A better understanding of fire's ecological role over the 
        full range of biophysical settings and ecosystems. Basic fire 
        ecology identifies biological sensitivities and dependencies, 
        guiding management in prediction of post-fire consequences and 
        in engineering the proper application of fire for long-term 
        management. This understanding extends to physical processes 
        within burned watersheds that affect restoration, runoff, 
        erosion, sedimentation, debris-flow generation and water-
        quality issues. Recent USGS research efforts include collection 
        and analysis of samples from the June 2007 Angora Fire on the 
        shores of Lake Tahoe to determine potential water-quality and 
        health effects of ash. Additionally, models developed by USGS 
        scientists can be used to predict the probability and quantity 
        of debris flows after wildfire.
  <bullet> Means for securing better and more timely empirical data on 
        fire effects and responses. This includes the development of 
        new methodologies, technologies such as remote sensing, or 
        approaches for quantifying and mapping active fires and post-
        fire effects, as well as standardizing field sampling.
  <bullet> A better scientific understanding of the factors that 
        influence fire regimes and post-fire effects, such as climate, 
        precipitation, change in vegetation type and pattern, fuel, and 
        insect and pathogen invasions.
  <bullet> Methods to integrate the preceding topics to address 
        emergency response, treatments and prescriptions, priority 
        setting, fuel reduction, risk assessment, safety, public 
        information, and cost effectiveness.

    Also, in partnership with the USDA Forest Service and the Nature 
Conservancy, USGS continues to provide a pivotal role in developing the 
LANDFIRE project--mapping and modeling of vegetation, fuel conditions, 
and a suite of other data. These products benefit landowners and land 
managers throughout the country.
    In summary, wildfires are a serious and growing hazard over much of 
the United States. They threaten life and property, particularly when 
they move from forest or rangeland into developed areas. This situation 
may be exacerbated by a changing climate. USGS fire-related research 
that includes fire management support, studies of post-fire effects, 
and studies of fire history and ecology are essential to understanding 
and forecasting the impacts of climate change on forest and rangeland 
ecosystems. An improved understanding and the ability to forecast 
future impacts can serve as the scientific foundation upon which fire 
management and land management decisions can be based.
    Mr. Chairman, we appreciate your continued interest in this 
challenging land management issue, and we thank you for the opportunity 
to present this statement.



                               <all>



</pre></body></html>
